U.S. Department of the Interior
Office of Inspector General




 SPECIAL REPORT TO THE
CHAIRMAN, COMMITTEE ON
 GOVERNMENTAL AFFAIRS
  UNITED STATES SENATE


   REVIEW OF THE FISCAL YEAR 1999
     PERFORMANCE REPORTS AND
FISCAL YEAR 2001 PERFORMANCE PLANS
                FOR
THE U.S. DEPARTMENT OF THE INTERIOR

             REPORT NO. 00-I-533
                 JUNE 2000
                                            CONTENTS

                                                                                                           Page

GENERAL OBSERVATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     1

RESPONSES TO QUESTIONS FROM THE U.S. SENATE
  COMMITTEE ON GOVERNMENTAL AFFAIRS . . . . . . . . . . . . . . . . . . . . . . . .                          4

SPECIFIC COMMENTS ON PLANS AND REPORTS . . . . . . . . . . . . . . . . . . . . . .                           7

         DEPARTMENTAL MANAGEMENT OFFICES . . . . . . . . . . . . . . . . . . . . . .                         7
         BUREAU OF INDIAN AFFAIRS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       13
         BUREAU OF LAND MANAGEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                22
         BUREAU OF RECLAMATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        32
         MINERALS MANAGEMENT SERVICE . . . . . . . . . . . . . . . . . . . . . . . . . . . .                48
         NATIONAL PARK SERVICE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      52
         OFFICE OF INSULAR AFFAIRS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        60
         OFFICE OF SURFACE MINING . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         67
         U.S. FISH AND WILDLIFE SERVICE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         73
         U.S. GEOLOGICAL SURVEY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     80




OIG Report No. 00-I-533
                          GENERAL OBSERVATIONS

In our analyses of the Department of the Interior’s (DOI) performance reports and plans, we
evaluated the performance goals and measures and data validation and verification procedures and,
where appropriate, offered suggestions for improvements. Because the reports used the terms
goals and measures inconsistently, we identify all performance goals and measures as "goals" in this
report.

Performance Goals

Overall, we found that performance goals were appropriate for and relevant to the accomplishment
of bureau mission\program objectives. Also, in general, we consider the bureaus’ fiscal year 2001
plans to be an improvement over their fiscal year 1999 plans with respect to the elimination of
nonessential goals and establishment of more mission-related goals. However, we believe that
DOI could improve the goals in its performance plans by:

    - Eliminating or modifying goals that are not program or function-related. In a few
cases, bureaus established goals that were not related to programs but to approaches or strategies
for achieving program results. For example, one of four goal categories established by National
Park Service (NPS) is "ensure organizational effectiveness." (A similar goal was included in Bureau
of Reclamation’s (BOR) performance plan.) This goal category includes items such as "workforce
stewardship" (that is, employee job satisfaction) and workforce diversity. Also, Fish and Wildlife
Service’s (FWS) fiscal year 2001 plan contains a secondary goal, "partnerships in accountability"
(under its "Partnerships in Natural Resources" mission goal), the objective of which is "to ensure
that the Service have [sic] in place processes, procedures, and controls . . . to ensure fiscal
accuracy and accountability to the public." We do not consider organizational effectiveness to be
a distinct performance goal because, as Bureau of Land Management (BLM) states in its
performance plan, it is a "‘means’ rather than an outcome" and "only indirectly related to mission."

Bureaus also classified as goals data collection efforts or other strategies for accomplishing program
objectives. For example, FWS classified grants management as a goal, the objective of which was
to automate information on grants. Maintaining grants information is an activity that enables FWS
to award grants for projects and programs that support FWS mission objectives. BLM classified
as a goal the condition assessment of priority sub-basins. The performance of condition
assessments is an activity that enables BLM to identify sub-basin areas in need of restoration, with
restoration being the program for which performance measures should be established. Also, NPS
classified as a goal the inventorying of archeological sites, an activity that supports another NPS
goal, improving the condition of archeological sites.

    - Establishing goals for all significant programs and functions. In some cases, bureaus
did not establish performance goals for all major programs and functions. For example, NPS,
which had performance goals for its historic structures, cultural landscapes, and archeological sites,
did not have a performance goal related to the maintenance or construction of its basic

OIG Report No. 00-I-533                                                                       Page 1
infrastructure of buildings, structures, roads, and other facilities. In addition, although NPS had a
goal on visitor satisfaction it did not have a goal specific to its concessions program, which provides
essential goods and services to park visitors. The Office of Surface Mining Reclamation and
Enforcement (OSM), which has a statutory requirement to collect fees based on the type and
amount of coal production, also did not have a performance goal related to its fee collection
program. Annually, OSM collects fees of about $277 million from coal operators. The fees are
the sole funding source for OSM’s Abandoned Mine Lands Program.

Performance Measures

In general, we found that the bureaus established appropriate measures or performance indicators
and that baseline data in the fiscal year 2001 plan were more complete than data in the fiscal year
1999 plan. The measures, however, in many cases were not related to the achievement of program
objectives but rather to the completion of tasks or activities. As such, the measures may not
provide meaningful information to evaluate mission accomplishments. We believe that DOI could
improve the measures in its performance plans by:

    - Describing the method used to establish target levels of accomplishment. In general,
the bureaus did not describe their rationale for targeting annual performance at a particular level.
However, some bureaus for some measures, did provide an explanation for the targeted
performance levels. OSM, for example, planned to reclaim 8,100 acres in fiscal year 2000 and
9,100 acres in fiscal year 2001. In the text of its 2001 plan, OSM stated that it had requested
additional funding of $15.3 million, "which will result in an additional 1,000 acres being reclaimed."
Also, we found that some bureaus set fluctuating values for their performance goals, but did not
explain the reason for the fluctuations. NPS, for example, having restored 14.7 percent of its
disturbed lands in fiscal year 1999, established a fiscal year 2000 goal of restoring 16.8 percent
of disturbed lands, and a 2001 goal of restoring 2 percent of disturbed lands. NPS provided no
explanation for the fluctuating targeted level of accomplishment other than a note stating "the
baseline was changed for the fiscal year 2001 goal."

    - Indicating the relevance of the performance measure . In quantifying accomplishments,
the bureaus, in general, did not provide information to show the relevance or value of the targeted
level of performance. For example, OSM stated that it would reclaim a specific number of acres
and fund a specific number of projects to accomplish its goal of environmental restoration.
However, OSM’s measure did not provide for prioritizing the accomplishment of reclamation
projects based on the significance of the problems (health and safety projects should be given
priority) and did not provide information on the total number of acres or projects in need of
restoration.

    - Establishing appropriate measures as performance indicators. In some cases, bureaus
did not establish appropriate measures for their performance goals. For example:




OIG Report No. 00-I-533                                                                        Page 2
        -- The U.S. Geological Survey (USGS) has a program activity "Hazards" the objective of
which is "to minimize the loss of life and property." However, the measures for achieving long-term
and annual performance goals for this program activity do not describe the outcome in terms of
conducting science or providing technologies that reduce risk, increase preparedness, or mitigate
damage. Instead, USGS’s hazard-related goals pertain to the maintenance of scientific equipment
or the delivery of technical\scientific products.

         -- The Bureau of Indian Affairs (BIA) has a long-term goal of improving the safety and
functionality of BIA schools and facilities and measures the accomplishment of this goal in terms
of the "number of schools on the priority list receiving replacement construction" and the number
of facility improvement and repair projects awarded. The measures, however, do not provide
information on whether schools are safer or more functional.

        -- The Office of Insular Affairs (OIA) had a goal of improving the infrastructure and
government systems and operations of insular area governments. For this goal, OIA established
a performance measure of completing multi-year capital plans for each insular area government.
We consider effective implementation and not completion of the plan to be the measure of program
accomplishment.

        -- BOR had goals of increasing water availability and improving water quality. BOR,
however, had no performance measures which showed the increased water availability or the
progress in improving water quality.

Data Reliability and Verification

Most bureaus and offices described the methods or proposed methods that would be used to
validate or verify performance data. In some cases, a detailed explanation was provided that
clearly stated the actions that would be taken to verify data, the individuals responsible for the
verification, and the internal controls that might be implemented to ensure data reliability. However,
some bureaus that had significantly revised their performance plans had not established
performance baselines and, therefore, did not address the issue of data validation and verification.
Also, although most bureaus’ fiscal year 1999 reports disclosed data collection shortcomings and
difficulties encountered in obtaining reliable data, only FWS included a separate section in its fiscal
year 2001 plan that described data limitations for each performance measure.




OIG Report No. 00-I-533                                                                        Page 3
            RESPONSES TO QUESTIONS FROM THE
    U.S. SENATE COMMITTEE ON GOVERNMENTAL AFFAIRS


Our responses to the six questions in the May 10, 2000 letter from the Chairman of the U.S.
Senate Committee on Governmental Affairs are as follows:

What performance goals for the agency’s fiscal year 1999 performance plan relate
directly to each of the management challenges?


Of the 231 goals reviewed, 56 goals related to the 10 management challenges1 identified in our
December 1998 letter to Congressman Dick Armey.


                                                  Challenges                   Goals
                                  Challenges      Addressed                  Relating to
                                  Applicable       in Bureau                Management
              Bureau\Office       to Bureaus         Plans        Goals      Challenges
              DMO                      5                5            8             5
              BIA                      4                2           30             8
              BLM                      6                5           48            17
              BOR                      2                2           47             3
              MMS                      1                1           10             2
              NPS                      4                3           29             6
              OIA                      1                1           13             9
              OSM                      1                1           23             4
              FWS                      3                2           15             2
              USGS                     1                0           10             0




1
 The key management challenges identified included: 1. Management of Indian Trust Funds, 2. Maintenance,
3. National Park Service Housing, 4. Financial Management, 5. Waste Management, 6. Revenue Collections,
7. Inspection and Enforcement of Fluid Minerals, 8. Range Monitoring, 9. Land Exchanges, and 10. Year 2000
Readiness

OIG Report No. 00-I-533                                                                          Page 4
According to the performance report, how did the agency perform under each of the
relevant goals?

        Of the 231 goals reviewed, 145 were reported as met and 88 as not met, as summarized
        below.

                                         Number       Goals       Goals
                      Bureau\Office      of Goals     Met        Not Met
                      DMO                   8           7            1
                      BIA                   30         19           11
                      BLM                   48         25           23
                      BOR                   47         37           10
                      MMS                   10          3            7
                      NPS                   29         19           10
                      OIA                   11          0           11
                      OSM                   23         14            9

                      FWS                   15         12            3
                      USGS                  10          9            1
                      Totals               231         145          86



How valid and reliable is the data by which the agency judged its performance? Where
data shortcomings exist, did the agency acknowledge them and indicate what steps it will
take to correct them?

Since we did not audit the baseline measures or the reported accomplishments, we cannot make
an independent assessment of the reliability and validity of the bureaus’ and offices’ data.
However, we assessed the bureaus’ and offices’ validation and verification processes as described
in their 1999 and 2001 plans in terms of whether the processes provided reasonable approaches
that might produce reliable data. Based on these assessments, we consider the 161 of 231 goals
to be based on processes that might produce reliable data if sufficient controls are implemented to
ensure the integrity and consistency of the data collection. Also, bureaus and offices identified
limitations on the data reliability of 104 goals and for 98 of these goals, the bureaus and offices
described the actions that would be taken to improve data reliability. In our assessment we
considered the discontinuation of a goal to be an action taken to address data reliability.

Where an agency has not met a performance goal, does the report adequately explain why
and describe a strategy to meet the goal in the future?


OIG Report No. 00-I-533                                                                    Page 5
Of 86 goals that were reported as not being met, the bureaus provided an adequate explanation
for 82.

Where a goal from the fiscal year 1999 performance plan is not covered in the
performance report or has changed, did the agency adequately explain why?

Of the 231 goals reviewed, all were in the fiscal year 1999 performance plans but 2 were not
discussed in the reports. The omission of the two goals was not adequately explained. Thirteen
goals in the plans were changed in the reports and only one of these changes was adequately
explained.

What improvements has the agency made in its performance plan for Fiscal Year 2001
that are relevant to the above changes?

Our responses to this question are presented in our specific comments on the bureau and offices’
plans and reports presented in the next section of the report.




OIG Report No. 00-I-533                                                                 Page 6
       SPECIFIC COMMENTS ON PLANS AND REPORTS

DEPARTMENTAL MANAGEMENT OFFICES (DMO)

DMO organized its fiscal year 1999 performance plan and report into 6 goal categories with 7
long-term goals and 8 annual goals and substantially revised its fiscal year 2001 plan into 4 long-
term goals with10 performance indicators. The 10 performance indicators in the fiscal year 2001
plan are essentially the same as the 7 long-term goals in the fiscal year 1999 plan with 3 additional
indicators added. DMO did not describe the Departmental offices included or excluded from its
plans and report. However, in the text of the plans’ individual goals, reference was made to 7 of
the 14 Departmental offices listed in DOI’s budget justification. Typically, the plans provided for
the reporting of results in terms of numbers or percentages.

Fiscal Year 1999 Performance Plan and Report

The fiscal year 1999 plan and report contained goal categories including: workforce of the future;
the year 2000 computer problem; reliable and accurate financial information; faster, better, more
cost-effective goods, services, and facilities; facilities maintenance and capital improvements; and
waste management. The plan’s long-term and annual performance goals consisted of improving
the diversity of DOI’s workforce; developing a new training program; achieving unqualified audit
opinions on financial statements; remediating critical systems for the year 2000 date change;
increasing purchase card transactions; improving accountability over museum objects; completing
initial 5-year plans that identify the priority of facility maintenance needs; and establishing a baseline
of environmental audit activities.
We consider seven of the eight annual goals to be appropriate indicators of the overall mission
goals or goal categories with which they are allied. One annual goal, cataloguing museum
collections, we consider to be inappropriately classified as "better, faster, more cost-effective
goods, services and facilities," because the item does not pertain to the delivery of goods, services,
or facilities. We also found that DMO revised the goal of annually increasing the percentage of
catalogued museum objects to inventorying 38.2 million museum objects in the fiscal year 1999
performance report.

We cannot comment on whether DMO’s fiscal year 1999 performance plan provided an adequate
basis for evaluating DMO’s mission or strategy because we did not review or audit to determine
whether DMO did consider seven of the other Departmental offices.

Except for the two goals previously discussed, we consider most annual performance goals and
targets for accomplishment of performance goals to be appropriate and results oriented. In most
cases, DMO established a performance baseline that provided a reasonable approach to measuring
performance and accomplishments. We cannot comment on whether the baseline data are valid
or whether the performance targets (that is, the numbers, amount, or percentage of achievement)
are appropriate or should be measured in greater or lesser amounts.


OIG Report No. 00-I-533                                                                          Page 7
DMO was consistent in that, with the exception of two goals, the goal categories, long-term goals,
and performance targets used in its 1999 performance plan were included in the 1999 performance
report. DMO said that it achieved all but one of its fiscal year 1999 goals. Regarding the one
unmet goal, achieving an unqualified opinion on the financial statements, DMO described the
actions it planned to take to meet its objective.

Fiscal Year 2001 Performance Plan

In its fiscal year 2001 performance plan, DMO restated its long-term goals as (1) lead people to
succeed, (2) provide the services and technology to manage, (3) ensure financial and managerial
accountability, and (4) provide safe and high quality places of work. DMO also added three new
goals which relate to DMO-wide operations, including:1) completion of an information technology
infrastructure protection plan; 2) completion of information technology architecture; and 3)
resolution of material weaknesses and management risks.

DMO’s fiscal year 2001 plan includes the fiscal year 1999 goal of establishing a DOI-wide
baseline of environmental audit activities and programs. For this goal, we suggest that DMO
establish a method or system for data accumulation, documentation, validation, and verification.
The current plan states that bureaus differ in their capabilities to collect data and provides no
explanation as to how DMO will ensure that environmental data are consistent and reliable.

In its fiscal year 2001 plan, DMO reclassifies inventorying museum property and credit card
transactions as performance indicators under the long-term goal, "provide the services and
technology to manage." Again, we find the museum property "indicator" inappropriately classified
because the identification of museum objects is an asset accountability issue and not a
services\technology management issue. If DMO intends to increase accountability over artifacts
by "inventorying" or "cataloguing" the objects, we suggest that DMO clarify how it will verify and
validate the accomplishment of this goal. Regarding the fiscal year 2001 goal on purchase card
transactions, we found that the goal does not include indicators or measures to show that credit
cards are used only for authorized and necessary purchases an\or that the purchases are transacted
in compliance with regulations. Also, the plan does not provide for bureau services of internal
controls to detect and prevent fraud, waste, or abuse in credit card use. We suggest that the plan
provide for the bureaus to assume responsibility for validating purchase card payments and not rely
on OIG for validation, as provided for in DMO’s fiscal year 2001 Plan.




OIG Report No. 00-I-533                                                                    Page 8
Departmental Management Offices

                                    See notes at end of table:   A                                               B                                               C                                            D                                                E                                                   F                                              G                                   H                                                                 I




                                                                                                                                                                                                Fiscal Year 1999 performance plan goal excluded




                                                                                                                                                                                                                                                                                                                                                                                                                                                    Agency indicates what steps it will take to correct
                                                                                                                                                                                                                                                  Fiscal Year 1999 performance plan goal changed



                                                                                                                                                                                                                                                                                                   performance plan goal was excluded or changed




                                                                                                                                                                                                                                                                                                                                                                                                    Agency acknowledges shortcomings in its data?
                                                                                                   describes a strategy to meet goal in the future?




                                                                                                                                                                                                                                                                                                   Adequate explanation of why Fiscal Year 1999




                                                                                                                                                                                                                                                                                                                                                   adequately described the data verification and
                                                                                                                                                      Goal relates to agency’s key management
                                                                                                   If not, report adequately explains why and




                                                                                                                                                                                                                                                                                                                                                   Agency’s performance plan and\or report
                                                                 Fiscal Year 1999 goal achieved?




                                                                                                                                                                                                                                                                                                                                                                                                                                                    shortcomings in its data?
                                                                                                                                                                                                                                                                                                                                                   validation process?
                                                                                                                                                                                                from report?
                                                                                                                                                      challenges?




                                                                                                                                                                                                                                                  in report?



                                                                                                                                                                                                                                                                                                   in report?
GPRA PROGRAM ACTIVITY\M ISSION GOAL :
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          SELECTED COMMENTS ON AGENCY GOALS\ MEASURES AND
FISCAL YEAR 1999 PERFORMANCE GOAL \M EASURE                                                                                                                                                                                                                                                                                                                                                                                                                                                               VALIDATION METHODS

Mission Goal: The Workforce of the Future: Develop a Training and Development Approach and Achieve Levels of Diversity for the Workforce
In Fiscal Year 1999, develop one new training and
development program module focusing on the career                Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                   N                                                              -
development needs expressed by the bureaus.
In Fiscal Year 1999, diverse representation in Interior's
workforce will increase at least 1.1 % from the 1997 level.      Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                   N                                                              -

Mission Goal: Reliable and Accurate Financial Information: Strengthen the Integrity of Financial Operations to Ensure Accuracy of Financial Data and Obtain
Unqualified Opinions on All Financial Statements
For Fiscal Year 1999, achieve unqualified (clean) audit                                                                                                                                                                                                                                                                                                                                                                                                                                                   Fiscal Year 1999 performance report states that MMS
opinions for Interior's eight bureau financial statements, the                                                                                                                                                                                                                                                                                                                                                                                                                                            financial statements were not auditable and that the
Departmental Offices' financial statements, and the                                                                                                            Y                                                                                                                                                                                                                                                                                                                                          Department was working with MMS to address
consolidated financial statements included in the                 N                                              N                                                                                            N                                                N                                                     -                                            Y                                   N                                                              -                                    deficiencies and corrective action. Fiscal Year 1999
Department's annual accountability report.                                                                                                            #4, 6                                                                                                                                                                                                                                                                                                                                               performance report stated that the Department had
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          established a task group to work with BIA to resolve the
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          auditors’ concerns.




   Legend of responses: Y = Yes;            N = No     A Dash ( - ) = Not applicable or no response required based on response to prior question.


         OIG Report No. 00-I-533                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                              Page 9
Departmental Management Offices

                                 See notes at end of table:   A                                               B                                               C                                            D                                                E                                                   F                                              G                                   H                                                                 I




                                                                                                                                                                                             Fiscal Year 1999 performance plan goal excluded




                                                                                                                                                                                                                                                                                                                                                                                                                                                 Agency indicates what steps it will take to correct
                                                                                                                                                                                                                                               Fiscal Year 1999 performance plan goal changed



                                                                                                                                                                                                                                                                                                performance plan goal was excluded or changed




                                                                                                                                                                                                                                                                                                                                                                                                 Agency acknowledges shortcomings in its data?
                                                                                                describes a strategy to meet goal in the future?




                                                                                                                                                                                                                                                                                                Adequate explanation of why Fiscal Year 1999




                                                                                                                                                                                                                                                                                                                                                adequately described the data verification and
                                                                                                                                                   Goal relates to agency’s key management
                                                                                                If not, report adequately explains why and




                                                                                                                                                                                                                                                                                                                                                Agency’s performance plan and\or report
                                                              Fiscal Year 1999 goal achieved?




                                                                                                                                                                                                                                                                                                                                                                                                                                                 shortcomings in its data?
                                                                                                                                                                                                                                                                                                                                                validation process?
                                                                                                                                                                                             from report?
                                                                                                                                                   challenges?




                                                                                                                                                                                                                                               in report?



                                                                                                                                                                                                                                                                                                in report?
GPRA PROGRAM ACTIVITY\M ISSION GOAL :
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       SELECTED COMMENTS ON AGENCY GOALS\ MEASURES AND
FISCAL YEAR 1999 PERFORMANCE GOAL \M EASURE                                                                                                                                                                                                                                                                                                                                                                                                                                                            VALIDATION METHODS

Mission Goal: Faster, Better, More Cost Effective Goods, Services, and Facilities: Increase Productivity and Accountability in Acquisition, Financial Assistance, and
Property Management Operations

In Fiscal Year 1999, purchase transactions will exceed                                                                                                                                                                                                                                                                                                                                                                                                                                                 Fiscal Year 1999 performance report report states that
$275 million.                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          bureaus validate data but does not state how. It also
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       states OIG will validate the credit card data over time. The
                                                                                                                                                            Y                                                                                                                                                                                                                                                                                                                                          report does not state that the bureaus should validate
                                                              Y                                                 -                                                                                          N                                                N                                                     -                                            Y                                   N                                                              -                                    bureau payments for purchase card transactions after they
                                                                                                                                                        #4                                                                                                                                                                                                                                                                                                                                             are approved by bureau management, and the report says
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       nothing about improving agency internal or management
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       controls over credit card transactions to prevent fraud,
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       waste, abuse, mismanagement, irregularities, or errors.
In Fiscal Year 1999, the number of museum objects                                                                                                                                                                                                                                                                                                                                                                                                                                                      Fiscal Year 1999 performance report restated the goal
accurately catalogued will increase by 5 % annually above                                                                                                                                                                                                                                                                                                                                                                                                                                              from "cataloguing " museum objects to "38.2 million museum
the baseline established in Fiscal Year 1998.                                                                                                                                                                                                                                                                                                                                                                                                                                                          objects (cumulative) will be 'inventoried,’ " while
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       emphasizing "establishing accountability" and "accurate
                                                              Y                                                 -                                             N                                            N                                              Y                                                     N                                               N                                  N                                                              -                                    documentation." The change in goal and definitions directly
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       affect the meaning of data validation and verification
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       methods, systems, and results and, in our view, needs
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       clarification to identify property accountability,
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       documentation, data reliability, and validity.




        OIG Report No. 00-I-533                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           Page 10
Departmental Management Offices

                                   See notes at end of table:   A                                               B                                               C                                            D                                                E                                                   F                                              G                                   H                                                                 I




                                                                                                                                                                                               Fiscal Year 1999 performance plan goal excluded




                                                                                                                                                                                                                                                                                                                                                                                                                                                   Agency indicates what steps it will take to correct
                                                                                                                                                                                                                                                 Fiscal Year 1999 performance plan goal changed



                                                                                                                                                                                                                                                                                                  performance plan goal was excluded or changed




                                                                                                                                                                                                                                                                                                                                                                                                   Agency acknowledges shortcomings in its data?
                                                                                                  describes a strategy to meet goal in the future?




                                                                                                                                                                                                                                                                                                  Adequate explanation of why Fiscal Year 1999




                                                                                                                                                                                                                                                                                                                                                  adequately described the data verification and
                                                                                                                                                     Goal relates to agency’s key management
                                                                                                  If not, report adequately explains why and




                                                                                                                                                                                                                                                                                                                                                  Agency’s performance plan and\or report
                                                                Fiscal Year 1999 goal achieved?




                                                                                                                                                                                                                                                                                                                                                                                                                                                   shortcomings in its data?
                                                                                                                                                                                                                                                                                                                                                  validation process?
                                                                                                                                                                                               from report?
                                                                                                                                                     challenges?




                                                                                                                                                                                                                                                 in report?



                                                                                                                                                                                                                                                                                                  in report?
GPRA PROGRAM ACTIVITY\M ISSION GOAL :
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         SELECTED COMMENTS ON AGENCY GOALS\ MEASURES AND
FISCAL YEAR 1999 PERFORMANCE GOAL \M EASURE                                                                                                                                                                                                                                                                                                                                                                                                                                                              VALIDATION METHODS

Mission Goal: Facilities Maintenance and Capital Improvements: Improve Interior's Infrastructure by Allocating Resources That Emphasize Critical Health, Safety,
and Resource Protection Deferred Maintenance Needs and Annual and Cyclical Maintenance.
In Fiscal Year 1999, the Department of the Interior will 1)                                                                                                                                                                                                                                                                                                                                                                                                                                              Fiscal Year 1999 performance report indicates a method
complete first Five-Year Plans, primarily emphasizing the                                                                                                                                                                                                                                                                                                                                                                                                                                                and system for data verification and validation and states
                                                                                                                                                              Y
highest priority critical health and safety and resource                                                                                                                                                                                                                                                                                                                                                                                                                                                 that OIG will annually audit deferred maintenance reporting.
                                                                Y                                                 -                                                                                          N                                                N                                                     -                                            Y                                   N                                                              -
protection projects; 2) develop standards for condition
                                                                                                                                                          #2
assessments; and 3) refine requirements for maintenance
management systems that provide common data elements.
Mission Goal: Waste Management: Conduct Environmental Audits of All Department of the Interior Facilities to Ensure Overall Environmental Compliance by the
Department.
In Fiscal Year 1999, establish a baseline of environmental                                                                                                                                                                                                                                                                                                                                                                                                                                               Fiscal Year 1999 performance report states that bureaus
audit activities and programs across the Department.                                                                                                          Y                                                                                                                                                                                                                                                                                                                                          differ in their capabilities to collect data. The Fiscal Year
                                                                Y                                                 -                                                                                          N                                                N                                                     -                                            Y                                 Y                                                           Y                                         1999 performance report lacks a method and system for
                                                                                                                                                          #5                                                                                                                                                                                                                                                                                                                                             data accumulation, documentation, validation, and
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         verification.
Mission Goal: Year 2000 Computer Problem: Ensure the Department's Critical Information Systems and Processes Have Been Remediated and Are Operating
Correctly for the Year 2000 Date Change.
By March 31, 1999, ensure the Department's critical                                                                                                                                                                                                                                                                                                                                                                                                                                                      Fiscal Year 1999 performance report stated that the goal
information systems and processes have been remediated                                                                                                        Y                                                                                                                                                                                                                                                                                                                                          was completed in March 1999 because Interior became the
and are operating correctly for the Year 2000 date change.      Y                                                 -                                                                                          N                                                N                                                     -                                            Y                                   N                                                              -                                    first cabinet agency to complete renovation and place back
                                                                                                                                                     #10                                                                                                                                                                                                                                                                                                                                                 into service all mission-critical systems ahead of the Office
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         of Management and Budget due date.

                                                                7Y                                                                                      5Y                                                                                          1Y                                                                                                      7Y                                     1Y
                                                                                                        1N                                                                                           8N                                                                                                      1N                                                                                                                                        1Y
Total Goals: 8
                                                                1N                                                                                        3N                                                                                           7N                                                                                                     1N                                   7N




         OIG Report No. 00-I-533                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               Page 11
Departmental Management Offices

NOTES:

A.   The agencies generally reported whether or not the performance goal\measure was met for Fiscal Year 1999. However, in some instance the agency reported that for the performance
     goal\measure it did not have the data or was unable to collect the data met for the specific measure. In these instances, we recorded a No response for the performance goal\measure
     because it was not achieved. When necessary, a specific comment was included in the comment section.

B.   A response is only required for this question if the response in Column A was ‘N’. Responses to Column B should reconcile to the number of N responses in Column A.

C.   On December 1, 1998, the Office of Inspector General provided the Congress a current assessment of the 10 key management challenges within the Department of the Interior. The table
     below shows each challenge and the Departmental agency it applies to.

                      10 Key Management Challenges                               DMO      BIA     BLM     BOR        MMS    NPS     OIA      OSM      FWS     USGS
                      1. Management of Indian Trust Funds *
                      2. Maintenance                                               x       x       x                          x                        x
                      3. National Park Service Housing                                                                        x
                      4. Financial Management                                      x       x                                          x
                      5. Waste Management                                          x       x       x        x                 x                        x
                      6. Revenue Collections                                       x       x       x        x         x       x               x        x         x
                      7. Inspection and Enforcement of Fluid Minerals                              x
                      8. Range Monitoring                                                          x
                      9. Land Exchanges                                                            x
                      10. Year 2000 Readiness                                      x


                      *The Office of the Special Trustee for American Indians is responsible for the "Management of Indian Trust Funds." OST did not prepare a
                      performance plan for Fiscal Year 1999 or produce a performance report. OST is in the process of implementing a Trust Management
                      Improvement Project and is under a Court Order to produce a quarterly report of its progress on the High Level Implementation Plan.

D.   We compared the agency’s Fiscal Year 1999 performance plan and Fiscal Year 1999 performance report to determine if any planned goals\measures were excluded from the report.

E.   We compared the agency’s Fiscal Year 1999 performance plan and Fiscal Year 1999 performance report to determine if any planned goals\measures were changed in the report.

F.   If the agency excluded or changed any of its Fiscal Year 1999 planned goals\measures, indicate whether the agency adequately explained why it excluded or changed the goal\measure.

G.   We were not able to provide assurance regarding the validity and reliability of data because we have not assessed the adequacy of data collection, verification, and validation processes
     for each of the agency’s Fiscal Year 1999 performance goals\measures. However, we attempted to determine whether the agency’s verification and validation process as described in
     its performance plan and\or report could produce reliable data, assuming that there were adequate controls to ensure the integrity of the data throughout the process.

H.   In some instances an agency may have identified shortcomings or limitations in its data collection processes.

I.   Having identified shortcomings or limitations in its data collection processes, did the agency indicate what steps it would take to correct\overcome the problems. A Y response indicates
     that the agency has identified such steps or discontinued the performance goal\measure in its Fiscal Year 2001 performance plan. Responses to Column I should reconcile to the number
     of Y responses in Column H.




          OIG Report No. 00-I-533                                                                                                                                                  Page 12
BUREAU OF INDIAN AFFAIRS

BIA’s fiscal year 1999 performance plan and report had 8 mission goals, 19 long term goals, and
45 annual performance goals, while the fiscal year 2001 performance plan had 8 mission goals, 17
long term goals, and 44 annual performance. The performance targets for these goals typically
consisted of units, such as number of houses repaired or fishing sites maintained, or percentages.


Fiscal Year 1999 Performance Plan and Report

The eight mission goals in the fiscal year 1999 performance plan appropriately addressed BIA’s
major programs.

While BIA’s Fiscal Year 1999 performance report did not specifically identify the sources of data
or the data verification and validation methodology for its 30 performance goals\measures that we
reviewed (we excluded 2 mission goals, consisting of 15 annual performance goals that were
reviewed by the GAO), its fiscal year 2001 performance plan includes a section "Data Verification
and Validation" which provides a general discussion of BIA’s performance data gathering and
reporting process. It also indicates that its primary customers are Individual Indians and Tribal
organizations and that information collection requirements limit what and when BIA can require the
customer to provide data. This limits the BIA’s data collection activities for 12 of the
30 goals\measures.

We are not able to provide assurance regarding the validity and reliability of data because we have
not assessed the adequacy of BIA’s data collection, verification, and validation processes for each
of BIA’s 30 performance goals\measures. However, we consider 18 of the 30 goals\measures to
have processes that would produce reliable data if adequate controls are implemented to ensure
the integrity of the data throughout the process.

We believe that the specific annual performance goals\measures are indicators of certain levels of
program activities and that the method of reporting the results in an appendix does not
communicate what outcomes were actually accomplished by performing those activities. Many of
the BIA’s goals\measures are activities which obligate funds through contracts, compacts, grants,
or purchase orders. BIA’s measurement of performance generally stops with obligating action, we
believe that the plan should include measures that demonstrate whether the intended outcome from
the obligations were realized and to what extent these outcomes accomplished the mission goal and
long-term goal. In addition, a number of long-term goals are vague because baselines for measuring
improvement have not been established and\or communicated in the plan.

Of the "Ten Management Challenges" identified in December 1998 by the OIG, four, were
applicable to the BIA. BIA’s fiscal year 1999 plan include goals\measures addressing
"Maintenance" and "Financial Management," but did not have any goals\measures regarding "Waste
Management " or "Revenue Collections." BIA estimated in 1997 that its cleanup liability for

OIG Report No. 00-I-533                                                                   Page 13
known sites was $66 million and that it needs approximately $100 million for studies and
evaluations to identify other sites and to determine associated estimates of cleanup costs. We
believe that BIA should consider whether a performance measure should be established under the
Mission Goal of Resources Management to address this matter Also, BIA revenue collections for
fiscal year 1999 were more than $200 million. We believe that BIA should consider whether this
matter should be addressed by a performance measure under the Mission Goal of Administration
and Support Services.

Fiscal Year 2001 Performance Plan

BIA’s fiscal year 2001 performance was changed significantly form the Fiscal Year 1999
performance plan. BIA eliminated or revised many goals\measures in order to improve the
performance plan for fiscal year 2001. Overall, the fiscal year 2001 plan was an improvement.
However, the fiscal year 2001 plan still includes a significant number of goals and measures that
do not communicate program outcomes.




OIG Report No. 00-I-533                                                                 Page 14
Bureau of Indian Affairs

                                 See notes at end of table:   A                                               B                                               C                                            D                                                E                                                   F                                              G                                   H                                                                 I




                                                                                                                                                                                             Fiscal Year 1999 performance plan goal excluded




                                                                                                                                                                                                                                                                                                                                                                                                                                                 Agency indicates what steps it will take to correct
                                                                                                                                                                                                                                               Fiscal Year 1999 performance plan goal changed



                                                                                                                                                                                                                                                                                                performance plan goal was excluded or changed




                                                                                                                                                                                                                                                                                                                                                                                                 Agency acknowledges shortcomings in its data?
                                                                                                describes a strategy to meet goal in the future?




                                                                                                                                                                                                                                                                                                Adequate explanation of why Fiscal Year 1999




                                                                                                                                                                                                                                                                                                                                                adequately described the data verification and
                                                                                                                                                   Goal relates to agency’s key management
                                                                                                If not, report adequately explains why and




                                                                                                                                                                                                                                                                                                                                                Agency’s performance plan and\or report
                                                              Fiscal Year 1999 goal achieved?




                                                                                                                                                                                                                                                                                                                                                                                                                                                 shortcomings in its data?
                                                                                                                                                                                                                                                                                                                                                validation process?
GPRA PROGRAM ACTIVITY\M ISSION GOAL :




                                                                                                                                                                                             from report?
                                                                                                                                                   challenges?
FISCAL YEAR 1999 PERFORMANCE GOAL \M EASURE




                                                                                                                                                                                                                                               in report?



                                                                                                                                                                                                                                                                                                in report?
    (EXCLUDES THE 2 MISSION GOALS, CONSISTING OF
    15 ANNUAL GOALS\M EASURES REVIEWED BY THE                                                                                                                                                                                                                                                                                                                                                                                                                                                          SELECTED COMMENTS ON AGENCY GOALS\ MEASURES AND
    GAO)                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               VALIDATION METHODS

TRIBAL GOVERNMENT M ISSION GOAL : To provide Tribes with the resources they need to foster strong and stable Tribal Governments and exercise their authority as
sovereign nations.
01.01.01.01.99: The Bureau will increase the level of                                                                                                                                                                                                                                                                                                                                                                                                                                                  Goal was discontinued in Fiscal Year 2000. Measure is of an
base funding obligations under contracts or compacts to                                                                                                                                                                                                                                                                                                                                                                                                                                                activity to increase funding. Measure does not reflect the
                                                               N                                           Y                                                  N                                            N                                                N                                                     -                                            Y                                   N                                                              -
57.5%.                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                 outcome achieved by increased funding. Funding obligations
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       should be verifiable to financial records.
01.01.01.02.99: Bureau will increase contract support                                                                                                                                                                                                                                                                                                                                                                                                                                                  Measure does not reflect results achieved by increased
funding to 83%.                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        funding and is dependent on funds being appropriated.
                                                              Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                   N                                                              -
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       Goal\measure was significantly revised for Fiscal Year 2000.
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       Funding obligations should be verifiable to financial records.
01.01.02.01.99: The Bureau will complete stage one of                                                                                                                                                                                                                                                                                                                                                                                                                                                  Measure does not reflects results achieved by implementing
its five-stage implementation plan for the requirements of                                                                                                                                                                                                                                                                                                                                                                                                                                             the activities. Verifying that activities were accomplished can
                                                              Y                                                 -                                             N                                            N                                                N                                                     -                                             N                                Y                                                           Y
P.L. 103-176, the "Indian Tribal Justice Act".                                                                                                                                                                                                                                                                                                                                                                                                                                                         be subjective and tedious. Goal\measure was significantly
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       revised for Fiscal Year 2000.
01.01.03.01.99: The Bureau will reduce the number of                                                                                                                                                                                                                                                                                                                                                                                                                                                   Goal was discontinued in Fiscal Year 2000. BIA cannot
petitions on active consideration within the petitioning      Y                                                 -                                             N                                            N                                                N                                                     -                                             N                                Y                                                           Y                                         control the number of petitions it receives; however, it can
process by 3.                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          manipulate the number that are actively being considered.




  Legend of responses: Y = Yes;            N = No     A Dash ( - ) = Not applicable or no response required based on response to prior question.


         OIG Report No. 00-I-533                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                             Page 15
Bureau of Indian Affairs

                                 See notes at end of table:   A                                               B                                               C                                            D                                                E                                                   F                                              G                                   H                                                                 I




                                                                                                                                                                                             Fiscal Year 1999 performance plan goal excluded




                                                                                                                                                                                                                                                                                                                                                                                                                                                 Agency indicates what steps it will take to correct
                                                                                                                                                                                                                                               Fiscal Year 1999 performance plan goal changed



                                                                                                                                                                                                                                                                                                performance plan goal was excluded or changed




                                                                                                                                                                                                                                                                                                                                                                                                 Agency acknowledges shortcomings in its data?
                                                                                                describes a strategy to meet goal in the future?




                                                                                                                                                                                                                                                                                                Adequate explanation of why Fiscal Year 1999




                                                                                                                                                                                                                                                                                                                                                adequately described the data verification and
                                                                                                                                                   Goal relates to agency’s key management
                                                                                                If not, report adequately explains why and




                                                                                                                                                                                                                                                                                                                                                Agency’s performance plan and\or report
                                                              Fiscal Year 1999 goal achieved?




                                                                                                                                                                                                                                                                                                                                                                                                                                                 shortcomings in its data?
                                                                                                                                                                                                                                                                                                                                                validation process?
GPRA PROGRAM ACTIVITY\M ISSION GOAL :




                                                                                                                                                                                             from report?
                                                                                                                                                   challenges?
FISCAL YEAR 1999 PERFORMANCE GOAL \M EASURE




                                                                                                                                                                                                                                               in report?



                                                                                                                                                                                                                                                                                                in report?
    (EXCLUDES THE 2 MISSION GOALS, CONSISTING OF
    15 ANNUAL GOALS\M EASURES REVIEWED BY THE                                                                                                                                                                                                                                                                                                                                                                                                                                                          SELECTED COMMENTS ON AGENCY GOALS\ MEASURES AND
    GAO)                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               VALIDATION METHODS

HUMAN SERVICES M ISSION GOAL : Ensure that individual Indians residing on or near reservations who need assistance receive aid for basic essential needs such as
food, clothing, shelter and other services that improve the conditions of families.
02.02.01.01.99: The Bureau will provide repair and                                                                                                                                                                                                                                                                                                                                                                                                                                                     Measure assumes that the service provided improved
replacement work to 849 of the 30,179 eligible housing                                                                                                                                                                                                                                                                                                                                                                                                                                                 individual Indians living conditions. Goal\measure was
applicants.                                                                                                                                                                                                                                                                                                                                                                                                                                                                                            significantly revised for Fiscal Year 2000, basis for allocating
                                                               N                                           Y                                                  N                                            N                                                N                                                     -                                            Y                                   N                                                              -
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       funds was changed provide more funding to needy
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       applicants. Funding obligations can be verified to financial
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       records.
02.02.01.02.99: The Bureau will increase the number of                                                                                                                                                                                                                                                                                                                                                                                                                                                 Measure does not reflect the adequacy and\or
Tribes operating comprehensive welfare plans to 15.                                                                                                                                                                                                                                                                                                                                                                                                                                                    accomplishments of tribal operated comprehensive welfare
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       plans. This measure does not ensure that individuals who
                                                              Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                   N                                                              -
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       need assistance actually received the aid needed. Funding
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       obligations of Tribes operating plans can be verified to
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       financial records.
02.02.01.03.99: The Bureau will assist three of seven                                                                                                                                                                                                                                                                                                                                                                                                                                                  BIA reported that Congress did not provide Fiscal Year 1999
adult care facilities in becoming State Medicare providers.                                                                                                                                                                                                                                                                                                                                                                                                                                            requested funding, which transfers the accomplishment
                                                               N                                           Y                                                  N                                            N                                                N                                                     -                                            Y                                   N                                                              -                                    responsibility to the Congress. Minor changes to
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       goal\measure in Fiscal Year 2000. Funding obligations of
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       assistance provided can be verified to financial records.
PUBLIC SAFETY AND JUSTICE M ISSION GOAL : To provide quality investigative and police services and technical expertise to Tribes.




         OIG Report No. 00-I-533                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                              Page 16
Bureau of Indian Affairs

                                   See notes at end of table:   A                                               B                                               C                                            D                                                E                                                   F                                              G                                   H                                                                 I




                                                                                                                                                                                               Fiscal Year 1999 performance plan goal excluded




                                                                                                                                                                                                                                                                                                                                                                                                                                                   Agency indicates what steps it will take to correct
                                                                                                                                                                                                                                                 Fiscal Year 1999 performance plan goal changed



                                                                                                                                                                                                                                                                                                  performance plan goal was excluded or changed




                                                                                                                                                                                                                                                                                                                                                                                                   Agency acknowledges shortcomings in its data?
                                                                                                  describes a strategy to meet goal in the future?




                                                                                                                                                                                                                                                                                                  Adequate explanation of why Fiscal Year 1999




                                                                                                                                                                                                                                                                                                                                                  adequately described the data verification and
                                                                                                                                                     Goal relates to agency’s key management
                                                                                                  If not, report adequately explains why and




                                                                                                                                                                                                                                                                                                                                                  Agency’s performance plan and\or report
                                                                Fiscal Year 1999 goal achieved?




                                                                                                                                                                                                                                                                                                                                                                                                                                                   shortcomings in its data?
                                                                                                                                                                                                                                                                                                                                                  validation process?
GPRA PROGRAM ACTIVITY\M ISSION GOAL :




                                                                                                                                                                                               from report?
                                                                                                                                                     challenges?
FISCAL YEAR 1999 PERFORMANCE GOAL \M EASURE




                                                                                                                                                                                                                                                 in report?



                                                                                                                                                                                                                                                                                                  in report?
    (EXCLUDES THE 2 MISSION GOALS, CONSISTING OF
    15 ANNUAL GOALS\M EASURES REVIEWED BY THE                                                                                                                                                                                                                                                                                                                                                                                                                                                            SELECTED COMMENTS ON AGENCY GOALS\ MEASURES AND
    GAO)                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                 VALIDATION METHODS

02.03.01.01.99: The Bureau will reduce the Indian                                                                                                                                                                                                                                                                                                                                                                                                                                                        The measure does not relate to how the goal of to provide
Country crime rate to 33 % by focusing on core law                                                                                                                                                                                                                                                                                                                                                                                                                                                       quality investigative and police services and technical
enforcement issues.                                                                                                                                                                                                                                                                                                                                                                                                                                                                                      expertise to Tribes would be achieved, i.e., if crimes were not
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         reported the measure would be achieved but not the goal.
                                                                 N                                           Y                                                  N                                            N                                                N                                                     -                                             N                                Y                                                           Y                                         Methods for measuring performance were revised for Fiscal
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         Year 2000. BIA is totally dependent on the information
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         reported by Tribal law enforcement organizations. This data
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         was not available in time to include in the Fiscal Year 1999
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         report.
COMMUNITY DEVELOPMENT M ISSION GOAL : To provide Tribes with the resources necessary to develop a self-sustaining economic base which in turn will work to
empower Tribes.
02.04.01.01.99: The Bureau will increase the success                                                                                                                                                                                                                                                                                                                                                                                                                                                     Grantees submit reports to BIA which will compile a
rate of participants in reaching their educational, training                                                                                                                                                                                                                                                                                                                                                                                                                                             consolidated database. BIA is totally dependent on outside
and employment objectives to 70 percent.                                                                                                                                                                                                                                                                                                                                                                                                                                                                 entities for its data, thus data verification to grantee records
                                                                Y                                                 -                                             N                                            N                                                N                                                     -                                             N                                Y                                                           Y
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         would be time consuming and travel intensive. Measure does
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         not address the quality of the educational training or whether
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         the resultant employment related to the training received.
02.04.01.02.99: The Bureau will improve the success                                                                                                                                                                                                                                                                                                                                                                                                                                                      Performance Goal\measure was modified by BIA in Fiscal
rate of businesses provided loan guarantees to 91               Y                                                 -                                             N                                            N                                                N                                                     -                                             N                                Y                                                           Y                                         Year 2000 to provide a meaningful measure of economic
percent.                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                 development.
02.04.02.01.99: The IACB, will increase public access to                                                                                                                                                                                                                                                                                                                                                                                                                                                 BIA is dependent on data submitted by IACB, verification to
museum property by two percent.                                                                                                                                                                                                                                                                                                                                                                                                                                                                          museum records would be time consuming. How this
                                                                Y                                                 -                                             N                                            N                                                N                                                     -                                             N                                Y                                                           Y
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         measure relates to achieving the goal of developing a self-
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         sustaining economic base is not explained.




         OIG Report No. 00-I-533                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                Page 17
Bureau of Indian Affairs

                                 See notes at end of table:   A                                               B                                               C                                            D                                                E                                                   F                                              G                                   H                                                                 I




                                                                                                                                                                                             Fiscal Year 1999 performance plan goal excluded




                                                                                                                                                                                                                                                                                                                                                                                                                                                 Agency indicates what steps it will take to correct
                                                                                                                                                                                                                                               Fiscal Year 1999 performance plan goal changed



                                                                                                                                                                                                                                                                                                performance plan goal was excluded or changed




                                                                                                                                                                                                                                                                                                                                                                                                 Agency acknowledges shortcomings in its data?
                                                                                                describes a strategy to meet goal in the future?




                                                                                                                                                                                                                                                                                                Adequate explanation of why Fiscal Year 1999




                                                                                                                                                                                                                                                                                                                                                adequately described the data verification and
                                                                                                                                                   Goal relates to agency’s key management
                                                                                                If not, report adequately explains why and




                                                                                                                                                                                                                                                                                                                                                Agency’s performance plan and\or report
                                                              Fiscal Year 1999 goal achieved?




                                                                                                                                                                                                                                                                                                                                                                                                                                                 shortcomings in its data?
                                                                                                                                                                                                                                                                                                                                                validation process?
GPRA PROGRAM ACTIVITY\M ISSION GOAL :




                                                                                                                                                                                             from report?
                                                                                                                                                   challenges?
FISCAL YEAR 1999 PERFORMANCE GOAL \M EASURE




                                                                                                                                                                                                                                               in report?



                                                                                                                                                                                                                                                                                                in report?
    (EXCLUDES THE 2 MISSION GOALS, CONSISTING OF
    15 ANNUAL GOALS\M EASURES REVIEWED BY THE                                                                                                                                                                                                                                                                                                                                                                                                                                                          SELECTED COMMENTS ON AGENCY GOALS\ MEASURES AND
    GAO)                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               VALIDATION METHODS

02.04.02.02.99: The IACB will increase the number of                                                                                                                                                                                                                                                                                                                                                                                                                                                   Goal\measure was discontinued in Fiscal Year 2000. It was
Indian businesses promoted by five percent.                                                                                                                                                                                                                                                                                                                                                                                                                                                            replaced with two new goals\measures that are more related
                                                               N                                           Y                                                  N                                            N                                                N                                                     -                                             N                                Y                                                           Y                                         to economic development. BIA is dependent on data submitted
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       by IACB, verification to museum records would be time
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       consuming.
02.04.03.01.99: The Bureau will prioritize the                                                                                                                                                                                                                                                                                                                                                                                                                                                         Result would be verifiable if BIA compiled a priority list, since
maintenance of the 1,400 miles of paved roads                                                                                                                                                                                                                                                                                                                                                                                                                                                          there is no criteria cited for how such a list would be
constructed with HTF.                                                                                                                                                                                                                                                                                                                                                                                                                                                                                  compiled there would be no basis for questioning the
                                                                                                                                                        Y                                                                                                                                                                                                                                                                                                                                              established priority. Measure does not reflect a result such
                                                              Y                                                 -                                                                                          N                                                N                                                     -                                            Y                                   N                                                              -
                                                                                                                                                        #2                                                                                                                                                                                                                                                                                                                                             as the miles of paved roads maintained to acceptable
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       highway standards. This was revised for Fiscal Year 2000.
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       Also, a new measure to maintain roads to a safe standard
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       was added.
02.04.03.02.99: The Bureau will inspect 245 of 750                                                                                                                                                                                                                                                                                                                                                                                                                                                     Measure does not reflect a result sure as the number of
Bureau system bridges to identify, prioritize, and address                                                                                                                                                                                                                                                                                                                                                                                                                                             bridges that meet established safety standards or number of
safety deficiencies.                                                                                                                                    Y                                                                                                                                                                                                                                                                                                                                              safety deficiencies corrected. Measure revised for Fiscal
                                                              Y                                                 -                                                                                          N                                                N                                                     -                                            Y                                   N                                                              -
                                                                                                                                                        #2                                                                                                                                                                                                                                                                                                                                             Year 2000.
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       Result would be verifiable if BIA conducted the inspections
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       and compiled a priority list.
Administration and Support Services Mission Goal: To reduce long-term costs and improve timeliness of services through the use of modern, automated
techniques and processes for management and to ensure the efficient and effective use of resources for new construction, renovation, and maintenance of
Bureau-funded facilities.
02.05.01.01.99: By September 1999, the Bureau will                                                                                                                                                                                                                                                                                                                                                                                                                                                     Goal was discontinued in Fiscal Year 2000. Procedures
establish records management procedures and                                                                                                             Y                                                                                                                                                                                                                                                                                                                                              established and function transferred to Office of the Special
                                                              Y                                                 -                                                                                          N                                                N                                                     -                                            Y                                   N                                                              -
delegations for effectiveness.                                                                                                                          #4                                                                                                                                                                                                                                                                                                                                             Trustee. Special Trustee should be able to verify that
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       procedures were prepared.




         OIG Report No. 00-I-533                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               Page 18
Bureau of Indian Affairs

                                 See notes at end of table:   A                                               B                                               C                                            D                                                E                                                   F                                              G                                   H                                                                 I




                                                                                                                                                                                             Fiscal Year 1999 performance plan goal excluded




                                                                                                                                                                                                                                                                                                                                                                                                                                                 Agency indicates what steps it will take to correct
                                                                                                                                                                                                                                               Fiscal Year 1999 performance plan goal changed



                                                                                                                                                                                                                                                                                                performance plan goal was excluded or changed




                                                                                                                                                                                                                                                                                                                                                                                                 Agency acknowledges shortcomings in its data?
                                                                                                describes a strategy to meet goal in the future?




                                                                                                                                                                                                                                                                                                Adequate explanation of why Fiscal Year 1999




                                                                                                                                                                                                                                                                                                                                                adequately described the data verification and
                                                                                                                                                   Goal relates to agency’s key management
                                                                                                If not, report adequately explains why and




                                                                                                                                                                                                                                                                                                                                                Agency’s performance plan and\or report
                                                              Fiscal Year 1999 goal achieved?




                                                                                                                                                                                                                                                                                                                                                                                                                                                 shortcomings in its data?
                                                                                                                                                                                                                                                                                                                                                validation process?
GPRA PROGRAM ACTIVITY\M ISSION GOAL :




                                                                                                                                                                                             from report?
                                                                                                                                                   challenges?
FISCAL YEAR 1999 PERFORMANCE GOAL \M EASURE




                                                                                                                                                                                                                                               in report?



                                                                                                                                                                                                                                                                                                in report?
    (EXCLUDES THE 2 MISSION GOALS, CONSISTING OF
    15 ANNUAL GOALS\M EASURES REVIEWED BY THE                                                                                                                                                                                                                                                                                                                                                                                                                                                          SELECTED COMMENTS ON AGENCY GOALS\ MEASURES AND
    GAO)                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               VALIDATION METHODS

02.05.01.02.99: The Bureau will eliminate 30 percent of                                                                                                                                                                                                                                                                                                                                                                                                                                                Measure is a percentage reduction in reasons, however,
                                                                                                                                                            Y
reasons for qualifications to the financial statement.                                                                                                                                                                                                                                                                                                                                                                                                                                                 since OIG conducts the audits of the BIA’s Financial
                                                              Y                                                 -                                                                                          N                                                N                                                     -                                            Y                                   N                                                              -
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       Statements we could determine if results have been
                                                                                                                                                        #4
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       achieved.
02.05.01.03.99: The Bureau will improve the prompt pay                                                                                                                                                                                                                                                                                                                                                                                                                                                 Measure is a percentage of improvement in prompt pay area;
interest penalty performance by 20 percent over Fiscal                                                                                                  Y                                                                                                                                                                                                                                                                                                                                              however, since OIG conducts the audits of the BIA’s Financial
                                                              Y                                                 -                                                                                          N                                                N                                                     -                                            Y                                   N                                                              -
Year 1998 levels.                                                                                                                                       #4                                                                                                                                                                                                                                                                                                                                             Statements we could determine if results have been
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       achieved.
02.05.02.01.99: The Bureau will replace two of the eight                                                                                                                                                                                                                                                                                                                                                                                                                                               These measures report contracting or grant activity for
schools awaiting replacement on the Replacement School                                                                                                                                                                                                                                                                                                                                                                                                                                                 construction and\or repair. One must assume that the
Construction Priority List.                                                                                                                             Y                                                                                                                                                                                                                                                                                                                                              spending of funds accomplishes a goal. Measures do not
                                                              Y                                                 -                                                                                          N                                                N                                                     -                                            Y                                   N                                                              -
                                                                                                                                                        #2                                                                                                                                                                                                                                                                                                                                             relate to how the activity or mission goal will be
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       accomplished. There is no mention of: how long-term costs
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       will be reduced; how timeliness of services provided will be
02.05.02.02.99: The Bureau will award seven major                                                                                                                                                                                                                                                                                                                                                                                                                                                      improved through the use of modern, automated techniques
Facilities Improvement and Repair projects to reduce                                                                                                                                                                                                                                                                                                                                                                                                                                                   and processes for management; and how the Bureau will
unsafe conditions at seven of the 187 education facility                                                                                                Y                                                                                                                                                                                                                                                                                                                                              ensure the efficient and effective use of resources for new
                                                              Y                                                 -                                                                                          N                                                N                                                     -                                            Y                                   N                                                              -                                    construction, renovation, and maintenance of Bureau-funded
locations.                                                                                                                                              #2
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       facilities. Verification to procurement and property
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       documents should be adequate.
02.05.02.03.99: The Bureau will replace 10 of the 20                                                                                                                                                                                                                                                                                                                                                                                                                                                   Measure does not relate to activity or mission goal, unless BIA
                                                                                                                                                        Y
existing unsafe and unserviceable fire trucks.                Y                                                 -                                                                                          N                                                N                                                     -                                            Y                                   N                                                              -                                    considers a fire truck to be a facility? Verification to
                                                                                                                                                        #2
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       procurement and property documents should be adequate.
02.05.02.04.99: The Bureau will prepare 12 of 85 radio                                                                                                                                                                                                                                                                                                                                                                                                                                                 Accomplishment appears to be dependent on funds being
sites for conversion to narrowband technology.                 N                                           Y                                                  N                                            N                                                N                                                     -                                            Y                                   N                                                              -                                    appropriated. Verification to procurement and property
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       documents should be adequate.
EDUCATION M ISSION GOAL : To provide quality education opportunities from early childhood through life in accordance with the Tribal needs for cultural and
economic well-being in keeping with the wide diversity of Tribes and Alaska Native villages as distinct cultural and governmental entities.


         OIG Report No. 00-I-533                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                             Page 19
Bureau of Indian Affairs

                                  See notes at end of table:   A                                               B                                               C                                            D                                                E                                                   F                                              G                                   H                                                                 I




                                                                                                                                                                                              Fiscal Year 1999 performance plan goal excluded




                                                                                                                                                                                                                                                                                                                                                                                                                                                  Agency indicates what steps it will take to correct
                                                                                                                                                                                                                                                Fiscal Year 1999 performance plan goal changed



                                                                                                                                                                                                                                                                                                 performance plan goal was excluded or changed




                                                                                                                                                                                                                                                                                                                                                                                                  Agency acknowledges shortcomings in its data?
                                                                                                 describes a strategy to meet goal in the future?




                                                                                                                                                                                                                                                                                                 Adequate explanation of why Fiscal Year 1999




                                                                                                                                                                                                                                                                                                                                                 adequately described the data verification and
                                                                                                                                                    Goal relates to agency’s key management
                                                                                                 If not, report adequately explains why and




                                                                                                                                                                                                                                                                                                                                                 Agency’s performance plan and\or report
                                                               Fiscal Year 1999 goal achieved?




                                                                                                                                                                                                                                                                                                                                                                                                                                                  shortcomings in its data?
                                                                                                                                                                                                                                                                                                                                                 validation process?
GPRA PROGRAM ACTIVITY\M ISSION GOAL :




                                                                                                                                                                                              from report?
                                                                                                                                                    challenges?
FISCAL YEAR 1999 PERFORMANCE GOAL \M EASURE




                                                                                                                                                                                                                                                in report?



                                                                                                                                                                                                                                                                                                 in report?
    (EXCLUDES THE 2 MISSION GOALS, CONSISTING OF
    15 ANNUAL GOALS\M EASURES REVIEWED BY THE                                                                                                                                                                                                                                                                                                                                                                                                                                                           SELECTED COMMENTS ON AGENCY GOALS\ MEASURES AND
    GAO)                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                VALIDATION METHODS

02.06.01.01.99: The Bureau will decrease the student                                                                                                                                                                                                                                                                                                                                                                                                                                                    Goal was discontinued in Fiscal Year 2000. Bureau was
dropout rate to 11 percent.                                     N                                           Y                                                  N                                            N                                                N                                                     -                                             N                                Y                                                           Y                                         dependent on the reporting from Tribal organizations to
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        accomplish the measure.
02.06.01.02.99: The Bureau will increase student                                                                                                                                                                                                                                                                                                                                                                                                                                                        This measure does not relate to the goal of providing a
attendance to 93 percent.                                                                                                                                                                                                                                                                                                                                                                                                                                                                               QUALITY EDUCATION OPPORTUNITY. These are activity
                                                                N                                           Y                                                  N                                            N                                                N                                                     -                                             N                                Y                                                           Y                                         based measures not specific results. Bureau was dependent
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        on the reporting from Tribal organizations to accomplish the
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        measure.
02.06.01.03.99: The Bureau will increase Native                                                                                                                                                                                                                                                                                                                                                                                                                                                         Goal was discontinued in Fiscal Year 2000. Bureau was
Language programs to 84 percent. [Discontinued]                Y                                                 -                                             N                                            N                                                N                                                     -                                             N                                Y                                                           Y                                         dependent on the reporting from Tribal organizations to
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        accomplish the measure.
02.06.01.04.99: The Bureau will increase accredited                                                                                                                                                                                                                                                                                                                                                                                                                                                     This measure does not relate to the goal of providing a
schools to 94.5 percent.                                                                                                                                                                                                                                                                                                                                                                                                                                                                                QUALITY EDUCATION OPPORTUNITY. These are activity
                                                               Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                   N                                                              -
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        based measures not specific results. Verification of
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        accreditation should be easy to accomplish.
02.06.01.05.99: The Bureau will increase student                                                                                                                                                                                                                                                                                                                                                                                                                                                        Goal was discontinued in Fiscal Year 2000. Verification is a
transportation mileage to 67.8 percent of national rate.       Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                   N                                                              -                                    mathematical calculation based on funding provided to
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        schools.
02.06.01.06.99: The Bureau will increase square                                                                                                                                                                                                                                                                                                                                                                                                                                                         Goal was discontinued in Fiscal Year 2000. Should be
footage within Bureau-funded schools by 2.6 percent.                                                                                                                                                                                                                                                                                                                                                                                                                                                    verifiable to real property records or Bureau records of O&M
                                                               Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                   N                                                              -
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        for schools. O&M funding is allocated based on square
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        footage.
02.06.01.07.99: The Bureau will increase the number of                                                                                                                                                                                                                                                                                                                                                                                                                                                  Goal was discontinued in Fiscal Year 2000. Matter of
Tribally-operated schools by 10.                                N                                           Y                                                  N                                            N                                                N                                                     -                                            Y                                   N                                                              -                                    summarizing contract and grant documents for operation
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        Indian schools.




         OIG Report No. 00-I-533                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                            Page 20
Bureau of Indian Affairs

                                 See notes at end of table:    A                                               B                                               C                                            D                                                E                                                   F                                              G                                    H                                                                 I




                                                                                                                                                                                              Fiscal Year 1999 performance plan goal excluded




                                                                                                                                                                                                                                                                                                                                                                                                                                                   Agency indicates what steps it will take to correct
                                                                                                                                                                                                                                                Fiscal Year 1999 performance plan goal changed



                                                                                                                                                                                                                                                                                                 performance plan goal was excluded or changed




                                                                                                                                                                                                                                                                                                                                                                                                   Agency acknowledges shortcomings in its data?
                                                                                                 describes a strategy to meet goal in the future?




                                                                                                                                                                                                                                                                                                 Adequate explanation of why Fiscal Year 1999




                                                                                                                                                                                                                                                                                                                                                 adequately described the data verification and
                                                                                                                                                    Goal relates to agency’s key management
                                                                                                 If not, report adequately explains why and




                                                                                                                                                                                                                                                                                                                                                 Agency’s performance plan and\or report
                                                               Fiscal Year 1999 goal achieved?




                                                                                                                                                                                                                                                                                                                                                                                                                                                   shortcomings in its data?
                                                                                                                                                                                                                                                                                                                                                 validation process?
GPRA PROGRAM ACTIVITY\M ISSION GOAL :




                                                                                                                                                                                              from report?
                                                                                                                                                    challenges?
FISCAL YEAR 1999 PERFORMANCE GOAL \M EASURE




                                                                                                                                                                                                                                                in report?



                                                                                                                                                                                                                                                                                                 in report?
    (EXCLUDES THE 2 MISSION GOALS, CONSISTING OF
    15 ANNUAL GOALS\M EASURES REVIEWED BY THE                                                                                                                                                                                                                                                                                                                                                                                                                                                            SELECTED COMMENTS ON AGENCY GOALS\ MEASURES AND
    GAO)                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                 VALIDATION METHODS

02.06.02.01.99: The Bureau will increase the Indian                                                                                                                                                                                                                                                                                                                                                                                                                                                      Goal was discontinued in Fiscal Year 2000. Bureau was
Student Count at TCCCs to 12,141.                               N                                           Y                                                  N                                            N                                                N                                                     -                                             N                                 Y                                                           Y                                         dependent on the reporting from Tribal organizations to
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         accomplish the measure.
02.06.02.02.99: The Bureau will increase the number of                                                                                                                                                                                                                                                                                                                                                                                                                                                   Goal was discontinued in Fiscal Year 2000. Bureau was
graduates from TCCCs to 1,532                                   N                                           Y                                                  N                                            N                                                N                                                     -                                             N                                 Y                                                           Y                                         dependent on the reporting from Tribal organizations to
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         accomplish the measure.
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         Excluded from our review were the 15 Fiscal Year 1999
                                                              19 Y                                                                                  8Y                                                                                                                                                                                              18 Y                                          12 Y
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         performance goals\measures that the General Accounting
                                                                                                 11 Y                                                                                         30 N 30 N                                                                                                            -                                                                                                                               12 Y
Total Goals: 30                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          Office was tasked with evaluating.
                                                              11 N                                                                                  22 N                                                                                                                                                                                            12 N                                          18 N




NOTES:

A.   The agencies generally reported whether or not the performance goal\measure was met for Fiscal Year 1999. However, in some instance the agency reported that for the performance
     goal\measure it did not have the data or was unable to collect the data met for the specific measure. In these instances, we recorded a No response for the performance goal\measure
     because it was not achieved. When necessary, a specific comment was included in the comment section.

B.   A response is only required for this question if the response in Column A was ‘N’. Responses to Column B should reconcile to the number of N responses in Column A.




         OIG Report No. 00-I-533                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                            Page 21
Bureau of Indian Affairs

C.   On December 1, 1998, the Office of Inspector General provided the Congress a current assessment of the 10 key management challenges within the Department of the Interior. The table
     below shows each challenge and the Departmental agency it applies to.

                      10 Key Management Challenges                               DMO      BIA     BLM     BOR        MMS    NPS     OIA      OSM      FWS     USGS
                      1. Management of Indian Trust Funds *
                      2. Maintenance                                               x       x       x                          x                        x
                      3. National Park Service Housing                                                                        x
                      4. Financial Management                                      x       x                                          x
                      5. Waste Management                                          x       x       x        x                 x                        x
                      6. Revenue Collections                                       x       x       x        x         x       x               x        x         x
                      7. Inspection and Enforcement of Fluid Minerals                              x
                      8. Range Monitoring                                                          x
                      9. Land Exchanges                                                            x
                      10. Year 2000 Readiness                                      x


                      *The Office of the Special Trustee for American Indians is responsible for the "Management of Indian Trust Funds." OST did not prepare a
                      performance plan for Fiscal Year 1999 or produce a performance report. OST is in the process of implementing a Trust Management
                      Improvement Project and is under a Court Order to produce a quarterly report of its progress on the High Level Implementation Plan.

D.   We compared the agency’s Fiscal Year 1999 performance plan and Fiscal Year 1999 performance report to determine if any planned goals\measures were excluded from the report.

E.   We compared the agency’s Fiscal Year 1999 performance plan and Fiscal Year 1999 performance report to determine if any planned goals\measures were changed in the report.

F.   If the agency excluded or changed any of its Fiscal Year 1999 planned goals\measures, indicate whether the agency adequately explained why it excluded or changed the goal\measure.

G.   We were not able to provide assurance regarding the validity and reliability of data because we have not assessed the adequacy of data collection, verification, and validation processes
     for each of the agency’s Fiscal Year 1999 performance goals\measures. However, we attempted to determine whether the agency’s verification and validation process as described in
     its performance plan and\or report could produce reliable data, assuming that there were adequate controls to ensure the integrity of the data throughout the process.

H.   In some instances an agency may have identified shortcomings or limitations in its data collection processes.

I.   Having identified shortcomings or limitations in its data collection processes, did the agency indicate what steps it would take to correct\overcome the problems. A Y response indicates
     that the agency has identified such steps or discontinued the performance goal\measure in its Fiscal Year 2001 performance plan. Responses to Column I should reconcile to the number
     of Y responses in Column H.




          OIG Report No. 00-I-533                                                                                                                                                  Page 22
BUREAU OF LAND MANAGEMENT

BLM organized its fiscal year 1999 and fiscal year 2001 performance plan into eight goal
categories, each of which had subsets of annual goals (48 in 1999 and 20 in 2001). The annual
goals, in turn, had one or more performance targets to measure accomplishments. These targets
consisted of units, such as acres, number of sites; or percentages.

Fiscal Year 1999 Performance Plan and Report

BLM’s Fiscal Year 1999 Performance Plan and Report generally provided an adequate basis for
evaluating BLM’s accomplishment of its essential mission goals. One significant exception was
that a number of BLM’s goals were activity rather than program based and thus may not provide
a meaningful performance measure. For most goals and measures, BLM reported that it
established a performance baseline for each annual goal and that the basis for the baseline was
described in a separate document. We cannot comment on whether the baseline data are valid
or whether the annual goals (in terms of numerical amount) are appropriate because we have not
reviewed the supporting document.

BLM’s 1999 Plan provided overall but not detailed information on methods BLM planned to use
to validate data. BLM said that there were data limitations in collecting data that was used to
document the achievement of performance goals.

In its fiscal year 1999 performance report, BLM either met or exceeded 26 of 48 goals. BLM
adequately explained why 22 goals were not met and provided a strategy to ensure that the goals
will be met in the future or deleted it, or revised the goal.

One long-term goal target in the fiscal year1999 Plan was changed in the performance report
without any explanation. BLM changed the goal for "acres of vegetation are improved" from
316,000 acres to 250,000 acres (although the Report stated that 253,771 acres were improved).


Fiscal Year 2001 Performance Plan

In its fiscal year 2001 Plan, BLM added one mission goal, deleted one mission goal, deleted 30
annual goals, and added or modified other annual goals. As a result of theses changes, the 2001
plan is a significant improvement over the 1999 plan in that it contains more annual goals to
measure program performance. Because BLM has a complex mission and is responsible for
managing 264 million acres of public land and 70 million acres of subsurface interests on privately
owned lands, we consider the task of establishing meaningful goals and measures to be a difficult
one for BLM.




OIG Report No. 00-I-533                                                                  Page 23
The 2001 plan provided detailed information on the data that would be used to measure
performance and in most cases described the data collection process and the methods used to
validate the data.

Based on our review, we believe that BLM could improve its fiscal year 2001 plan to convey
program objectives and the accomplishments of performance measures as follows:

    - Provide additional information to more fully explain its goals and measures and the
significance of each goal measure.

    - Describe the total program area for which a measure has been established. For example, one
fiscal year 2001 annual goal is to correct physical safety hazards at 10 abandoned mine sites and
clean up 156 hazardous material sites. The plan did not identify the total number of sites that have
been identified as needing improvements.

     - Establish more precise and limited goals to measure program performance. For example, one
fiscal year 2001 goal is to "complete 91% of actions on existing energy and mineral leases, permits,
and claims consistent with established land health standards to minimize future liabilities." This goal
encompasses oil and gas leases which generate about $517 million of Federal revenue, coal leases
which generate about $305 million of Federal revenue, and production of other revenue-producing
minerals (such as gold, silver, and copper). Because each of these resources requires separate
oversight and program management activities, we believe that a separate measure is needed to
monitor performance in each area.

     - Add annual goals or measures for some programs. For example, BLM has two goals directly
related to its cultural resource program. While these goals address critical elements and known
problem areas within the program, BLM has no goal, measure, or strategy for inventorying BLM
lands to identify all culturally significant sites. Because OIG, in a 1999 audit report, stated that
BLM had comprehensively surveyed less than 5 percent of its lands for the presence of cultural
sites, we believe that BLM needs to include in its performance plan a process for identifying its
culturally significant sites.




OIG Report No. 00-I-533                                                                      Page 24
Bureau of Land Management

                                  See notes at end of table:   A                                                B                                               C                                            D                                                E                                                   F                                              G                                   H                                                                 I




                                                                                                                                                                                               Fiscal Year 1999 performance plan goal excluded




                                                                                                                                                                                                                                                                                                                                                                                                                                                   Agency indicates what steps it will take to correct
                                                                                                                                                                                                                                                 Fiscal Year 1999 performance plan goal changed



                                                                                                                                                                                                                                                                                                  performance plan goal was excluded or changed




                                                                                                                                                                                                                                                                                                                                                                                                   Agency acknowledges shortcomings in its data?
                                                                                                  describes a strategy to meet goal in the future?




                                                                                                                                                                                                                                                                                                  Adequate explanation of why Fiscal Year 1999




                                                                                                                                                                                                                                                                                                                                                  adequately described the data verification and
                                                                                                                                                     Goal relates to agency’s key management
                                                                                                  If not, report adequately explains why and




                                                                                                                                                                                                                                                                                                                                                  Agency’s performance plan and\or report
                                                                Fiscal Year 1999 goal achieved?




                                                                                                                                                                                                                                                                                                                                                                                                                                                   shortcomings in its data?
                                                                                                                                                                                                                                                                                                                                                  validation process?
                                                                                                                                                                                               from report?
                                                                                                                                                     challenges?




                                                                                                                                                                                                                                                 in report?



                                                                                                                                                                                                                                                                                                  in report?
GPRA PROGRAM ACTIVITY\M ISSION GOAL :
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         SELECTED COMMENTS ON AGENCY GOALS\ MEASURES AND
FISCAL YEAR 1999 PERFORMANCE GOAL \M EASURE                                                                                                                                                                                                                                                                                                                                                                                                                                                              VALIDATION METHODS

Provide Opportunities for Environmentally Responsible Recreation
01.01.01.00 80% of users are satisfied with the condition of                                                                                                                                                                                                                                                                                                                                                                                                                                             Goal was revised for Fiscal Years 2000 and 2001 to
BLM recreation areas.                                          Y                                                  -                                             N                                            N                                                N                                                     -                                            Y                                 Y                                                           Y                                         measure condition per BLM maintenance records rather
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         than recreation users being surveyed.
01.01.02.00 65% of users are satisfied with recreation                                                                                                                                                                                                                                                                                                                                                                                                                                                   Goal was discontinued.
                                                               Y                                                  -                                             N                                            N                                                N                                                     -                                            Y                                 Y                                                           Y
information and services accessed electronically.
01.01.03.00 90% of field offices are managing recreation                                                                                                                                                                                                                                                                                                                                                                                                                                                 Goal was discontinued.
activities and resources within BLM’s local and regional
                                                               Y                                                  -                                             N                                            N                                                N                                                     -                                            Y                                 Y                                                           Y
market niche(s), and 73% of BLM recreation customers are
satisfied with their experience ( 117 total field offices.)
01.01.04.00 Recreation fee collections increased to                                                                                                       Y                                                                                                                                                                                                                                                                                                                                              Goal was discontinued.
                                                                 N                                           Y                                                                                               N                                                N                                                     -                                            Y                                 Y                                                           Y
$7,430,000, and state grant funds total $6,170,000.                                                                                                       #6
Provide Opportunities for Environmentally Responsible Commercial Activities
01.02.01.00 Report annual economic benefits of                                                                                                            Y                                                                                                                                                                                                                                                                                                                                              Goal was discontinued.   BLM did not establish a target
                                                                 N                                           Y                                                                                               N                                                N                                                     -                                             N                                Y                                                           Y
commercial activities-statistics.                                                                                                                         #6                                                                                                                                                                                                                                                                                                                                             amount.
01.02.01.00 Complete reviews on 30% (2.18 million acres)                                                                                                      Y                                                                                                                                                                                                                                                                                                                                          Goal was discontinued.
of BOR withdrawals and initiate Federal Energy Regulatory        N                                           Y                                                                                               N                                                N                                                     -                                             N                                Y                                                           Y
Commission Relicensing Reviews.                                                                                                                           #6
01.02.02.00 100% of NEPA documents for new commercial                                                                                                                                                                                                                                                                                                                                                                                                                                                    Goal was discontinued.
authorizations address achievement of land health                N                                           Y                                                  N                                            N                                                N                                                     -                                            Y                                 Y                                                           Y
standards.




  Legend of responses: Y = Yes;          N = No       A Dash ( - ) = Not applicable or no response required based on response to prior question.


        OIG Report No. 00-I-533                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                            Page 25
Bureau of Land Management

                                     See notes at end of table:     A                                               B                                               C                                            D                                                E                                                   F                                              G                                   H                                                                 I




                                                                                                                                                                                                   Fiscal Year 1999 performance plan goal excluded




                                                                                                                                                                                                                                                                                                                                                                                                                                                       Agency indicates what steps it will take to correct
                                                                                                                                                                                                                                                     Fiscal Year 1999 performance plan goal changed



                                                                                                                                                                                                                                                                                                      performance plan goal was excluded or changed




                                                                                                                                                                                                                                                                                                                                                                                                       Agency acknowledges shortcomings in its data?
                                                                                                      describes a strategy to meet goal in the future?




                                                                                                                                                                                                                                                                                                      Adequate explanation of why Fiscal Year 1999




                                                                                                                                                                                                                                                                                                                                                      adequately described the data verification and
                                                                                                                                                         Goal relates to agency’s key management
                                                                                                      If not, report adequately explains why and




                                                                                                                                                                                                                                                                                                                                                      Agency’s performance plan and\or report
                                                                    Fiscal Year 1999 goal achieved?




                                                                                                                                                                                                                                                                                                                                                                                                                                                       shortcomings in its data?
                                                                                                                                                                                                                                                                                                                                                      validation process?
                                                                                                                                                                                                   from report?
                                                                                                                                                         challenges?




                                                                                                                                                                                                                                                     in report?



                                                                                                                                                                                                                                                                                                      in report?
GPRA PROGRAM ACTIVITY\M ISSION GOAL :
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                             SELECTED COMMENTS ON AGENCY GOALS\ MEASURES AND
FISCAL YEAR 1999 PERFORMANCE GOAL \M EASURE                                                                                                                                                                                                                                                                                                                                                                                                                                                                  VALIDATION METHODS

01.02.02.00 211.0 MMBF (34,815 mcf) of timber is offered                                                                                                          Y                                                                                                                                                                                                                                                                                                                                          Goal was revised for Fiscal Year 2001.
for sale under the standards and guidelines for land health          N                                           Y                                                                                               N                                                N                                                     -                                            Y                                 Y                                                           Y
outlined in the Pacific Northwest Forest Plan.                                                                                                                #6
01.02.03.00 Backlogs in authorizing rights-of-way and oil                                                                                                                                                                                                                                                                                                                                                                                                                                                    Goal was revised for Fiscal Year 2001.
and gas applications for permit to drill are cumulatively                                                                                                         Y
reduced from the 1998 baseline by 20% and 10%,                       N                                           Y                                                                                               N                                                N                                                     -                                             N                                Y                                                           Y
respectively, and customer satisfaction with use                                                                                                              #7
authorization processes is increased to 66%.
01.02.04.00 45 abandoned mines that degrade water                                                                                                             Y                                                                                                                                                                                                                                                                                                                                              Goal was incorporated into another goal.
                                                                    Y                                                 -                                                                                          N                                                N                                                     -                                            Y                                 Y                                                           Y
quality are improved or remediated.                                                                                                                           #5
01.02.04.00 66% of regulations are reviewed for adequacy                                                                                                                                                                                                                                                                                                                                                                                                                                                     Goal was discontinued.
of bonds or other financial assurances, and needed
                                                                    Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                 Y                                                           Y
revisions are initiated to protect the financial interests of the
public.
Preserve Natural and Cultural Heritage
01.03.01.00 One state is employing a statewide vegetation                                                                                                                                                                                                                                                                                                                                                                                                                                                    Goal was abandoned in Fiscal Year 1999 because of a lack
classification system for rare, vulnerable, and                      N                                           Y                                                  N                                            N                                                N                                                     -                                             N                                Y                                                           Y                                         of funds.
representative habitat types.
01.03.01.00 40% of site records for recorded cultural                                                                                                                                                                                                                                                                                                                                                                                                                                                        Goal was discontinued.
properties on public lands are automated, and 15% of site           Y                                                 -                                             N                                            N                                                N                                                     -                                             N                                Y                                                           Y
locations for recorded cultural properties are digitized.
01.03.02.00 5% of evaluation studies for National Wild and                                                                                                                                                                                                                                                                                                                                                                                                                                                   Goal was discontinued.
                                                                     N                                           Y                                                  N                                            N                                                N                                                     -                                             N                                Y                                                           Y
Scenic Rivers are completed.
01.03.03.00 Conditions are improved in 2% of wilderness                                                                                                                                                                                                                                                                                                                                                                                                                                                      Goal was modified for Fiscal Years 2000 and 2001.
areas, wild and scenic rivers, areas of critical                    Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                 Y                                                           Y
environmental concern, and other designated special areas.


         OIG Report No. 00-I-533                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                             Page 26
Bureau of Land Management

                                     See notes at end of table:    A                                               B                                               C                                            D                                                E                                                   F                                              G                                   H                                                                 I




                                                                                                                                                                                                  Fiscal Year 1999 performance plan goal excluded




                                                                                                                                                                                                                                                                                                                                                                                                                                                      Agency indicates what steps it will take to correct
                                                                                                                                                                                                                                                    Fiscal Year 1999 performance plan goal changed



                                                                                                                                                                                                                                                                                                     performance plan goal was excluded or changed




                                                                                                                                                                                                                                                                                                                                                                                                      Agency acknowledges shortcomings in its data?
                                                                                                     describes a strategy to meet goal in the future?




                                                                                                                                                                                                                                                                                                     Adequate explanation of why Fiscal Year 1999




                                                                                                                                                                                                                                                                                                                                                     adequately described the data verification and
                                                                                                                                                        Goal relates to agency’s key management
                                                                                                     If not, report adequately explains why and




                                                                                                                                                                                                                                                                                                                                                     Agency’s performance plan and\or report
                                                                   Fiscal Year 1999 goal achieved?




                                                                                                                                                                                                                                                                                                                                                                                                                                                      shortcomings in its data?
                                                                                                                                                                                                                                                                                                                                                     validation process?
                                                                                                                                                                                                  from report?
                                                                                                                                                        challenges?




                                                                                                                                                                                                                                                    in report?



                                                                                                                                                                                                                                                                                                     in report?
GPRA PROGRAM ACTIVITY\M ISSION GOAL :
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                            SELECTED COMMENTS ON AGENCY GOALS\ MEASURES AND
FISCAL YEAR 1999 PERFORMANCE GOAL \M EASURE                                                                                                                                                                                                                                                                                                                                                                                                                                                                 VALIDATION METHODS

01.03.03.00 76 Herd Management Areas are at Appropriate                                                                                                                                                                                                                                                                                                                                                                                                                                                     Goal was modified for Fiscal Years 2000 and 2001.
                                                                                                                                                                 Y
Management Level and 6,316 (100%) of wild horses and
                                                                    N                                           Y                                                                                               N                                                N                                                     -                                            Y                                 Y                                                           Y
burros removed from public lands are accurately accounted
                                                                                                                                                             #8
for and are monitored for humane treatment.
01.03.03.00 Three visitor\operations sites will be                                                                                                                                                                                                                                                                                                                                                                                                                                                          Goal was discontinued.
designated for the Escalante-Grand Staircase National               N                                           Y                                                  N                                            N                                                N                                                     -                                             N                                Y                                                           Y
Monument.
01.03.03.00 79% of customers are satisfied with BLM’s                                                                                                                                                                                                                                                                                                                                                                                                                                                       Goal increased to 82% for Fiscal Years 2000 and 2001.
protection of historical, cultural, and other heritage             Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                 Y                                                           Y
resources.
Reduce Threats to Public Health, Safety, and Property
01.04.01.00 In Fiscal Year 1999, the percentage of BLM                                                                                                                                                                                                                                                                                                                                                                                                                                                      Goal was modified for Fiscal Years 2000 and 2001.
                                                                                                                                                                 Y
facilities in good safety, health, and environmental condition
                                                                    N                                           Y                                                                                               N                                                N                                                     -                                            Y                                 Y                                                           Y
will be increased by 2% over the 1998 baseline, and 111
                                                                                                                                                             #2
hazardous materials sites will be under remediation.
01.04.02.00 Facilities structurally maintained in fair or good                                                                                                                                                                                                                                                                                                                                                                                                                                              Goal was modified for Fiscal Years 2000 and 2001.
                                                                                                                                                                 Y
condition are increased an average of 1 percent
                                                                    N                                           Y                                                                                               N                                                N                                                     -                                            Y                                 Y                                                           Y
(includes recreation sites, administrative sites, trails, roads,
                                                                                                                                                             #2
bridges, and dams).
01.04.03.00 100% of state and field offices are prepared                                                                                                                                                                                                                                                                                                                                                                                                                                                    Goal was modified for Fiscal Years 2000 and 2001.
                                                                   Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                 Y                                                           Y
for emergencies and can respond to current threats.
01.04.04.00 15 steps are completed in the Wildland                                                                                                                                                                                                                                                                                                                                                                                                                                                          Goal was discontinued.
Firefighter Awareness Study\Implementation Plan, and 60%           Y                                                 -                                             N                                            N                                                N                                                     -                                             N                                Y                                                           Y
of key firefighting positions have new standards.




         OIG Report No. 00-I-533                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                            Page 27
Bureau of Land Management

                                   See notes at end of table:   A                                               B                                                C                                            D                                                E                                                   F                                              G                                   H                                                                 I




                                                                                                                                                                                                Fiscal Year 1999 performance plan goal excluded




                                                                                                                                                                                                                                                                                                                                                                                                                                                    Agency indicates what steps it will take to correct
                                                                                                                                                                                                                                                  Fiscal Year 1999 performance plan goal changed



                                                                                                                                                                                                                                                                                                   performance plan goal was excluded or changed




                                                                                                                                                                                                                                                                                                                                                                                                    Agency acknowledges shortcomings in its data?
                                                                                                  describes a strategy to meet goal in the future?




                                                                                                                                                                                                                                                                                                   Adequate explanation of why Fiscal Year 1999




                                                                                                                                                                                                                                                                                                                                                   adequately described the data verification and
                                                                                                                                                      Goal relates to agency’s key management
                                                                                                  If not, report adequately explains why and




                                                                                                                                                                                                                                                                                                                                                   Agency’s performance plan and\or report
                                                                Fiscal Year 1999 goal achieved?




                                                                                                                                                                                                                                                                                                                                                                                                                                                    shortcomings in its data?
                                                                                                                                                                                                                                                                                                                                                   validation process?
                                                                                                                                                                                                from report?
                                                                                                                                                      challenges?




                                                                                                                                                                                                                                                  in report?



                                                                                                                                                                                                                                                                                                   in report?
GPRA PROGRAM ACTIVITY\M ISSION GOAL :
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          SELECTED COMMENTS ON AGENCY GOALS\ MEASURES AND
FISCAL YEAR 1999 PERFORMANCE GOAL \M EASURE                                                                                                                                                                                                                                                                                                                                                                                                                                                               VALIDATION METHODS

Improve Land, Resource, and Title Information
01.05.01.00 Automated land records cartographic products                                                                                                                                                                                                                                                                                                                                                                                                                                                  Goal was discontinued.
                                                                 N                                           Y                                                   N                                            N                                                N                                                     -                                             N                                Y                                                           Y
module is deployed in 0% of states.
01.05.02.00 25,000 townships of GCDB data are collected                                                                                                                                                                                                                                                                                                                                                                                                                                                   Goal was incorporated into another goal.
                                                                Y                                                 -                                              N                                            N                                                N                                                     -                                            Y                                 Y                                                           Y
(cumulative) and percent of total.
01.05.03.00 Land resource information is available on                                                                                                                                                                                                                                                                                                                                                                                                                                                     Goal was discontinued.
                                                                Y                                                 -                                              N                                            N                                                N                                                     -                                             N                                Y                                                           Y
Internet map servers in 10% of BLM states.
Provide Economic and Technical Assistance
01.06.01.00 15% of field offices have formal agreements                                                                                                                                                                                                                                                                                                                                                                                                                                                   Goal was modified for Fiscal Years 2000 and 2001.
                                                                Y                                                 -                                              N                                            N                                                N                                                     -                                            Y                                 Y                                                           Y
with federally recognized tribes.
01.06.01.00 Document the specific trust responsibilities of                                                                                                                                                                                                                                                                                                                                                                                                                                               Goal was discontinued.
                                                                 N                                           Y                                                   N                                            N                                                N                                                     -                                             N                                Y                                                           Y
66% of field offices by tribe.
01.06.02.00 100% of land entitlement action plans are                                                                                                                                                                                                                                                                                                                                                                                                                                                     Goal was discontinued.
completed for states, tribes, and Alaska Natives that have      Y                                                 -                                              N                                            N                                                N                                                     -                                            Y                                 Y                                                           Y
statutory land entitlements.
Restore and Maintain the Health of the Land
02.01.01.00 53% of land use plans contain comprehensive                                                                                               Y                                                                                                                                                                                                                                                                                                                                                   Goal was discontinued.
                                                                 N                                           Y                                                                                                N                                                N                                                     -                                            Y                                 Y                                                           Y
land health standards.                                                                                                                               #5, 8
02.01.01.00 5 (of 7 total) milestones are completed for the                                                                                           Y                                                                                                                                                                                                                                                                                                                                                   Goal was incorporated into another goal for Fiscal Years
                                                                 N                                           Y                                                                                                N                                                N                                                     -                                            Y                                 Y                                                           Y
national health of the land reporting system.                                                                                                        #5, 8                                                                                                                                                                                                                                                                                                                                                2000 and 2001.
02.02.02.00 Assess 7,065 miles of flowing riparian areas                                                                                                                                                                                                                                                                                                                                                                                                                                                  Goal was incorporated into another goal for Fiscal Years
                                                                                                                                                       Y
and 2,347,00 acres of key watersheds and standing                N                                           Y                                                                                                N                                                N                                                     -                                            Y                                 Y                                                           Y                                         2000 and 2001.
                                                                                                                                                     #5,7,8
wetlands.




         OIG Report No. 00-I-533                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                            Page 28
Bureau of Land Management

                                   See notes at end of table:   A                                               B                                                C                                            D                                                E                                                   F                                              G                                   H                                                                 I




                                                                                                                                                                                                Fiscal Year 1999 performance plan goal excluded




                                                                                                                                                                                                                                                                                                                                                                                                                                                    Agency indicates what steps it will take to correct
                                                                                                                                                                                                                                                  Fiscal Year 1999 performance plan goal changed



                                                                                                                                                                                                                                                                                                   performance plan goal was excluded or changed




                                                                                                                                                                                                                                                                                                                                                                                                    Agency acknowledges shortcomings in its data?
                                                                                                  describes a strategy to meet goal in the future?




                                                                                                                                                                                                                                                                                                   Adequate explanation of why Fiscal Year 1999




                                                                                                                                                                                                                                                                                                                                                   adequately described the data verification and
                                                                                                                                                      Goal relates to agency’s key management
                                                                                                  If not, report adequately explains why and




                                                                                                                                                                                                                                                                                                                                                   Agency’s performance plan and\or report
                                                                Fiscal Year 1999 goal achieved?




                                                                                                                                                                                                                                                                                                                                                                                                                                                    shortcomings in its data?
                                                                                                                                                                                                                                                                                                                                                   validation process?
                                                                                                                                                                                                from report?
                                                                                                                                                      challenges?




                                                                                                                                                                                                                                                  in report?



                                                                                                                                                                                                                                                                                                   in report?
GPRA PROGRAM ACTIVITY\M ISSION GOAL :
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          SELECTED COMMENTS ON AGENCY GOALS\ MEASURES AND
FISCAL YEAR 1999 PERFORMANCE GOAL \M EASURE                                                                                                                                                                                                                                                                                                                                                                                                                                                               VALIDATION METHODS

02.03.01.00 Improvements are completed on 39,974 acres                                                                                                         Y                                                                                                                                                                                                                                                                                                                                          Goal was incorporated into another goal for Fiscal Years
of watersheds and 2,000 miles of riparian in the NW Forest      Y                                                 -                                                                                           N                                                N                                                     -                                            Y                                 Y                                                           Y                                         2000 and 2001.
Plan, Interior Columbia Basin, and other priority areas.                                                                                             #5 ,8
02.03.02.00 Plant and animal habitat improvement                                                                                                               Y                                                                                                                                                                                                                                                                                                                                          Goal was incorporated into another goal for Fiscal Years
prescriptions are applied on 1,213,500 acres and 800 miles      Y                                                 -                                                                                           N                                                N                                                     -                                            Y                                 Y                                                           Y                                         2000 and 2001.
of public lands.                                                                                                                                     #5,7,8
02.03.03.00 250,000 acres of vegetation communities are                                                                                                                                                                                                                                                                                                                                                                                                                                                   Goal was 316,000 acres in Fiscal Year 1999 plan. No
                                                                                                                                                               Y
improved.                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                 explanation for the change. Goal was incorporated into
                                                                Y                                                 -                                                                                           N                                              Y                                                     N                                              Y                                 Y                                                           Y
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          another goal for
                                                                                                                                                           #8
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          Fiscal Years 2000 and 2001.
02.03.04.00 116,494 acres are treated to prevent spread                                                                                                    Y                                                                                                                                                                                                                                                                                                                                              Goal was incorporated into another goal for Fiscal Years
                                                                Y                                                 -                                                                                           N                                                N                                                     -                                            Y                                 Y                                                           Y
of noxious weeds and undesirable plants.                                                                                                                   #8                                                                                                                                                                                                                                                                                                                                             2000 and 2001.
Improve Organizational Effectiveness
03.01.01.00 Establish national protocols for identifying                                                                                                                                                                                                                                                                                                                                                                                                                                                  Goal was discontinued.
scientific information needs with 3 national research           Y                                                 -                                              N                                            N                                                N                                                     -                                             N                                Y                                                           Y
organizations.
03.01.02.00 16 regional information sharing partnerships                                                                                                                                                                                                                                                                                                                                                                                                                                                  Goal was discontinued.
are established to increase condition and trend data and        Y                                                 -                                              N                                            N                                                N                                                     -                                             N                                Y                                                           Y
innovative resource management practices.
03.01.03.00 Two field classrooms will be available to                                                                                                                                                                                                                                                                                                                                                                                                                                                     Goal was discontinued.
teachers and students on BLM public land under the Hands-       Y                                                 -                                              N                                            N                                                N                                                     -                                             N                                Y                                                           Y
on -the-Land network of field classrooms.
03.02.01.00 66% of public lands are covered by multi-                                                                                                                                                                                                                                                                                                                                                                                                                                                     Goal was discontinued. This Goal had 2 performance
jurisdictional planning efforts, and 60% of state and local                                                                                                                                                                                                                                                                                                                                                                                                                                               measures. BLM revised 1 measure downward from 66% to
                                                                 N                                           Y                                                   N                                            N                                              Y                                                    Y                                                N                                Y                                                           Y
government stakeholders and partners are satisfied with                                                                                                                                                                                                                                                                                                                                                                                                                                                   9% and reported it was achieved and reported that it did not
BLM's ability to communicate with the public.                                                                                                                                                                                                                                                                                                                                                                                                                                                             collect data for the other measure.


         OIG Report No. 00-I-533                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                            Page 29
Bureau of Land Management

                                    See notes at end of table:    A                                                B                                               C                                            D                                                E                                                   F                                              G                                    H                                                                 I




                                                                                                                                                                                                  Fiscal Year 1999 performance plan goal excluded




                                                                                                                                                                                                                                                                                                                                                                                                                                                       Agency indicates what steps it will take to correct
                                                                                                                                                                                                                                                    Fiscal Year 1999 performance plan goal changed



                                                                                                                                                                                                                                                                                                     performance plan goal was excluded or changed




                                                                                                                                                                                                                                                                                                                                                                                                       Agency acknowledges shortcomings in its data?
                                                                                                     describes a strategy to meet goal in the future?




                                                                                                                                                                                                                                                                                                     Adequate explanation of why Fiscal Year 1999




                                                                                                                                                                                                                                                                                                                                                     adequately described the data verification and
                                                                                                                                                        Goal relates to agency’s key management
                                                                                                     If not, report adequately explains why and




                                                                                                                                                                                                                                                                                                                                                     Agency’s performance plan and\or report
                                                                   Fiscal Year 1999 goal achieved?




                                                                                                                                                                                                                                                                                                                                                                                                                                                       shortcomings in its data?
                                                                                                                                                                                                                                                                                                                                                     validation process?
                                                                                                                                                                                                  from report?
                                                                                                                                                        challenges?




                                                                                                                                                                                                                                                    in report?



                                                                                                                                                                                                                                                                                                     in report?
GPRA PROGRAM ACTIVITY\M ISSION GOAL :
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                             SELECTED COMMENTS ON AGENCY GOALS\ MEASURES AND
FISCAL YEAR 1999 PERFORMANCE GOAL \M EASURE                                                                                                                                                                                                                                                                                                                                                                                                                                                                  VALIDATION METHODS

03.03.01.00 $8,977,000 is leveraged as a result of the BLM                                                                                                                                                                                                                                                                                                                                                                                                                                                   Goal was discontinued.
                                                                  Y                                                  -                                             N                                            N                                                N                                                     -                                             N                                Y                                                            Y
Challenge Cost Share Program.
03.04.01.00 60% of users are satisfied with BLM's                                                                                                                                                                                                                                                                                                                                                                                                                                                            Goal was discontinued.
                                                                    N                                           Y                                                  N                                            N                                                N                                                     -                                             N                                Y                                                            Y
Management Information System.
03.05.01.00 The dollar amount of operating costs                                                                                                             Y                                                                                                                                                                                                                                                                                                                                               Goal was discontinued.
                                                                  Y                                                  -                                                                                          N                                                N                                                     -                                             N                                Y                                                            Y
recovered is increased to $55,000,000.                                                                                                                       #6
03.06.01.00 97% of payments subject to the Prompt                                                                                                                                                                                                                                                                                                                                                                                                                                                            Goal was discontinued.
                                                                  Y                                                  -                                             N                                            N                                                N                                                     -                                             N                                Y                                                            Y
Payment Act do not require interest.
03.07.01.00 70% of customers are satisfied with BLM’s                                                                                                                                                                                                                                                                                                                                                                                                                                                        Goal was discontinued.
                                                                  Y                                                  -                                             N                                            N                                                N                                                     -                                             N                                Y                                                            Y
Annual performance report.
03.08.01.00 63 offices and interagency centers providing                                                                                                                                                                                                                                                                                                                                                                                                                                                     Goal was discontinued.
services to the public are co-located. 65% of customers are
                                                                    N                                           Y                                                  N                                            N                                                N                                                     -                                             N                                Y                                                            Y
satisfied with BLM's working with other federal and state
agencies and organizations.
03.09.01.00 57% of employees say customer service is an                                                                                                                                                                                                                                                                                                                                                                                                                                                      Goal was discontinued.
                                                                    N                                           Y                                                  N                                            N                                                N                                                     -                                             N                                Y                                                            Y
important priority.
03.10.01.00 Critical skills are identified for 20% of BLM's job                                                                                                                                                                                                                                                                                                                                                                                                                                              Goal was discontinued.
                                                                    N                                           Y                                                  N                                            N                                                N                                                     -                                             N                                Y                                                            Y
series. BLM has about 140 job series.
03.11.01.00 Annual workforce composition statistics                                                                                                                                                                                                                                                                                                                                                                                                                                                          Goal was discontinued. BLM did not establish a target
                                                                    N                                           Y                                                  N                                            N                                                N                                                     -                                             N                                Y                                                            Y
(national).                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                  performance level for this goal.

                                                                  25Y                                                                                   17Y                                                                                            2Y                                                      1Y                                         24Y
                                                                                                     23Y                                                                                          48N                                                                                                                                                                                                 48Y                                              48Y
Total Goals: 48
                                                                  23N                                                                                   31N                                                                                         46 N                                                        1N                                          24N




         OIG Report No. 00-I-533                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                              Page 30
Bureau of Land Management

NOTES:

A.   The agencies generally reported whether or not the performance goal\measure was met for Fiscal Year 1999. However, in some instance the agency reported that for the performance
     goal\measure it did not have the data or was unable to collect the data met for the specific measure. In these instances, we recorded a No response for the performance goal\measure
     because it was not achieved. When necessary, a specific comment was included in the comment section.

B.   A response is only required for this question if the response in Column A was ‘N’. Responses to Column B should reconcile to the number of N responses in Column A.

C.   On December 1, 1998, the Office of Inspector General provided the Congress a current assessment of the 10 key management challenges within the Department of the Interior. The table
     below shows each challenge and the Departmental agency it applies to.

                      10 Key Management Challenges                                DMO     BIA     BLM      BOR      MMS      NPS     OIA     OSM      FWS      USGS
                      1. Management of Indian Trust Funds *
                      2. Maintenance                                               x       x        x                         x                         x
                      3. National Park Service Housing                                                                        x
                      4. Financial Management                                      x       x                                          x
                      5. Waste Management                                          x       x        x       x                 x                         x
                      6. Revenue Collections                                       x       x        x       x        x        x                x        x         x
                      7. Inspection and Enforcement of Fluid Minerals                               x
                      8. Range Monitoring                                                           x
                      9. Land Exchanges                                                             x
                      10. Year 2000 Readiness                                      x


                      *The Office of the Special Trustee for American Indians is responsible for the "Management of Indian Trust Funds." OST did not prepare a
                      performance plan for Fiscal Year 1999 or produce a performance report. OST is in the process of implementing a Trust Management
                      Improvement Project and is under a Court Order to produce a quarterly report of its progress on the High Level Implementation Plan.

D.   We compared the agency’s Fiscal Year 1999 performance plan and Fiscal Year 1999 performance report to determine if any planned goals\measures were excluded from the report.

E.   We compared the agency’s Fiscal Year 1999 performance plan and Fiscal Year 1999 performance report to determine if any planned goals\measures were changed in the report.

F.   If the agency excluded or changed any of its Fiscal Year 1999 planned goals\measures, indicate whether the agency adequately explained why it excluded or changed the goal\measure.

G.   We were not able to provide assurance regarding the validity and reliability of data because we have not assessed the adequacy of data collection, verification, and validation processes
     for each of the agency’s Fiscal Year 1999 performance goals\measures. However, we attempted to determine whether the agency’s verification and validation process as described in
     its performance plan and\or report could produce reliable data, assuming that there were adequate controls to ensure the integrity of the data throughout the process. In addition, the FY
     1999 plan referenced a 130-page document which stated BLM included detailed information on data specifications for each goal. OIG did not review this document.

H.   In some instances an agency may have identified shortcomings or limitations in its data collection processes. BLM’s Fiscal Year 2001 performance plan acknowledges that BLM has
     shortcomings in collecting data and explains how it is trying to overcome this problem.

I.   Having identified shortcomings or limitations in its data collection processes, did the agency indicate what steps it would take to correct\overcome the problems. A Y response indicates
     that the agency has identified such steps or discontinued the performance goal\measure in its Fiscal Year 2001 performance plan. Responses to Column I should reconcile to the number
     of Y responses in Column H.




          OIG Report No. 00-I-533                                                                                                                                                   Page 31
BUREAU OF RECLAMATION

BOR’s fiscal year 1999 performance plan and report had 15 mission goals, 47 annual performance
goals, and 47 performance indicators. Its fiscal year 2001 plan had 3 mission goals, 27 annual
goals, and 48 performance indicators (some annual goals had 2 or more indicators). The indicators
typically consisted of units, such as number of projects or reviews; single tasks, such as issuing
guidelines; or percentages.

Fiscal Year 1999 Performance Plan and Report

BOR’s fiscal year 1999 performance plan included 15 mission goals and 47 annual performance
goals which covered all of BOR’s major programs. However, several of the mission goals were
overlapping and\or did not address major program areas or program outcomes. For example, the
plan included the mission goal "Facility Maintenance and Rehabilitation" which addressed all BOR
facilities but also included a separate goal, "Enhance Recreational Opportunities Through State and
Local Partnerships," which addressed the maintenance of recreation facilities.

Several annual goals had performance indicators which measured the accomplishment of processes
and activities (outputs) rather than the accomplishment of the missions (outcomes). For example,
BOR established annual goals\performance indicators such as drafting proposed surplus and
shortage guidelines for the Colorado River; increasing the number of tribes receiving BOR technical
assistance to 10; publishing the results of 72 research projects; reviewing and commenting on
100 percent of water conservation plans submitted for review; and preparing 5 regional reports on
the quality, accuracy, and accessibility of BOR’s water quality reporting systems. Generally, the
plan’s performance indicators did not measure BOR’s progress in accomplishing mission goals.
For example, there were six annual goals addressing the mission goal "Increase Water Availability,"
but none of the goals actually measure the increase in water availability. (BOR included a goal in
its FY 2001 Plan which measures increases in water availability, but it is limited to the CALFED
Bay-Delta Program.) Similarly, none of the four annual goals under the mission goal "Maintain and
protect water quality" provided baseline information on water quality or any performance
measurements demonstrating the progress in accomplishing the mission goal.
The plan did not include sufficient baseline data or other information for us to determine whether
performance indicators were appropriate. For example, the plan did not discuss why the
performance indicator for the goal "Provide Power" increased from $2.18\Mwh in fiscal year 1998
to $2.57\Mwh in fiscal year 1999.

We are unable to provide independent assurance regarding the reliability of BOR’s performance
data because neither the plan nor the report described the verification and validation processes for
each performance measure, and we have not assessed the adequacy of BOR’s data collection,
verification, and validation processes or tested the accuracy of the reported data. However, the
fiscal year 2001 does describe the validation and verification process for each indicator, including
those for the 12 goals carried over from the fiscal year 1999 plan, and it appears that these
processes would produce reliable data assuming that adequate controls are in place to ensure the

OIG Report No. 00-I-533                                                                    Page 32
integrity and consistency of the data throughout the process. We also determined that the
performance data for 10 additional goals in the fiscal year 1999 plan was likely to be reliable
because the goal was simply to complete a task such as issuing guidelines.

Fiscal Year 2001 Performance Plan

We believe that BOR’s fiscal year 2001 plan is a significant improvement, in both format and
content, over its fiscal year 1999 plan. BOR decreased the number of mission goals from 15 to
3, which eliminated overlapping goals and provided a clearer link to its budget categories. BOR
also decreased the number of annual performance goals and measures from 47 to 27 by eliminating
some goals and measures and combining others. For example, BOR eliminated 21 goals which
were one-time efforts that were completed in fiscal year 1999 or expected to be completed in fiscal
year 2000; 8 goals which it determined were unmeasurable or did not provide a meaningful
measurement of achievement of a mission goal; and 3 goals that were process oriented. BOR
adequately described its basis for eliminating these goals. The 27 goals in the fiscal year 2001 plan
include 15 new goals and 12 goals from the fiscal year 1999 plan, some of which had modified
performance measurements.

BOR’s mission and long-term goals on managing, developing and protecting water and related
resources and on operating, maintaining and rehabilitating facilities generally cover BOR’s major
programs and functions. However, its third mission goal, "Advance Reclamation’s Organizational
Effectiveness" includes some activities such as customer service benchmarking evaluating
workforce capability, and workforce representation (diversity) that support the accomplishment
of the other goals. Also, none of the eight annual performance goals provide measures
demonstrating that organization effectiveness has improved as a result of those activities.

While the Fiscal Year 2001 Plan contains more outcome measures than the Fiscal Year 1999 Plan,
it still contains a relatively large number of output measures which do not fully demonstrate that
BOR has achieved its mission or long-term goals. For example, to address its long-term goal of
improving water quality affected by BOR projects, the fiscal year 2001 Plan included the following
annual goal: Conduct water quality assessments at 10 BOR reservoirs and stream segments,
implement 3 operational changes and structure modifications, and provide technical assistance to
states and local watershed groups. Although these activities may contribute to accomplishing the
goal, they do not provide a measurement of water quality improvement. Overall, many of the goals
and measures in the plan while measuring outputs rather than outcomes, appear to represent critical
initial steps in accomplishing BOR’s long-term goals, including the establishment of procedures and
baseline information. We would expect that once these activities are accomplished, more
outcome-oriented goals and measures can be established.

An additional improvement in the fiscal year 2001 plan is the inclusion of a brief description, for
each performance measure, of BOR’s data collection methodology, sources, and limitations and
its data verification and validation process. The plan also indicates that BOR has issued a guide
on procedures and definitions for reporting on the fiscal year 2001 annual performance goals.


OIG Report No. 00-I-533                                                                    Page 33
BOR’s verification and validation procedures should ensure the reliability of the reported
performance information if adequate control procedures are in place to ensure the accuracy and
consistency of the data.

Regarding the key management challenges applicable to BOR (Revenue Collections and Waste
Management), the fiscal year 2001 plan did not sufficiently addresses these issues. Our prior audits
have identified several issues related to and sound business practices with respect to cost recovery
on BOR’s water projects, and several of the related recommendations have not yet been fully
resolved and\or implemented. While the fiscal year 2001 plan contains some goals related to these
issues ("Complete long-term water contract renewals" - to ensure full collection of contract
obligations; "Improve incidental resource management," (which addresses prior OIG
recommendations) and "Improve management of indirect costs") we believe that the plan could be
improved by including a goal which addresses the overall issue of ensuring that BOR employs
sound business practices in recovering the costs of its projects, including the timely resolution of
all related audit issues. With respect to the Waste Management challenge, the annual related goal
in the fiscal year 1999 plan has been discontinued and the fiscal year 2001 Plan does not include
an annual goal which specifically addresses this issue.




OIG Report No. 00-I-533                                                                   Page 34
Bureau of Reclamation

                                     See notes at end of table:     A                                               B                                               C                                            D                                                E                                                   F                                              G                                   H                                                                 I




                                                                                                                                                                                                   Fiscal Year 1999 performance plan goal excluded




                                                                                                                                                                                                                                                                                                                                                                                                                                                       Agency indicates what steps it will take to correct
                                                                                                                                                                                                                                                     Fiscal Year 1999 performance plan goal changed



                                                                                                                                                                                                                                                                                                      performance plan goal was excluded or changed




                                                                                                                                                                                                                                                                                                                                                                                                       Agency acknowledges shortcomings in its data?
                                                                                                      describes a strategy to meet goal in the future?




                                                                                                                                                                                                                                                                                                      Adequate explanation of why Fiscal Year 1999




                                                                                                                                                                                                                                                                                                                                                      adequately described the data verification and
                                                                                                                                                         Goal relates to agency’s key management
                                                                                                      If not, report adequately explains why and




                                                                                                                                                                                                                                                                                                                                                      Agency’s performance plan and\or report
                                                                    Fiscal Year 1999 goal achieved?




                                                                                                                                                                                                                                                                                                                                                                                                                                                       shortcomings in its data?
                                                                                                                                                                                                                                                                                                                                                      validation process?
                                                                                                                                                                                                   from report?
                                                                                                                                                         challenges?




                                                                                                                                                                                                                                                     in report?



                                                                                                                                                                                                                                                                                                      in report?
GPRA M ISSION GOAL :
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                             SELECTED COMMENTS ON AGENCY GOALS\ MEASURES AND
FISCAL YEAR 1999 PERFORMANCE GOALS\M EASURES                                                                                                                                                                                                                                                                                                                                                                                                                                                                 VALIDATION METHODS

Mission Goal: Manage, Develop, and Protect Water and Related Resources
1. Deliver water. In Fiscal Year 1999, deliver or release                                                                                                                                                                                                                                                                                                                                                                                                                                                    Goal included in Fiscal Year 2001 Plan (No. 2.9.01 - Meet
the amount of water [30.3 million acre feet] contracted for         Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                 Y                                                              N                                      water contracts ).
from Reclamation owned and operated facilities.
2. Provide power. Generate power to meet                                                                                                                                                                                                                                                                                                                                                                                                                                                                     Goal included in Fiscal Year 2001 Plan (No. 2.9.02 - Deliver
Reclamation’s contractual commitments 100 percent of the            Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                 Y                                                           Y                                         power to meet contracts ).
time.
3. Cost of power. In Fiscal Year 2000, attain power                                                                                                                                                                                                                                                                                                                                                                                                                                                          The goal is included in Fiscal Year 2001Plan (No. 2.12.01 -
production costs per megawatt capacity that rank in the                                                                                                                                                                                                                                                                                                                                                                                                                                                      Achieve cost effective power production), but the
upper 25 percentile (ranked lowest cost to highest) for                                                                                                                                                                                                                                                                                                                                                                                                                                                      basis for measuring accomplishment was modified. The
comparable hydropower facilities.                                                                                                                                                                                                                                                                                                                                                                                                                                                                            determination of cost efficiency requires accounting records
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                             that include power generation costs. Prior OIG reports have
                                                                    Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                 Y                                                           Y                                         found that all power-related costs were not always
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                             allocated to the power function, which could understate
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                             power costs and impact power rates. For example, the
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                             project cost allocation for the Columbia Basin Project does
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                             not include about $100 million in power related construction
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                             costs.
4. Drought response plans . By the end of Fiscal Year                                                                                                                                                                                                                                                                                                                                                                                                                                                        This was a one-time effort that has been completed, and the
1999, in conjunction with the Western Governors                                                                                                                                                                                                                                                                                                                                                                                                                                                              goal was not included in the Fiscal Year 2001 Plan.
Association, Reclamation will identify the criteria for
                                                                    Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                   N                                                              -
analyzing existing Drought Response Plans adopted by
states, tribes, localities, federal agencies, and other entities.




   Legend of responses: Y = Yes;             N = No      A Dash ( - ) = Not applicable or no response required based on response to prior question.


         OIG Report No. 00-I-533                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                 Page 35
Bureau of Reclamation

                                    See notes at end of table:   A                                               B                                               C                                            D                                                E                                                   F                                              G                                   H                                                                 I




                                                                                                                                                                                                Fiscal Year 1999 performance plan goal excluded




                                                                                                                                                                                                                                                                                                                                                                                                                                                    Agency indicates what steps it will take to correct
                                                                                                                                                                                                                                                  Fiscal Year 1999 performance plan goal changed



                                                                                                                                                                                                                                                                                                   performance plan goal was excluded or changed




                                                                                                                                                                                                                                                                                                                                                                                                    Agency acknowledges shortcomings in its data?
                                                                                                   describes a strategy to meet goal in the future?




                                                                                                                                                                                                                                                                                                   Adequate explanation of why Fiscal Year 1999




                                                                                                                                                                                                                                                                                                                                                   adequately described the data verification and
                                                                                                                                                      Goal relates to agency’s key management
                                                                                                   If not, report adequately explains why and




                                                                                                                                                                                                                                                                                                                                                   Agency’s performance plan and\or report
                                                                 Fiscal Year 1999 goal achieved?




                                                                                                                                                                                                                                                                                                                                                                                                                                                    shortcomings in its data?
                                                                                                                                                                                                                                                                                                                                                   validation process?
                                                                                                                                                                                                from report?
                                                                                                                                                      challenges?




                                                                                                                                                                                                                                                  in report?



                                                                                                                                                                                                                                                                                                   in report?
GPRA M ISSION GOAL :
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          SELECTED COMMENTS ON AGENCY GOALS\ MEASURES AND
FISCAL YEAR 1999 PERFORMANCE GOALS\M EASURES                                                                                                                                                                                                                                                                                                                                                                                                                                                              VALIDATION METHODS

5. Drought workshops . By the end of Fiscal Year 1999,                                                                                                                                                                                                                                                                                                                                                                                                                                                    This was a one-time effort that was completed in Fiscal
in conjunction with the National Drought Mitigation Center,                                                                                                                                                                                                                                                                                                                                                                                                                                               Year 1999, and the goal was not included in the Fiscal Year
Reclamation will complete five drought workshops to help         Y                                                 -                                             N                                            N                                                N                                                     -                                             N                                  N                                                              -                                    2001 Plan. The goal measured output (the accomplishment
local, state, and other entities learn how to prepare Drought                                                                                                                                                                                                                                                                                                                                                                                                                                             of an activity) rather than outcome.
Contingency Plans and evaluate mitigation options.
Mission Goal: Increase Water Availability
6. Lower Colorado River water market rule . By the                                                                                                                                                                                                                                                                                                                                                                                                                                                        This was a one-time effort that was completed in November
end of Fiscal Year 1999, have in place a consensus-based                                                                                                                                                                                                                                                                                                                                                                                                                                                  1999, and the goal was not included in the Fiscal Year 2001
                                                                  N                                           Y                                                  N                                            N                                                N                                                     -                                            Y                                   N                                                              -
rule to implement interstate water marketing in the Lower                                                                                                                                                                                                                                                                                                                                                                                                                                                 Plan. The goal measured output rather than outcome.
Basin of the Colorado River System.
7. Colorado River diversions . By the end of Fiscal                                                                                                                                                                                                                                                                                                                                                                                                                                                       This was a one-time effort that was completed in October
Year 1999, Reclamation will have in place a plan developed                                                                                                                                                                                                                                                                                                                                                                                                                                                1999, and the goal was not included in the Fiscal Year 2001
with stakeholders, that will ensure that California will be                                                                                                                                                                                                                                                                                                                                                                                                                                               Plan. The goal measured output rather than outcome.
                                                                  N                                           Y                                                  N                                            N                                                N                                                     -                                            Y                                   N                                                              -
able to limit its Colorado River diversions, if and when
required to no more than its maximum entitlement of
4.4 million acre-feet per year.
8. Surplus\shortage guidelines. By the end of Fiscal                                                                                                                                                                                                                                                                                                                                                                                                                                                      This was a one-time effort that was completed in Fiscal
Year 1999, draft proposed surplus and shortage guidelines        Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                   N                                                              -                                    Year 1999, and the goal was not included in the Fiscal Year
for the Colorado River.                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   2001 Plan. The goal measured output rather than outcome.
9. Water recycling projects . In Fiscal Year 1999,                                                                                                                                                                                                                                                                                                                                                                                                                                                        This goal is included in the Fiscal Year 2001 Plan as part of
Reclamation will facilitate development of new water                                                                                                                                                                                                                                                                                                                                                                                                                                                      goal No. 1.1.0.1 - Complete water delivery and
supplies by participating in water reuse feasibility studies,                                                                                                                                                                                                                                                                                                                                                                                                                                             recycling\reuse projects . While the Fiscal Year 1999
completing construction prerequisites for meritorious            Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                   N                                                              -                                    goal measured output, the Fiscal Year 2001 goal includes an
projects, and entering into cooperative agreement(s) for                                                                                                                                                                                                                                                                                                                                                                                                                                                  additional more meaningful measure of achieving the mission
initiation of construction of at least 1 of 18 water recycling                                                                                                                                                                                                                                                                                                                                                                                                                                            goal of "Increase Water Availability": the number of acre
project authorizations in Fiscal Year 1997.                                                                                                                                                                                                                                                                                                                                                                                                                                                               feet of recycled water.




         OIG Report No. 00-I-533                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                              Page 36
Bureau of Reclamation

                                   See notes at end of table:   A                                               B                                               C                                            D                                                E                                                   F                                              G                                   H                                                                 I




                                                                                                                                                                                               Fiscal Year 1999 performance plan goal excluded




                                                                                                                                                                                                                                                                                                                                                                                                                                                   Agency indicates what steps it will take to correct
                                                                                                                                                                                                                                                 Fiscal Year 1999 performance plan goal changed



                                                                                                                                                                                                                                                                                                  performance plan goal was excluded or changed




                                                                                                                                                                                                                                                                                                                                                                                                   Agency acknowledges shortcomings in its data?
                                                                                                  describes a strategy to meet goal in the future?




                                                                                                                                                                                                                                                                                                  Adequate explanation of why Fiscal Year 1999




                                                                                                                                                                                                                                                                                                                                                  adequately described the data verification and
                                                                                                                                                     Goal relates to agency’s key management
                                                                                                  If not, report adequately explains why and




                                                                                                                                                                                                                                                                                                                                                  Agency’s performance plan and\or report
                                                                Fiscal Year 1999 goal achieved?




                                                                                                                                                                                                                                                                                                                                                                                                                                                   shortcomings in its data?
                                                                                                                                                                                                                                                                                                                                                  validation process?
                                                                                                                                                                                               from report?
                                                                                                                                                     challenges?




                                                                                                                                                                                                                                                 in report?



                                                                                                                                                                                                                                                                                                  in report?
GPRA M ISSION GOAL :
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         SELECTED COMMENTS ON AGENCY GOALS\ MEASURES AND
FISCAL YEAR 1999 PERFORMANCE GOALS\M EASURES                                                                                                                                                                                                                                                                                                                                                                                                                                                             VALIDATION METHODS

10. Assist water districts . By the end of Fiscal Year                                                                                                                                                                                                                                                                                                                                                                                                                                                   This goal was included in the Fiscal Year 2001 Plan as part
1999, increase the efficient use of water supplies                                                                                                                                                                                                                                                                                                                                                                                                                                                       of goal No. 1.1.02 - Facilitate water use efficiency. A
associated with federal water projects by assisting 201                                                                                                                                                                                                                                                                                                                                                                                                                                                  more meaningful measure of the mission goal "Increase
                                                                Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                 Y                                                           Y
districts, through the Water Conservation Field Services                                                                                                                                                                                                                                                                                                                                                                                                                                                 Water Availability" would include the amount of conserved
Program, and other programs to develop, submit, and                                                                                                                                                                                                                                                                                                                                                                                                                                                      water to be applied to other uses.
implement effective water conservation plans.
11. Water conservation plans . Fiscal Year 1999,                                                                                                                                                                                                                                                                                                                                                                                                                                                         This goal, which measured output, was not included in the
Reclamation will review and comment on 100% of all water                                                                                                                                                                                                                                                                                                                                                                                                                                                 Fiscal Year 2001 Plan.
                                                                Y                                                 -                                             N                                            N                                                N                                                     -                                             N                                  N                                                              -
conservation plans submitted 30 days prior to the end of the
federal fiscal year.
Mission Goal: Complete Projects Under Construction
12. Complete construction projects . By the end of                                                                                                                                                                                                                                                                                                                                                                                                                                                       This goal, which measured output, was not included in the
Fiscal Year 1999, initiate project benefits and recovery of                                                                                                                                                                                                                                                                                                                                                                                                                                              Fiscal Year 2001 Plan.
federal capital investments by substantially completing 10
                                                                Y                                                 -                                             N                                            N                                                N                                                     -                                             N                                  N                                                              -
water supply and energy projects under construction in
Fiscal Year 1997 and implementing repayment contracts
and providing benefits.




         OIG Report No. 00-I-533                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                            Page 37
Bureau of Reclamation

                                   See notes at end of table:   A                                               B                                               C                                            D                                                E                                                   F                                              G                                   H                                                                 I




                                                                                                                                                                                               Fiscal Year 1999 performance plan goal excluded




                                                                                                                                                                                                                                                                                                                                                                                                                                                   Agency indicates what steps it will take to correct
                                                                                                                                                                                                                                                 Fiscal Year 1999 performance plan goal changed



                                                                                                                                                                                                                                                                                                  performance plan goal was excluded or changed




                                                                                                                                                                                                                                                                                                                                                                                                   Agency acknowledges shortcomings in its data?
                                                                                                  describes a strategy to meet goal in the future?




                                                                                                                                                                                                                                                                                                  Adequate explanation of why Fiscal Year 1999




                                                                                                                                                                                                                                                                                                                                                  adequately described the data verification and
                                                                                                                                                     Goal relates to agency’s key management
                                                                                                  If not, report adequately explains why and




                                                                                                                                                                                                                                                                                                                                                  Agency’s performance plan and\or report
                                                                Fiscal Year 1999 goal achieved?




                                                                                                                                                                                                                                                                                                                                                                                                                                                   shortcomings in its data?
                                                                                                                                                                                                                                                                                                                                                  validation process?
                                                                                                                                                                                               from report?
                                                                                                                                                     challenges?




                                                                                                                                                                                                                                                 in report?



                                                                                                                                                                                                                                                                                                  in report?
GPRA M ISSION GOAL :
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         SELECTED COMMENTS ON AGENCY GOALS\ MEASURES AND
FISCAL YEAR 1999 PERFORMANCE GOALS\M EASURES                                                                                                                                                                                                                                                                                                                                                                                                                                                             VALIDATION METHODS

Mission Goal: Fulfill Obligations to Indian Tribes
13. Assist tribes. In Fiscal Year 1999, increase by 10                                                                                                                                                                                                                                                                                                                                                                                                                                                   This goal was included in the Fiscal Year 2001 Plan (No.
the number of tribes receiving Reclamation technical                                                                                                                                                                                                                                                                                                                                                                                                                                                     1.4.01 - Provide technical assistance to tribes in
assistance.                                                                                                                                                                                                                                                                                                                                                                                                                                                                                              water resource use), but the performance measure was
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         slightly modified to measure the total number of tribes
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         receiving assistance. This is a process-oriented goal and
                                                                Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                 Y                                                           Y                                         does not measure the results of providing assistance to the
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         tribes. BOR provided assistance to 19 tribes in Fiscal
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         Year 1999 (9 more than its goal of 10). Because the number
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         of tribes assisted is dependent, in part, on the number of
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         requests received, it may be difficult to establish a valid
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         target for this goal.
14. Indian trust assets . In Fiscal Year 2000, ensure that                                                                                                                                                                                                                                                                                                                                                                                                                                               This goal, which measured output, was not included in the
Reclamation considers potential impacts on Indian trust                                                                                                                                                                                                                                                                                                                                                                                                                                                  Fiscal Year 2001 Plan.
assets (ITAs) in 100 percent of new Reclamation actions         Y                                                 -                                             N                                            N                                                N                                                     -                                             N                                  N                                                              -
through affirmative measures codified in Reclamation’s trust
procedures.
Mission Goal: Maintain and Protect Water Quality
15. Planning and remediation projects . By the end of                                                                                                                                                                                                                                                                                                                                                                                                                                                    This goal, which measured output, was a one-time effort,
Fiscal Year 1999, complete planning activities for Stillwater                                                                                                                                                                                                                                                                                                                                                                                                                                            and planning was completed in Fiscal Year 1999 for 4 of the
area, Nevada; Middle Green River, Utah; and Kendrick                                                                                                          Y                                                                                                                                                                                                                                                                                                                                          6 projects targeted. The goal was not included in the Fiscal
Reclamation Project, Wyoming. Continue planning in               N                                           Y                                                                                               N                                                N                                                     -                                             N                                Y                                                           Y                                         Year 2001 Plan, but BOR said it will continue efforts to
Gunnison\Grand Valley, Colorado. Continue remediation at                                                                                                  #5                                                                                                                                                                                                                                                                                                                                             complete the planning for the 2 remaining projects.
Middle Green River, and initiate remediation at Kendrick
Reclamation Project.




         OIG Report No. 00-I-533                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                            Page 38
Bureau of Reclamation

                                   See notes at end of table:   A                                               B                                               C                                            D                                                E                                                   F                                              G                                   H                                                                 I




                                                                                                                                                                                               Fiscal Year 1999 performance plan goal excluded




                                                                                                                                                                                                                                                                                                                                                                                                                                                   Agency indicates what steps it will take to correct
                                                                                                                                                                                                                                                 Fiscal Year 1999 performance plan goal changed



                                                                                                                                                                                                                                                                                                  performance plan goal was excluded or changed




                                                                                                                                                                                                                                                                                                                                                                                                   Agency acknowledges shortcomings in its data?
                                                                                                  describes a strategy to meet goal in the future?




                                                                                                                                                                                                                                                                                                  Adequate explanation of why Fiscal Year 1999




                                                                                                                                                                                                                                                                                                                                                  adequately described the data verification and
                                                                                                                                                     Goal relates to agency’s key management
                                                                                                  If not, report adequately explains why and




                                                                                                                                                                                                                                                                                                                                                  Agency’s performance plan and\or report
                                                                Fiscal Year 1999 goal achieved?




                                                                                                                                                                                                                                                                                                                                                                                                                                                   shortcomings in its data?
                                                                                                                                                                                                                                                                                                                                                  validation process?
                                                                                                                                                                                               from report?
                                                                                                                                                     challenges?




                                                                                                                                                                                                                                                 in report?



                                                                                                                                                                                                                                                                                                  in report?
GPRA M ISSION GOAL :
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         SELECTED COMMENTS ON AGENCY GOALS\ MEASURES AND
FISCAL YEAR 1999 PERFORMANCE GOALS\M EASURES                                                                                                                                                                                                                                                                                                                                                                                                                                                             VALIDATION METHODS

16. Remove Colorado River salt. In Fiscal Year 1999,                                                                                                                                                                                                                                                                                                                                                                                                                                                     This goal was included in the Fiscal Year 2001 Plan (No.
improve Colorado River water quality by removing at least                                                                                                                                                                                                                                                                                                                                                                                                                                                1.3.01 - Remove Colorado River Salt).
                                                                Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                 Y                                                              N
25,000 new tons of salt at a cost not greater than $50 per
ton.
17. Water quality reports . By the end of Fiscal Year                                                                                                                                                                                                                                                                                                                                                                                                                                                    The goal was not included in the Fiscal Year 2001 Plan. This
1999, prepare 5 regional reports on the quality, accuracy,                                                                                                                                                                                                                                                                                                                                                                                                                                               was a process-oriented goal\measure and did not show the
and accessibility of Reclamation’s water quality reporting      Y                                                 -                                             N                                            N                                                N                                                     -                                             N                                  N                                                              -                                    accomplishment of the mission goal of "Maintaining and
systems to better understand the quality of water at                                                                                                                                                                                                                                                                                                                                                                                                                                                     protecting water quality."
Reclamation facilities.
18. Identify reservoirs and streams for water                                                                                                                                                                                                                                                                                                                                                                                                                                                            The goal was not included in the Fiscal Year 2001 Plan. This
quality assessments . As part of a cooperative effort,                                                                                                                                                                                                                                                                                                                                                                                                                                                   was a process-oriented goal\measure and does not show
by the end of Fiscal Year 1999, identify up to 20 priority      Y                                                 -                                             N                                            N                                                N                                                     -                                             N                                  N                                                              -                                    the accomplishment of the mission goal of maintaining and
reservoirs and streams to USGS for characterization of                                                                                                                                                                                                                                                                                                                                                                                                                                                   protecting water quality.
water quality affected by Reclamation facility operations.
Mission Goal: Transfer Research and Technology
19. Research projects . In Fiscal Year 1999, develop,                                                                                                                                                                                                                                                                                                                                                                                                                                                    Goal was discontinued for Fiscal Year 2001 because the
test, demonstrate, and publish the results of 72 research                                                                                                                                                                                                                                                                                                                                                                                                                                                research program supports all of the mission goals. This is
projects on water resources, environment resources, and                                                                                                                                                                                                                                                                                                                                                                                                                                                  a process-oriented goal, and there is no measurement of the
                                                                Y                                                 -                                             N                                            N                                                N                                                     -                                             N                                  N                                                              -
facilities and infrastructure through Reclamation-wide                                                                                                                                                                                                                                                                                                                                                                                                                                                   benefits derived from the research projects.
partnerships and with other federal and non-federal
entities.




         OIG Report No. 00-I-533                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                            Page 39
Bureau of Reclamation

                                   See notes at end of table:   A                                               B                                               C                                            D                                                E                                                   F                                              G                                   H                                                                 I




                                                                                                                                                                                               Fiscal Year 1999 performance plan goal excluded




                                                                                                                                                                                                                                                                                                                                                                                                                                                   Agency indicates what steps it will take to correct
                                                                                                                                                                                                                                                 Fiscal Year 1999 performance plan goal changed



                                                                                                                                                                                                                                                                                                  performance plan goal was excluded or changed




                                                                                                                                                                                                                                                                                                                                                                                                   Agency acknowledges shortcomings in its data?
                                                                                                  describes a strategy to meet goal in the future?




                                                                                                                                                                                                                                                                                                  Adequate explanation of why Fiscal Year 1999




                                                                                                                                                                                                                                                                                                                                                  adequately described the data verification and
                                                                                                                                                     Goal relates to agency’s key management
                                                                                                  If not, report adequately explains why and




                                                                                                                                                                                                                                                                                                                                                  Agency’s performance plan and\or report
                                                                Fiscal Year 1999 goal achieved?




                                                                                                                                                                                                                                                                                                                                                                                                                                                   shortcomings in its data?
                                                                                                                                                                                                                                                                                                                                                  validation process?
                                                                                                                                                                                               from report?
                                                                                                                                                     challenges?




                                                                                                                                                                                                                                                 in report?



                                                                                                                                                                                                                                                                                                  in report?
GPRA M ISSION GOAL :
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         SELECTED COMMENTS ON AGENCY GOALS\ MEASURES AND
FISCAL YEAR 1999 PERFORMANCE GOALS\M EASURES                                                                                                                                                                                                                                                                                                                                                                                                                                                             VALIDATION METHODS

Mission Goal: Operate Facilities
20. Review operating plans . By the end of Fiscal Year                                                                                                                                                                                                                                                                                                                                                                                                                                                   The goal, which measured output, was discontinued for
1999, Reclamation will review existing Reclamation-owned                                                                                                                                                                                                                                                                                                                                                                                                                                                 Fiscal Year 2000 "to reduce process goals." The
and operated facility operating plans to ensure that                                                                                                                                                                                                                                                                                                                                                                                                                                                     performance plan did not identify the number of operating
operations meet authorized project purposes and to identify     Y                                                 -                                             N                                            N                                              Y                                                     N                                               N                                  N                                                              -                                    plans to be reviewed, while the performance report shows
flexibility for modifying operations to accommodate the                                                                                                                                                                                                                                                                                                                                                                                                                                                  a target of 43 plans.
needs of broader range of resource uses as changing
requirements dictate.
21. Prevent floods . In Fiscal Year 1999, manage                                                                                                                                                                                                                                                                                                                                                                                                                                                         Goal was not included in the Fiscal Year 2001 Plan. The
Reclamation facilities to continue to prevent or minimize                                                                                                                                                                                                                                                                                                                                                                                                                                                reported benefits of $2.3 billion does not represent the result
flood damage.                                                                                                                                                                                                                                                                                                                                                                                                                                                                                            of BOR’s Fiscal Year 1999 activities to prevent or minimize
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         flood damage but instead measures the entire amount of
                                                                Y                                                 -                                             N                                            N                                                N                                                     -                                             N                                Y                                                           Y                                         flood damages averted by BOR’s projects and normal
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         operation of the facilities. Further, the results should not
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         have been reported as "exceed target" because no target
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         was established because BOR "cannot predict flood
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         benefits."
22. Controlled releases. In Fiscal Year 1999, maintain                                                                                                                                                                                                                                                                                                                                                                                                                                                   Goal was not included in the Fiscal Year 2001 Plan because
controlled releases from Reclamation-operated reservoirs        Y                                                 -                                             N                                            N                                                N                                                     -                                             N                                N                                                                -                                    it is unlikely that BOR would not maintain controlled releases
100% of the year for predictable hydrological events.                                                                                                                                                                                                                                                                                                                                                                                                                                                    100 percent of the time.
23. Power availability. In Fiscal Year 1999, where                                                                                                                                                                                                                                                                                                                                                                                                                                                       Goal was not included in the Fiscal Year 2001 Plan because
cost\benefit analysis justifies expenditure, attain an 85%                                                                                                                                                                                                                                                                                                                                                                                                                                               BOR said the goal does not accurately measure facility
availability rate for non-seasonal hydropower generating        Y                                                 -                                             N                                            N                                                N                                                     -                                             N                                Y                                                           Y                                         reliability.
units, from the 1997 84% availability rate, considering water
systems, power systems, and environmental limitations.




         OIG Report No. 00-I-533                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                              Page 40
Bureau of Reclamation

                                   See notes at end of table:   A                                               B                                               C                                            D                                                E                                                   F                                              G                                   H                                                                 I




                                                                                                                                                                                               Fiscal Year 1999 performance plan goal excluded




                                                                                                                                                                                                                                                                                                                                                                                                                                                   Agency indicates what steps it will take to correct
                                                                                                                                                                                                                                                 Fiscal Year 1999 performance plan goal changed



                                                                                                                                                                                                                                                                                                  performance plan goal was excluded or changed




                                                                                                                                                                                                                                                                                                                                                                                                   Agency acknowledges shortcomings in its data?
                                                                                                  describes a strategy to meet goal in the future?




                                                                                                                                                                                                                                                                                                  Adequate explanation of why Fiscal Year 1999




                                                                                                                                                                                                                                                                                                                                                  adequately described the data verification and
                                                                                                                                                     Goal relates to agency’s key management
                                                                                                  If not, report adequately explains why and




                                                                                                                                                                                                                                                                                                                                                  Agency’s performance plan and\or report
                                                                Fiscal Year 1999 goal achieved?




                                                                                                                                                                                                                                                                                                                                                                                                                                                   shortcomings in its data?
                                                                                                                                                                                                                                                                                                                                                  validation process?
                                                                                                                                                                                               from report?
                                                                                                                                                     challenges?




                                                                                                                                                                                                                                                 in report?



                                                                                                                                                                                                                                                                                                  in report?
GPRA M ISSION GOAL :
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         SELECTED COMMENTS ON AGENCY GOALS\ MEASURES AND
FISCAL YEAR 1999 PERFORMANCE GOALS\M EASURES                                                                                                                                                                                                                                                                                                                                                                                                                                                             VALIDATION METHODS

Mission Goal: Facility Maintenance and Rehabilitation
24. Maintenance schedules. By the end of Fiscal Year                                                                                                                                                                                                                                                                                                                                                                                                                                                     This goal, which measured output, was discontinued to
1999, at Reclamation-operated facilities, prepare a schedule                                                                                                                                                                                                                                                                                                                                                                                                                                             reduce the number of process goals.
of maintenance needs, on a per-facility basis, necessary to     Y                                                 -                                             N                                            N                                                N                                                     -                                             N                                  N                                                              -
maintain or upgrade those facilities at levels that will
maintain their availability (100%).
25. Analysis of O&M. In Fiscal Year 1999, 5 of the 16                                                                                                                                                                                                                                                                                                                                                                                                                                                    This goal, which measured output, was not included in the
area offices with operation and maintenance (O&M)                                                                                                                                                                                                                                                                                                                                                                                                                                                        Fiscal Year 2001 Plan. The goal does not measure whether
responsibility will complete formal analyses of O&M                                                                                                                                                                                                                                                                                                                                                                                                                                                      required maintenance has been performed or the condition
                                                                Y                                                 -                                             N                                            N                                              Y                                                     N                                               N                                  N                                                              -
practices for one Reclamation-operated water storage and                                                                                                                                                                                                                                                                                                                                                                                                                                                 of Reclamation’s facilities.
delivery system to identify economically justifiable measures
that will reduce system breakdowns.
26. Test governors and voltage regulators. In Fiscal                                                                                                                                                                                                                                                                                                                                                                                                                                                     This goal, which measured output, was not included in the
Year 1999, Reclamation will test and adjust approximately                                                                                                                                                                                                                                                                                                                                                                                                                                                Fiscal Year 2001 Plan. The goal does not measure whether
20 percent of 140 governors and voltage regulators at                                                                                                                                                                                                                                                                                                                                                                                                                                                    required maintenance has been performed or the condition
power facilities consistent with our strategy to review all     Y                                                 -                                             N                                            N                                                N                                                     -                                             N                                Y                                                           Y                                         of Reclamation’s facilities.
governors and voltage regulators every 5 years to maintain
power system stability at or above Western Systems
Coordinating Council requirements.
27. Forced outage . In Fiscal Year 1999, attain a three                                                                                                                                                                                                                                                                                                                                                                                                                                                  This goal was included in the Fiscal Year 2001 Plan
percent or lower forced outage rate for Reclamation’s                                                                                                                                                                                                                                                                                                                                                                                                                                                    (No. 2.13.01 - Maintain a lower forced outage rate ).
hydropower generating units where cost\benefit analysis
                                                                Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                   N                                                              -
justifies expenditures, considering water supply,
environmental, and power system limitations and
requirements.




         OIG Report No. 00-I-533                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          Page 41
Bureau of Reclamation

                                    See notes at end of table:   A                                               B                                               C                                            D                                                E                                                   F                                              G                                   H                                                                 I




                                                                                                                                                                                                Fiscal Year 1999 performance plan goal excluded




                                                                                                                                                                                                                                                                                                                                                                                                                                                    Agency indicates what steps it will take to correct
                                                                                                                                                                                                                                                  Fiscal Year 1999 performance plan goal changed



                                                                                                                                                                                                                                                                                                   performance plan goal was excluded or changed




                                                                                                                                                                                                                                                                                                                                                                                                    Agency acknowledges shortcomings in its data?
                                                                                                   describes a strategy to meet goal in the future?




                                                                                                                                                                                                                                                                                                   Adequate explanation of why Fiscal Year 1999




                                                                                                                                                                                                                                                                                                                                                   adequately described the data verification and
                                                                                                                                                      Goal relates to agency’s key management
                                                                                                   If not, report adequately explains why and




                                                                                                                                                                                                                                                                                                                                                   Agency’s performance plan and\or report
                                                                 Fiscal Year 1999 goal achieved?




                                                                                                                                                                                                                                                                                                                                                                                                                                                    shortcomings in its data?
                                                                                                                                                                                                                                                                                                                                                   validation process?
                                                                                                                                                                                                from report?
                                                                                                                                                      challenges?




                                                                                                                                                                                                                                                  in report?



                                                                                                                                                                                                                                                                                                   in report?
GPRA M ISSION GOAL :
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          SELECTED COMMENTS ON AGENCY GOALS\ MEASURES AND
FISCAL YEAR 1999 PERFORMANCE GOALS\M EASURES                                                                                                                                                                                                                                                                                                                                                                                                                                                              VALIDATION METHODS

Mission Goal: Reduce Risk to Public Safety
28. Safety of Dams peer findings . Implement actions to                                                                                                                                                                                                                                                                                                                                                                                                                                                   This process-oriented goal was a one-time effort that was
address all findings of the Commissioner’s 1997 Dam Safety       Y                                                 -                                             N                                            N                                                N                                                     -                                             N                                  N                                                              -                                    completed in Fiscal Year 1999 and was not included in the
Peer Review (CDSPR) by the end of Fiscal Year 1999.                                                                                                                                                                                                                                                                                                                                                                                                                                                       Fiscal Year 2001 Plan.
29. Safety of Dams Officer recommendations . By                                                                                                                                                                                                                                                                                                                                                                                                                                                           This process-oriented goal was a one-time effort that was
the end of Fiscal Year 1999, implement all approved Dam                                                                                                                                                                                                                                                                                                                                                                                                                                                   completed in Fiscal Year 1999 and was not included in the
                                                                 Y                                                 -                                             N                                            N                                                N                                                     -                                             N                                  N                                                              -
Safety Officer’s recommendations as presented in the                                                                                                                                                                                                                                                                                                                                                                                                                                                      Fiscal Year 2001 Plan.
annual dam safety assessment report.
30. Safety of dams modifications . From Fiscal Year                                                                                                                                                                                                                                                                                                                                                                                                                                                       This goal was included in an expanded goal, Reduce
1998 to the end of Fiscal Year 1999, complete correction of                                                                                                                                                                                                                                                                                                                                                                                                                                               risks, in the Fiscal Year 2001 Plan (No. 2.15.01). The
deficiencies at nine dams.                                                                                                                                                                                                                                                                                                                                                                                                                                                                                validity of the goal of completing correction of deficiencies at
                                                                 Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                   N                                                              -
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          nine dams cannot be determined from the report because it
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          is not clear how many dams have deficiencies that require
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          corrective action.
31. Emergency action plans for high hazard dams.                                                                                                                                                                                                                                                                                                                                                                                                                                                          This goal, which measured output, was a one-time effort
By the end of Fiscal Year 1999, complete upgrade of                                                                                                                                                                                                                                                                                                                                                                                                                                                       that was essentially completed in Fiscal Year 1999 and was
emergency action plans (EAPs) to ensure all 247 high                                                                                                                                                                                                                                                                                                                                                                                                                                                      not included in the Fiscal Year 2001 Plan.
                                                                  N                                           Y                                                  N                                            N                                                N                                                     -                                             N                                  N                                                              -
hazard and significant hazard Reclamation dams meet the
requirements of Reclamation Directive FAC-01-01,
"Emergency Management."
32. Assess site security. By the end of Fiscal Year                                                                                                                                                                                                                                                                                                                                                                                                                                                       This goal, which measures output was a one-time effort that
1999, complete assessments of all 336 of pertinent                                                                                                                                                                                                                                                                                                                                                                                                                                                        was completed in Fiscal Year 1999 and was not included in
                                                                 Y                                                 -                                             N                                            N                                                N                                                     -                                             N                                  N                                                              -
Reclamation dams and facilities to identify the need for site                                                                                                                                                                                                                                                                                                                                                                                                                                             the Fiscal Year 2001 Plan.
security improvements.




         OIG Report No. 00-I-533                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                Page 42
Bureau of Reclamation

                                   See notes at end of table:   A                                               B                                               C                                            D                                                E                                                   F                                              G                                   H                                                                 I




                                                                                                                                                                                               Fiscal Year 1999 performance plan goal excluded




                                                                                                                                                                                                                                                                                                                                                                                                                                                   Agency indicates what steps it will take to correct
                                                                                                                                                                                                                                                 Fiscal Year 1999 performance plan goal changed



                                                                                                                                                                                                                                                                                                  performance plan goal was excluded or changed




                                                                                                                                                                                                                                                                                                                                                                                                   Agency acknowledges shortcomings in its data?
                                                                                                  describes a strategy to meet goal in the future?




                                                                                                                                                                                                                                                                                                  Adequate explanation of why Fiscal Year 1999




                                                                                                                                                                                                                                                                                                                                                  adequately described the data verification and
                                                                                                                                                     Goal relates to agency’s key management
                                                                                                  If not, report adequately explains why and




                                                                                                                                                                                                                                                                                                                                                  Agency’s performance plan and\or report
                                                                Fiscal Year 1999 goal achieved?




                                                                                                                                                                                                                                                                                                                                                                                                                                                   shortcomings in its data?
                                                                                                                                                                                                                                                                                                                                                  validation process?
                                                                                                                                                                                               from report?
                                                                                                                                                     challenges?




                                                                                                                                                                                                                                                 in report?



                                                                                                                                                                                                                                                                                                  in report?
GPRA M ISSION GOAL :
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         SELECTED COMMENTS ON AGENCY GOALS\ MEASURES AND
FISCAL YEAR 1999 PERFORMANCE GOALS\M EASURES                                                                                                                                                                                                                                                                                                                                                                                                                                                             VALIDATION METHODS

Mission Goal: Enhance Recreational Opportunities Through State and Local Partnerships
33. Recreation assessments . By the end of Fiscal                                                                                                                                                                                                                                                                                                                                                                                                                                                        This goal, which measured output, was a one-time effort
Year 1999, develop, distribute, and complete a                                                                                                                                                                                                                                                                                                                                                                                                                                                           that was completed in Fiscal Year 1999 and was not
Reclamation-wide assessments to identify issues and             Y                                                 -                                             N                                            N                                                N                                                     -                                             N                                  N                                                              -                                    included in the Fiscal Year 2001 Plan. The goal was to
constraints associated with recreation opportunities.                                                                                                                                                                                                                                                                                                                                                                                                                                                    complete 5 assessments, and 11 were actually
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         accomplished, raising the question of the validity of the goal.
34. Concessions management. By the end of Fiscal                                                                                                                                                                                                                                                                                                                                                                                                                                                         This goal, which measured output, was a one-time effort
Year 1999, develop policy, directives, standards, and                                                                                                                                                                                                                                                                                                                                                                                                                                                    that was completed in Fiscal Year 1999 and was not
                                                                Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                   N                                                              -
guidance on recreation and concessions management.                                                                                                                                                                                                                                                                                                                                                                                                                                                       included in the Fiscal Year 2001 Plan. We verified
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         accomplishment of this goal during a recent audit.
35. Identify improvements to recreation facilities.                                                                                                                                                                                                                                                                                                                                                                                                                                                      This goal, which measured output, was a one-time effort
By the end of Fiscal Year 1999, complete identification of                                                                                                                                                                                                                                                                                                                                                                                                                                               that was completed in Fiscal Year 1999 and was not
improvements to recreation facilities directly managed by                                                                                                                                                                                                                                                                                                                                                                                                                                                included in the Fiscal Year 2001 Plan. A related goal in the
Reclamation needed to meet public health, safety, and           Y                                                 -                                             N                                            N                                              Y                                                     N                                               N                                  N                                                              -                                    Fiscal Year 2001 Plan is limited to the accessibility issue and
accessibility standards.                                                                                                                                                                                                                                                                                                                                                                                                                                                                                 also covers nonrecreational facilities. The performance plan
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         did not establish a specific target, while the performance
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         report shows a target of 5 facilities.
Mission Goal: Manage Land Resources
36. Inventory land resource risks. By the end of                                                                                                                                                                                                                                                                                                                                                                                                                                                         This goal, which measures output, was a one-time effort
Fiscal Year 1999, each area office with land management                                                                                                                                                                                                                                                                                                                                                                                                                                                  that was completed in Fiscal Year 2000 and was not
                                                                 N                                           Y                                                  N                                            N                                                N                                                     -                                             N                                  N                                                              -
responsibilities will develop an inventory of those land                                                                                                                                                                                                                                                                                                                                                                                                                                                 included in the Fiscal Year 2001 Plan.
areas that have resources at risk.
37. Real property system. By the end of Fiscal Year                                                                                                                                                                                                                                                                                                                                                                                                                                                      This goal, which measured output, was not included in the
                                                                 N                                           Y                                                  N                                            N                                                N                                                     -                                            Y                                   N                                                              -
1999, implement a new real property system.                                                                                                                                                                                                                                                                                                                                                                                                                                                              Fiscal Year 2001 Plan.
Mission Goal: Make Watershed-based Decisions
38. Colorado River multi-species plan. Complete all              N                                           Y                                                  N                                            N                                                N                                                     -                                            Y                                 Y                                                           Y                                         Goal was discontinued because it was "difficult to


         OIG Report No. 00-I-533                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               Page 43
Bureau of Reclamation

                                    See notes at end of table:    A                                               B                                               C                                            D                                                E                                                   F                                              G                                   H                                                                 I




                                                                                                                                                                                                 Fiscal Year 1999 performance plan goal excluded




                                                                                                                                                                                                                                                                                                                                                                                                                                                     Agency indicates what steps it will take to correct
                                                                                                                                                                                                                                                   Fiscal Year 1999 performance plan goal changed



                                                                                                                                                                                                                                                                                                    performance plan goal was excluded or changed




                                                                                                                                                                                                                                                                                                                                                                                                     Agency acknowledges shortcomings in its data?
                                                                                                    describes a strategy to meet goal in the future?




                                                                                                                                                                                                                                                                                                    Adequate explanation of why Fiscal Year 1999




                                                                                                                                                                                                                                                                                                                                                    adequately described the data verification and
                                                                                                                                                       Goal relates to agency’s key management
                                                                                                    If not, report adequately explains why and




                                                                                                                                                                                                                                                                                                                                                    Agency’s performance plan and\or report
                                                                  Fiscal Year 1999 goal achieved?




                                                                                                                                                                                                                                                                                                                                                                                                                                                     shortcomings in its data?
                                                                                                                                                                                                                                                                                                                                                    validation process?
                                                                                                                                                                                                 from report?
                                                                                                                                                       challenges?




                                                                                                                                                                                                                                                   in report?



                                                                                                                                                                                                                                                                                                    in report?
GPRA M ISSION GOAL :
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           SELECTED COMMENTS ON AGENCY GOALS\ MEASURES AND
FISCAL YEAR 1999 PERFORMANCE GOALS\M EASURES                                                                                                                                                                                                                                                                                                                                                                                                                                                               VALIDATION METHODS

39. Wetlands. By the end of Fiscal Year 1999, achieve no                                                                                                                                                                                                                                                                                                                                                                                                                                                   This goal was included in the Fiscal Year 2001 Plan
net loss of wetlands by developing and implementing                                                                                                                                                                                                                                                                                                                                                                                                                                                        (No. 1.8.01 - Enhance fish and wildlife habitat), but the
projects to create, restore, and enhance wetlands, and                                                                                                                                                                                                                                                                                                                                                                                                                                                     measurement was expanded to include acre feet provided
                                                                  Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                   N                                                              -
mitigate for wetlands lost.                                                                                                                                                                                                                                                                                                                                                                                                                                                                                for endangered species and acres of land and miles of in-
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           stream or riparian habitat preserved, restored, or
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           established.
Mission Goal: Manage Finances
40. Working capital fund. By the end of Fiscal Year                                                                                                                                                                                                                                                                                                                                                                                                                                                        This goal, which measured output, was a one-time effort
1999, the CFO Council will complete a comprehensive                                                                                                             Y                                                                                                                                                                                                                                                                                                                                          that was completed in Fiscal Year 1999 and was not
analysis of Reclamation’s Working Capital Fund and                Y                                                 -                                                                                          N                                                N                                                     -                                            Y                                   N                                                              -                                    included in the
establish a process for performing ongoing reviews, which                                                                                                   #6                                                                                                                                                                                                                                                                                                                                             Fiscal Year 2001 Plan.
will include cost- efficiency measures.
41. Rule for revenues. By the end of Fiscal Year 1999,                                                                                                                                                                                                                                                                                                                                                                                                                                                     This goal, which measured output, was a one-time effort
publish a final rule for revenue management in the "Federal                                                                                                                                                                                                                                                                                                                                                                                                                                                that was completed in Fiscal Year 1999 and was not
                                                                                                                                                                Y
Register" in order to clarify the disposition of incidental                                                                                                                                                                                                                                                                                                                                                                                                                                                included in the Fiscal Year 2001 Plan. The Fiscal Year 2001
                                                                  Y                                                 -                                                                                          N                                                N                                                     -                                            Y                                   N                                                              -
revenues.                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                  plan includes a goal for measuring compliance with the new
                                                                                                                                                            #6
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           policies and procedures and their effectiveness (No. 3.17.03
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           - Improve incidental revenue management).
42. Title transfer of projects . By the end of Fiscal Year                                                                                                                                                                                                                                                                                                                                                                                                                                                 The goal, which measured output, was included in the Fiscal
1999, Reclamation will complete analysis and negotiations                                                                                                                                                                                                                                                                                                                                                                                                                                                  Year 2001 Plan (No. 3.18.01 - Transfer project titles to
for the potential transfer of projects or parts of projects [1]                                                                                                                                                                                                                                                                                                                                                                                                                                            interested and capable parties) but expanded to
                                                                  Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                   N                                                              -
to local non-federal entities.                                                                                                                                                                                                                                                                                                                                                                                                                                                                             measure the number of projects or parts of projects for
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           which an agreement on goals and process has been
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           completed.




         OIG Report No. 00-I-533                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                              Page 44
Bureau of Reclamation

                                   See notes at end of table:    A                                               B                                               C                                            D                                                E                                                   F                                              G                                   H                                                                 I




                                                                                                                                                                                                Fiscal Year 1999 performance plan goal excluded




                                                                                                                                                                                                                                                                                                                                                                                                                                                    Agency indicates what steps it will take to correct
                                                                                                                                                                                                                                                  Fiscal Year 1999 performance plan goal changed



                                                                                                                                                                                                                                                                                                   performance plan goal was excluded or changed




                                                                                                                                                                                                                                                                                                                                                                                                    Agency acknowledges shortcomings in its data?
                                                                                                   describes a strategy to meet goal in the future?




                                                                                                                                                                                                                                                                                                   Adequate explanation of why Fiscal Year 1999




                                                                                                                                                                                                                                                                                                                                                   adequately described the data verification and
                                                                                                                                                      Goal relates to agency’s key management
                                                                                                   If not, report adequately explains why and




                                                                                                                                                                                                                                                                                                                                                   Agency’s performance plan and\or report
                                                                 Fiscal Year 1999 goal achieved?




                                                                                                                                                                                                                                                                                                                                                                                                                                                    shortcomings in its data?
                                                                                                                                                                                                                                                                                                                                                   validation process?
                                                                                                                                                                                                from report?
                                                                                                                                                      challenges?




                                                                                                                                                                                                                                                  in report?



                                                                                                                                                                                                                                                                                                   in report?
GPRA M ISSION GOAL :
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          SELECTED COMMENTS ON AGENCY GOALS\ MEASURES AND
FISCAL YEAR 1999 PERFORMANCE GOALS\M EASURES                                                                                                                                                                                                                                                                                                                                                                                                                                                              VALIDATION METHODS

43. Transfer operations and maintenance . By the                                                                                                                                                                                                                                                                                                                                                                                                                                                          Goal was discontinued "to streamline goals."
end of Fiscal Year 1999, Reclamation will complete transfer
of responsibility for project O&M activities and associated      Y                                                 -                                             N                                            N                                                N                                                     -                                             N                                  N                                                              -
responsibility to willing non-federal entities, including
funding of all O&M activities.
Mission Goal: Improve Customer Service
44. Customer service benchmarking. By the end of                                                                                                                                                                                                                                                                                                                                                                                                                                                          This goal, which measured output, was completed in Fiscal
Fiscal Year 1999, based on adopted Reclamation-wide                                                                                                                                                                                                                                                                                                                                                                                                                                                       Year 2000 and was not included in the Fiscal Year 2001
customer service principles, establish a baseline for cyclical    N                                           Y                                                  N                                            N                                                N                                                     -                                            Y                                   N                                                              -                                    Plan.
benchmarking, and identify changes, which increase
customer satisfaction.
Mission Goal: Maintain Diverse, Skilled Workforce Excellence
45. Workforce representation. In Fiscal Year 1999,                                                                                                                                                                                                                                                                                                                                                                                                                                                        This goal is included in the Fiscal Year 2001 Plan
Reclamation will show improvement in representativeness                                                                                                                                                                                                                                                                                                                                                                                                                                                   (No. 3.19.03 - Workforce representation).
of its workforce in the six most underrepresented                 N                                           Y                                                  N                                            N                                                N                                                     -                                            Y                                   N                                                              -
occupations compared with the diversity for these
occupations in national civilian workforce.
46. Violence\drug training. By the end of Fiscal Year                                                                                                                                                                                                                                                                                                                                                                                                                                                     This goal, which measures output, was not included in the
1999, 75% of managers and supervisors receive                                                                                                                                                                                                                                                                                                                                                                                                                                                             Fiscal Year 2001 Plan because training was to be completed
approximately 8 hours of formal training on workplace             N                                           Y                                                  N                                            N                                                N                                                     -                                             N                                  N                                                              -                                    for all employees in Fiscal Year 2000.
violence and 4 hours of training on drug free workplace
program.
47. Diversity training. By the end of Fiscal Year 1999,                                                                                                                                                                                                                                                                                                                                                                                                                                                   Goal was not included in the Fiscal Year 2001 Plan because
25% of managers and supervisors will complete diversity                                                                                                                                                                                                                                                                                                                                                                                                                                                   BOR far exceeded its goal (85 percent were trained) and
                                                                 Y                                                 -                                             N                                            N                                                N                                                     -                                             N                                  N                                                              -
training.                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                 remaining training was expected to be completed in Fiscal
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          Year 2000.




         OIG Report No. 00-I-533                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               Page 45
Bureau of Reclamation

                                  See notes at end of table:   A                                                B                                               C                                            D                                                E                                                   F                                              G                                    H                                                                 I




                                                                                                                                                                                               Fiscal Year 1999 performance plan goal excluded




                                                                                                                                                                                                                                                                                                                                                                                                                                                    Agency indicates what steps it will take to correct
                                                                                                                                                                                                                                                 Fiscal Year 1999 performance plan goal changed



                                                                                                                                                                                                                                                                                                  performance plan goal was excluded or changed




                                                                                                                                                                                                                                                                                                                                                                                                    Agency acknowledges shortcomings in its data?
                                                                                                  describes a strategy to meet goal in the future?




                                                                                                                                                                                                                                                                                                  Adequate explanation of why Fiscal Year 1999




                                                                                                                                                                                                                                                                                                                                                  adequately described the data verification and
                                                                                                                                                     Goal relates to agency’s key management
                                                                                                  If not, report adequately explains why and




                                                                                                                                                                                                                                                                                                                                                  Agency’s performance plan and\or report
                                                                Fiscal Year 1999 goal achieved?




                                                                                                                                                                                                                                                                                                                                                                                                                                                    shortcomings in its data?
                                                                                                                                                                                                                                                                                                                                                  validation process?
                                                                                                                                                                                               from report?
                                                                                                                                                     challenges?




                                                                                                                                                                                                                                                 in report?



                                                                                                                                                                                                                                                                                                  in report?
GPRA M ISSION GOAL :
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          SELECTED COMMENTS ON AGENCY GOALS\ MEASURES AND
FISCAL YEAR 1999 PERFORMANCE GOALS\M EASURES                                                                                                                                                                                                                                                                                                                                                                                                                                                              VALIDATION METHODS


                                                               37Y                                                                                      3Y                                                                                          2Y                                                                                                 22Y                                         11Y                                                  9Y
                                                                                                  10Y                                                                                          47N                                                                                                           2N
Total Goals: 47
                                                               10N                                                                                   44N                                                                                         45N                                                                                                     25N                                       36N                                                    2N


NOTES:

A.   The agencies generally reported whether or not the performance goal\measure was met for Fiscal Year 1999. However, in some instance the agency reported that for the performance
     goal\measure it did not have the data or was unable to collect the data met for the specific measure. In these instances, we recorded a No response for the performance goal\measure
     because it was not achieved. When necessary, a specific comment was included in the comment section.

B.   A response is only required for this question if the response in Column A was ‘N’. Responses to Column B should reconcile to the number of N responses in Column A.




         OIG Report No. 00-I-533                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                    Page 46
Bureau of Reclamation

C.   On December 1, 1998, the Office of Inspector General provided the Congress a current assessment of the 10 key management challenges within the Department of the Interior. The table
     below shows each challenge and the Departmental agency it applies to.

                      10 Key Management Challenges                               DMO      BIA     BLM     BOR        MMS    NPS     OIA      OSM      FWS     USGS
                      1. Management of Indian Trust Funds *
                      2. Maintenance                                               x       x       x                          x                        x
                      3. National Park Service Housing                                                                        x
                      4. Financial Management                                      x       x                                          x
                      5. Waste Management                                          x       x       x        x                 x                        x
                      6. Revenue Collections                                       x       x       x        x         x       x               x        x         x
                      7. Inspection and Enforcement of Fluid Minerals                              x
                      8. Range Monitoring                                                          x
                      9. Land Exchanges                                                            x
                      10. Year 2000 Readiness                                      x


                      *The Office of the Special Trustee for American Indians is responsible for the "Management of Indian Trust Funds." OST did not prepare a
                      performance plan for Fiscal Year 1999 or produce a performance report. OST is in the process of implementing a Trust Management
                      Improvement Project and is under a Court Order to produce a quarterly report of its progress on the High Level Implementation Plan.

D.   We compared the agency’s Fiscal Year 1999 performance plan and Fiscal Year 1999 performance report to determine if any planned goals\measures were excluded from the report.

E.   We compared the agency’s Fiscal Year 1999 performance plan and Fiscal Year 1999 performance report to determine if any planned goals\measures were changed in the report.

F.   If the agency excluded or changed any of its Fiscal Year 1999 planned goals\measures, indicate whether the agency adequately explained why it excluded or changed the goal\measure.

G.   We were not able to provide assurance regarding the validity and reliability of data because we have not assessed the adequacy of data collection, verification, and validation processes
     for each of the agency’s Fiscal Year 1999 performance goals\measures. However, we attempted to determine whether the agency’s verification and validation process as described in
     its performance plan and\or report could produce reliable data, assuming that there were adequate controls to ensure the integrity of the data throughout the process.

H.   In some instances an agency may have identified shortcomings or limitations in its data collection processes.

I.   Having identified shortcomings or limitations in its data collection processes, did the agency indicate what steps it would take to correct\overcome the problems. A Y response indicates
     that the agency has identified such steps or discontinued the performance goal\measure in its Fiscal Year 2001 performance plan. Responses to Column I should reconcile to the number
     of Y responses in Column H.




          OIG Report No. 00-I-533                                                                                                                                                  Page 47
MINERALS MANAGEMENT SERVICE

The Minerals Management Service (MMS) organized its fiscal year 1999 and fiscal year 2001
performance plans into GPRA mission goal categories (8 in 1999 and 7 in 2001), each of which
has subsets of long-term goals (14 in 1999 and 9 in 2001) and annual goals (22 in 1999 and 9 in
2001). The annual goals, in turn, had one or more performance targets to measure
accomplishments. The targets typically consisted of barrels, cubic measurements, dollars, or
percentage.

Fiscal Year 1999 Performance Plan and Report

MMS’s fiscal year 1999 performance plan generally provided an adequate basis for evaluating
MMS’s accomplishment of its two primary missions: offshore minerals management and royalty
management. For most goals, MMS established a performance baseline that provided a
reasonable approach to measuring the accomplishment of mission objectives. However, we cannot
comment on whether the baseline data are valid or whether the annual goals for measuring
accomplishments are appropriate because information on the development of the baselines and the
numerical goals for annual accomplishments were not in the Plan or Report. Because the General
Accounting Office reviewed 5 mission goals and 12 annual goals, we limited our review to the
remaining 4 mission goals and 10 annual goals.

MMS’s 1999 Plan provided overall but not detailed information on the methods MMS planned
to use to validate data. MMS did not acknowledge any data limitations.

Fiscal Year 2001 Performance Plan

In its 2001 Plan, MMS explained why it eliminated or revised 1999 goals, stating that these goals
primarily depend on outside (market) conditions which are beyond MMS’s control. For the 2001
Plan, MMS identified seven mission goals with nine related annual goals. Of the seven mission
goals, three were the same as those in its fiscal year 1999 plan; three were rephrased from fiscal
year 1999, and one was new. Of the nine annual goals, five were rephrased from fiscal year 1999
and four were new. The 2001 plan provided detailed information on the data that would be used
to measure performance and in most cases described the data collection process and the methods
used to validate the data. Overall, the mission and annual goals in the fiscal year 2001 plan provide
a better framework for measuring performance than those in MMS’ fiscal year 1999 plan.




OIG Report No. 00-I-533                                                                    Page 48
Minerals Management Service

                                   See notes at end of table:   A                                               B                                               C                                            D                                                E                                                   F                                              G                                   H                                                                 I




                                                                                                                                                                                               Fiscal Year 1999 performance plan goal excluded




                                                                                                                                                                                                                                                                                                                                                                                                                                                   Agency indicates what steps it will take to correct
                                                                                                                                                                                                                                                 Fiscal Year 1999 performance plan goal changed



                                                                                                                                                                                                                                                                                                  performance plan goal was excluded or changed




                                                                                                                                                                                                                                                                                                                                                                                                   Agency acknowledges shortcomings in its data?
                                                                                                  describes a strategy to meet goal in the future?




                                                                                                                                                                                                                                                                                                  Adequate explanation of why Fiscal Year 1999




                                                                                                                                                                                                                                                                                                                                                  adequately described the data verification and
                                                                                                                                                     Goal relates to agency’s key management
                                                                                                  If not, report adequately explains why and




                                                                                                                                                                                                                                                                                                                                                  Agency’s performance plan and\or report
                                                                Fiscal Year 1999 goal achieved?




                                                                                                                                                                                                                                                                                                                                                                                                                                                   shortcomings in its data?
                                                                                                                                                                                                                                                                                                                                                  validation process?
GPRA PROGRAM ACTIVITY\M ISSION GOAL :




                                                                                                                                                                                               from report?
                                                                                                                                                     challenges?




                                                                                                                                                                                                                                                 in report?



                                                                                                                                                                                                                                                                                                  in report?
FISCAL YEAR 1999 PERFORMANCE GOAL \M EASURE
    (EXCLUDES THE 4 MISSION GOALS, CONSISTING OF 12                                                                                                                                                                                                                                                                                                                                                                                                                                                      SELECTED COMMENTS ON AGENCY GOALS\ MEASURES AND
    ANNUAL GOALS\M EASURES REVIEWED BY THE GAO)                                                                                                                                                                                                                                                                                                                                                                                                                                                          VALIDATION METHODS

Improve the Timeliness and Accuracy of Payments to States, Indian Tribes, BIA Offices, and Other Federal Agencies
In Fiscal Year 1999, the percentage of the collected dollars                                                                                                  Y                                                                                                                                                                                                                                                                                                                                          This goal was reworded in the Fiscal Year 2000 and
and accompanying information that is provided timely to          N                                           Y                                                                                               N                                                N                                                     -                                            Y                                   N                                                              -                                    beyond plans.
states and Indians is 98.7 percent.                                                                                                                       #6
In Fiscal Year 1999, late disbursement interest costs are                                                                                                                                                                                                                                                                                                                                                                                                                                                This goal has been discontinued for the Fiscal Year 2000
                                                                Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                   N                                                              -
targeted at $45,000.                                                                                                                                                                                                                                                                                                                                                                                                                                                                                     and beyond plans.
Improve the Cost Effectiveness of Mineral Royalty Collection and Disbursement Services (Discontinued)
In Fiscal Year 1999, increase the percentage received                                                                                                                                                                                                                                                                                                                                                                                                                                                    This goal has been discontinued for the Fiscal Year 2000
                                                                 N                                           Y                                                  N                                            N                                                N                                                     -                                            Y                                   N                                                              -
electronically for royalty reports to 96 percent.                                                                                                                                                                                                                                                                                                                                                                                                                                                        and beyond plans.
In Fiscal Year 1999, increase the percentage received                                                                                                                                                                                                                                                                                                                                                                                                                                                    This goal has been discontinued for the Fiscal Year 2000
                                                                 N                                           Y                                                  N                                            N                                                N                                                     -                                            Y                                   N                                                              -
electronically for production reports to 95 percent.                                                                                                                                                                                                                                                                                                                                                                                                                                                     and beyond plans.
In Fiscal Year 1999, increase the percentage of dollars                                                                                                                                                                                                                                                                                                                                                                                                                                                  This goal has been discontinued for the Fiscal Year 2000
                                                                 N                                           Y                                                  N                                            N                                                N                                                     -                                            Y                                   N                                                              -
received electronically to 95 percent.                                                                                                                                                                                                                                                                                                                                                                                                                                                                   and beyond plans.
Improve Reporters’ Compliance With Lease Terms, Rules, Regulations, and Laws
In Fiscal Year 1999, the percentage of royalty and                                                                                                                                                                                                                                                                                                                                                                                                                                                       This goal has been discontinued for the Fiscal Year 2000
production reports submitted without fatal errors is 97.5        N                                           Y                                                  N                                            N                                                N                                                     -                                            Y                                   N                                                              -                                    and beyond plans.
percent.
In calendar year 1999, achieve a compliance index                                                                                                             Y                                                                                                                                                                                                                                                                                                                                          This goal has been discontinued for the Fiscal Year 2000
(calculated on the year 1997) of .975.                          Y                                                 -                                                                                          N                                                N                                                     -                                            Y                                   N                                                              -                                    and beyond plans.
                                                                                                                                                          #6




  Legend of responses: Y = Yes;            N = No     A Dash ( - ) = Not applicable or no response required based on response to prior question.


         OIG Report No. 00-I-533                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           Page 49
Minerals Management Service

                                   See notes at end of table:   A                                               B                                               C                                            D                                                E                                                   F                                              G                                    H                                                                 I




                                                                                                                                                                                               Fiscal Year 1999 performance plan goal excluded




                                                                                                                                                                                                                                                                                                                                                                                                                                                    Agency indicates what steps it will take to correct
                                                                                                                                                                                                                                                 Fiscal Year 1999 performance plan goal changed



                                                                                                                                                                                                                                                                                                  performance plan goal was excluded or changed




                                                                                                                                                                                                                                                                                                                                                                                                    Agency acknowledges shortcomings in its data?
                                                                                                  describes a strategy to meet goal in the future?




                                                                                                                                                                                                                                                                                                  Adequate explanation of why Fiscal Year 1999




                                                                                                                                                                                                                                                                                                                                                  adequately described the data verification and
                                                                                                                                                     Goal relates to agency’s key management
                                                                                                  If not, report adequately explains why and




                                                                                                                                                                                                                                                                                                                                                  Agency’s performance plan and\or report
                                                                Fiscal Year 1999 goal achieved?




                                                                                                                                                                                                                                                                                                                                                                                                                                                    shortcomings in its data?
                                                                                                                                                                                                                                                                                                                                                  validation process?
GPRA PROGRAM ACTIVITY\M ISSION GOAL :




                                                                                                                                                                                               from report?
                                                                                                                                                     challenges?




                                                                                                                                                                                                                                                 in report?



                                                                                                                                                                                                                                                                                                  in report?
FISCAL YEAR 1999 PERFORMANCE GOAL \M EASURE
    (EXCLUDES THE 4 MISSION GOALS, CONSISTING OF 12                                                                                                                                                                                                                                                                                                                                                                                                                                                       SELECTED COMMENTS ON AGENCY GOALS\ MEASURES AND
    ANNUAL GOALS\M EASURES REVIEWED BY THE GAO)                                                                                                                                                                                                                                                                                                                                                                                                                                                           VALIDATION METHODS

Provide Indian Tribes With Increased Opportunities for Education and for Assuming Functional Responsibilities With Respect to the Royalty Management Program
(Discontinued)
In Fiscal Year 1999, increase the number of Indian tribes                                                                                                                                                                                                                                                                                                                                                                                                                                                 This goal has been discontinued for the Fiscal Year 2000
                                                                 N                                           Y                                                  N                                            N                                                N                                                     -                                            Y                                    N                                                              -
having system access to 15.                                                                                                                                                                                                                                                                                                                                                                                                                                                                               and beyond plans.
In Fiscal Year 1999, increase the number of Indian tribe                                                                                                                                                                                                                                                                                                                                                                                                                                                  This goal has been discontinued for the Fiscal Year 2000
                                                                 N                                           Y                                                  N                                            N                                                N                                                     -                                            Y                                    N                                                              -
training IPA’s or internships to five.                                                                                                                                                                                                                                                                                                                                                                                                                                                                    and beyond plans.
In Fiscal Year 1999, increase the number of Indian tribes                                                                                                                                                                                                                                                                                                                                                                                                                                                 This goal has been discontinued for the Fiscal Year 2000
                                                                Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                    N                                                              -
assuming functions (audits, etc.) to eight.                                                                                                                                                                                                                                                                                                                                                                                                                                                               and beyond plans.

                                                                3Y                                                                                      2Y
                                                                                                     7Y                                                                                        10N                                               10N                                                                -                                10Y                                           10N                                                             -
Total Goals: 10
                                                                7N                                                                                   8N




NOTES:

A.   The agencies generally reported whether or not the performance goal\measure was met for Fiscal Year 1999. However, in some instance the agency reported that for the performance
     goal\measure it did not have the data or was unable to collect the data met for the specific measure. In these instances, we recorded a No response for the performance goal\measure
     because it was not achieved. When necessary, a specific comment was included in the comment section.

B.   A response is only required for this question if the response in Column A was ‘N’. Responses to Column B should reconcile to the number of N responses in Column A.




          OIG Report No. 00-I-533                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           Page 50
Minerals Management Service

C.   On December 1, 1998, the Office of Inspector General provided the Congress a current assessment of the 10 key management challenges within the Department of the Interior. The table
     below shows each challenge and the Departmental agency it applies to.

                      10 Key Management Challenges                               DMO      BIA     BLM     BOR        MMS    NPS     OIA      OSM      FWS     USGS
                      1. Management of Indian Trust Funds *
                      2. Maintenance                                               x       x       x                          x                        x
                      3. National Park Service Housing                                                                        x
                      4. Financial Management                                      x       x                                          x
                      5. Waste Management                                          x       x       x        x                 x                        x
                      6. Revenue Collections                                       x       x       x        x         x       x               x        x         x
                      7. Inspection and Enforcement of Fluid Minerals                              x
                      8. Range Monitoring                                                          x
                      9. Land Exchanges                                                            x
                      10. Year 2000 Readiness                                      x


                      *The Office of the Special Trustee for American Indians is responsible for the "Management of Indian Trust Funds." OST did not prepare a
                      performance plan for Fiscal Year 1999 or produce a performance report. OST is in the process of implementing a Trust Management
                      Improvement Project and is under a Court Order to produce a quarterly report of its progress on the High Level Implementation Plan.

D.   We compared the agency’s Fiscal Year 1999 performance plan and Fiscal Year 1999 performance report to determine if any planned goals\measures were excluded from the report.

E.   We compared the agency’s Fiscal Year 1999 performance plan and Fiscal Year 1999 performance report to determine if any planned goals\measures were changed in the report.

F.   If the agency excluded or changed any of its Fiscal Year 1999 planned goals\measures, indicate whether the agency adequately explained why it excluded or changed the goal\measure.

G.   We were not able to provide assurance regarding the validity and reliability of data because we have not assessed the adequacy of data collection, verification, and validation processes
     for each of the agency’s Fiscal Year 1999 performance goals\measures. However, we attempted to determine whether the agency’s verification and validation process as described in
     its performance plan and\or report could produce reliable data, assuming that there were adequate controls to ensure the integrity of the data throughout the process.

H.   In some instances an agency may have identified shortcomings or limitations in its data collection processes.

I.   Having identified shortcomings or limitations in its data collection processes, did the agency indicate what steps it would take to correct\overcome the problems. A Y response indicates
     that the agency has identified such steps or discontinued the performance goal\measure in its Fiscal Year 2001 performance plan. Responses to Column I should reconcile to the number
     of Y responses in Column H.




          OIG Report No. 00-I-533                                                                                                                                                  Page 51
NATIONAL PARK SERVICE

NPS organized its fiscal year 1999 and 2001 performance plans into four goal categories, each of
which had subsets of annual goals (32 in 1999 and 34 in 2001). The annual goals, in turn, had one
or more performance targets to measure accomplishments. These targets typically consisted of
units, such as number of square feet or number of sites, or percentages.

Fiscal Year 1999 Performance Plan and Report

NPS’s fiscal year 1999 performance plan provided an adequate basis for evaluating NPS’s
accomplishment of its mission. NPS had four goal categories: preserving park resources, providing
for public enjoyment and visitor experience of the parks, and strengthening and preserving natural
and cultural resources and enhancing recreational opportunities. The fourth goal category, ensuring
organizational effectiveness, contains program activities that support the accomplishment of the
three other goal categories, but it does not represent a core NPS program or mission in itself. For
example, by obtaining information (Goal IVa1. Data Systems), recruiting a diverse workforce
(Goal IVa4. Workforce Diversity), and increasing financial resources (Goals IVb2.: Donations and
Grants, IVb3: Concession Returns, and IVb4: Fee Receipts), NPS is better able to accomplish its
mission. Because the items in goal category 4 are important management functions, we suggest that
NPS and DMO consider including these goals in the Department’s performance plan as cross-
cutting program objectives for the management of the Department in areas such as information
resources, human resources, and financial resources.

Although the goal categories, in general, were appropriate, we believe that some long-term goals
could be eliminated and restated as strategies for accomplishing the goals. For example, the Ib
series of long-term goals (Natural Resource Inventories and Cultural Resource Baselines) are
activities that enable NPS to accomplish its Ia series of long-term goals (Disturbed Lands, Historic
Structures, Museum Collections, etc). We also suggest that NPS reconsider the inclusion of goals
Ia3, Air Quality, and Ia4, Water Quality, in its plan because the achievement of these goals largely
depends on conditions outside the control of NPS officials. Also, long-term goals IIIa3, User
Satisfaction, and IIIb2, Community Satisfaction, relate to the relationships that NPS maintains with
partners that promote NPS program objectives. While we recognize that NPS accomplishes its
mission through its affiliations with outside organizations, we believe that the satisfaction of the
public served by these affiliations and not the satisfaction of the affiliated parties is the program
objective.

Most performance targets for accomplishment of performance goals are appropriate and, in most
cases, NPS established a performance baseline that provided a reasonable approach to measuring
its accomplishments. We cannot comment on whether the baseline data are valid or whether the
performance targets (that is, the numbers, amount, or percentage of achievement) are appropriate
or should be greater or lesser amounts because, in general, NPS did not provide information on
why targets were set at specific levels.



OIG Report No. 00-I-533                                                                    Page 52
NPS’s 1999 plan provided overall but no detailed information on the methods that NPS planned
to use to validate data. In its 1999 report, NPS indicated that in some instances the data were
inconsistent or that NPS needed to further refine its baseline measures.

NPS was consistent in that the goal categories, long-term goals, and performance targets used in
its 1999 plan were included in the 1999 report. Detailed information on NPS’s 1999 plan and
report are provided in the Attachment.

Fiscal Year 2001 Performance Plan

In its 2001 Plan, NPS explained why it eliminated or revised 1999 goals. Of three long-term goals
reportedly revised, water quality (Ia4), workforce stewardship (1Va2), and construction and
maintenance backlog (IVa9), NPS revised two of the goals to provide a different measure or
baseline. The backlog goal was eliminated because the target objective had been achieved. Also,
the 2001 plan contained five new long-term goals: vital signs, geologic resources (Ia9 and Ib4),
aquatic resources, and environmental leadership. Although these goals support the accomplishment
of program objectives, we suggest that they be eliminated as goals and incorporated into the plan
as strategies or performance parameters.

Neither the 1999 plan nor the 2001 plan provided long-term goals for two core NPS programs:
providing sufficient, safe, and well-maintained park facilities and structures to meet park user needs
and providing sufficient, well-maintained, and reasonably priced recreational visitor services
(typically through concessions operations). Although these goals might be measured as part of
Goal IIa1, Visitor Satisfaction, we believe that they merit separate performance measures to enable
management to better monitor and evaluate these essential operations.

The 2001 plan generally provided detailed information on the data that would be used to measure
performance and in some cases described the methods used to validate the data. Although NPS
in most cases described the data collection process, it generally did not describe the controls that
would be implemented to ensure that the data were complete, representative, and accurate.




OIG Report No. 00-I-533                                                                     Page 53
National Park Service

                                  See notes at end of table:   A                                               B                                               C                                            D                                                E                                                   F                                              G                                   H                                                                 I




                                                                                                                                                                                              Fiscal Year 1999 performance plan goal excluded




                                                                                                                                                                                                                                                                                                                                                                                                                                                  Agency indicates what steps it will take to correct
                                                                                                                                                                                                                                                Fiscal Year 1999 performance plan goal changed



                                                                                                                                                                                                                                                                                                 performance plan goal was excluded or changed




                                                                                                                                                                                                                                                                                                                                                                                                  Agency acknowledges shortcomings in its data?
                                                                                                 describes a strategy to meet goal in the future?




                                                                                                                                                                                                                                                                                                 Adequate explanation of why Fiscal Year 1999




                                                                                                                                                                                                                                                                                                                                                 adequately described the data verification and
                                                                                                                                                    Goal relates to agency’s key management
                                                                                                 If not, report adequately explains why and




                                                                                                                                                                                                                                                                                                                                                 Agency’s performance plan and\or report
                                                               Fiscal Year 1999 goal achieved?




                                                                                                                                                                                                                                                                                                                                                                                                                                                  shortcomings in its data?
                                                                                                                                                                                                                                                                                                                                                 validation process?
GPRA PROGRAM ACTIVITY\M ISSION GOAL :




                                                                                                                                                                                              from report?
                                                                                                                                                    challenges?




                                                                                                                                                                                                                                                in report?



                                                                                                                                                                                                                                                                                                 in report?
FISCAL YEAR 1999 PERFORMANCE GOAL \M EASURE
    (EXCLUDES THE 1 MISSION GOAL, CONSISTING OF 3                                                                                                                                                                                                                                                                                                                                                                                                                                                       SELECTED COMMENTS ON AGENCY GOALS\ MEASURES AND
    ANNUAL GOALS\MEASURES REVIEWED BY THE GAO)                                                                                                                                                                                                                                                                                                                                                                                                                                                          VALIDATION METHODS

I. PRESERVE PARK RESOURCES: To conserve the scenery and the natural and historic objects and the wildlife therein.
1a1. Disturbed Lands\Exotic Species. (A) 4.5% of targeted                                                                                                                                                                                                                                                                                                                                                                                                                                               The Fiscal Year 2001performance plan contained some
lands are restored and (B) 4.1% of priority targeted                                                                                                                                                                                                                                                                                                                                                                                                                                                    widely fluctuating measures, and no explanation was given
disturbances are contained.                                    Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                   N                                                              -                                    for the fluctuations. For example, the percentage of
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        disturbed lands was 4.5% in Fiscal Year 1999, 16.8% in
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        Fiscal Year 2000, and 2% in Fiscal Year 2001.
1a2.Threatened and Endangered Species. 10% of 1997                                                                                                                                                                                                                                                                                                                                                                                                                                                      The Fiscal Year 2001 performance plan said that data on
populations have improved status and another 15% have          Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                   N                                                              -                                    the status of species were of "varying confidence levels."
stable populations.
1a3. Air Quality. 10% of Class I parks have improved or not                                                                                                                                                                                                                                                                                                                                                                                                                                             Measure may be park specific and NPS may be unable to
degraded air quality.                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   control the conditions that impact air quality (for example,
                                                               Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                   N                                                              -
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        industrial activity near parks that produces air-born
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        pollution); also true of water quality (below).
1a4. Water Quality. Reduce by 4% number of days park                                                                                                                                                                                                                                                                                                                                                                                                                                                    Measure was revised in Fiscal Year 2001because goal
recreational waters do not meet state water quality                                                                                                                                                                                                                                                                                                                                                                                                                                                     was "impractical" and "could not be measured." The Fiscal
                                                                N                                           Y                                                  N                                            N                                                N                                                     -                                            Y                                   N                                                              -
standards for swimming.                                                                                                                                                                                                                                                                                                                                                                                                                                                                                 Year 2001 Plan revised the goal to "unimpaired water
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        quality" at a number of the parks.
1a5. Historic Structures. 47.7% (11,051 of 23,167) of listed                                                                                                                                                                                                                                                                                                                                                                                                                                            NPS reduced the goal to 46% in its Fiscal Year 2001 Plan
structures are in good condition.                                                                                                                                                                                                                                                                                                                                                                                                                                                                       (the level of Fiscal Year 1999 accomplishment). NPS made
                                                                N                                           Y                                                Y                                              N                                                N                                                     -                                            Y                                 Y                                                           Y                                         "initial assessment" of cause for underachieving goal; "the
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        projection was overly ambitious" given the structures’
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        condition and NPS’s ability to improve the condition.




  Legend of responses: Y = Yes;           N = No     A Dash ( - ) = Not applicable or no response required based on response to prior question.


        OIG Report No. 00-I-533                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                              Page 54
National Park Service

                                  See notes at end of table:   A                                               B                                               C                                            D                                                E                                                   F                                              G                                   H                                                                 I




                                                                                                                                                                                              Fiscal Year 1999 performance plan goal excluded




                                                                                                                                                                                                                                                                                                                                                                                                                                                  Agency indicates what steps it will take to correct
                                                                                                                                                                                                                                                Fiscal Year 1999 performance plan goal changed



                                                                                                                                                                                                                                                                                                 performance plan goal was excluded or changed




                                                                                                                                                                                                                                                                                                                                                                                                  Agency acknowledges shortcomings in its data?
                                                                                                 describes a strategy to meet goal in the future?




                                                                                                                                                                                                                                                                                                 Adequate explanation of why Fiscal Year 1999




                                                                                                                                                                                                                                                                                                                                                 adequately described the data verification and
                                                                                                                                                    Goal relates to agency’s key management
                                                                                                 If not, report adequately explains why and




                                                                                                                                                                                                                                                                                                                                                 Agency’s performance plan and\or report
                                                               Fiscal Year 1999 goal achieved?




                                                                                                                                                                                                                                                                                                                                                                                                                                                  shortcomings in its data?
                                                                                                                                                                                                                                                                                                                                                 validation process?
GPRA PROGRAM ACTIVITY\M ISSION GOAL :




                                                                                                                                                                                              from report?
                                                                                                                                                    challenges?




                                                                                                                                                                                                                                                in report?



                                                                                                                                                                                                                                                                                                 in report?
FISCAL YEAR 1999 PERFORMANCE GOAL \M EASURE
    (EXCLUDES THE 1 MISSION GOAL, CONSISTING OF 3                                                                                                                                                                                                                                                                                                                                                                                                                                                       SELECTED COMMENTS ON AGENCY GOALS\ MEASURES AND
    ANNUAL GOALS\MEASURES REVIEWED BY THE GAO)                                                                                                                                                                                                                                                                                                                                                                                                                                                          VALIDATION METHODS

1a6. Museum Collections. Increase checklist standards met                                                                                                                                                                                                                                                                                                                                                                                                                                               "Actual" Fiscal Year 1999 accomplishment was 63.4%.
                                                               Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                   N                                                              -
to 64% from 62%.
1a7. Cultural Landscape. 33.9% of listed landscapes are in                                                                                                                                                                                                                                                                                                                                                                                                                                              NPS said that a "small fraction" of sites had condition
good condition.                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         assessments, which is the basis for determining restoration
                                                                N                                           Y                                                Y                                              N                                                N                                                     -                                            Y                                   N                                                              -
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        needs. Therefore, the reliability of information on the
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        accomplishment of this goal is questionable.
1a8. Archeological Sites. 47% of sites are in good                                                                                                                                                                                                                                                                                                                                                                                                                                                      NPS said that identification of additional sites needing
                                                                N                                           Y                                                Y                                              N                                                N                                                     -                                            Y                                 Y                                                           Y
condition.                                                                                                                                                                                                                                                                                                                                                                                                                                                                                              restoration adversely impacted accomplishment of goal.
1b1. Natural Resource Inventories. Acquire\develop 223 of                                                                                                                                                                                                                                                                                                                                                                                                                                               Both 1b goals relate to data collection that is needed to
2,287 data sets of natural resource inventories.                                                                                                                                                                                                                                                                                                                                                                                                                                                        accomplish 1a goals. We believe that these goals should be
                                                               Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                 Y                                                           Y
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        reported as strategies for accomplishing 1a goals and not
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        as separate performance parameters.
1b2. Cultural Resource Baselines. Add 4,000 structures,                                                                                                                                                                                                                                                                                                                                                                                                                                                 See above comment.
increase museum catalogued items, add landscape and
                                                               Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                   N                                                              -
archeological site information, and increase ethnographic
resource inventory by 50 items.
III. Natural and Cultural Resources Are Conserved Through Formal Partnership Programs.
IIIa1. Properties Designated. Increase by 6% over 1997
                                                               Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                   N                                                              -
levels; historical\archeological properties protected.
IIIa2. Properties Protected. Increase by 10% over 1997 level                                                                                                                                                                                                                                                                                                                                                                                                                                            Goal exceeded. 29% increase over 1997 level.
                                                               Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                   N                                                              -
the number of protected historic\archeological properties.
IIIa3. User Satisfaction. Increase by 10% user satisfaction                                                                                                                                                                                                                                                                                                                                                                                                                                             Appropriateness of goal questioned because it does not
with NPS technical assistance.                                                                                                                                                                                                                                                                                                                                                                                                                                                                          represent a measure of NPS’s accomplishment of its
                                                                N                                           Y                                                  N                                            N                                                N                                                     -                                            Y                                 Y                                                           Y                                         program objectives. NPS said that the goal was not met
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        because "survey size was inadequate" and therefore may
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        not have provided accurate information.


        OIG Report No. 00-I-533                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                            Page 55
National Park Service

                                    See notes at end of table:   A                                               B                                               C                                            D                                                E                                                   F                                              G                                   H                                                                 I




                                                                                                                                                                                                Fiscal Year 1999 performance plan goal excluded




                                                                                                                                                                                                                                                                                                                                                                                                                                                    Agency indicates what steps it will take to correct
                                                                                                                                                                                                                                                  Fiscal Year 1999 performance plan goal changed



                                                                                                                                                                                                                                                                                                   performance plan goal was excluded or changed




                                                                                                                                                                                                                                                                                                                                                                                                    Agency acknowledges shortcomings in its data?
                                                                                                   describes a strategy to meet goal in the future?




                                                                                                                                                                                                                                                                                                   Adequate explanation of why Fiscal Year 1999




                                                                                                                                                                                                                                                                                                                                                   adequately described the data verification and
                                                                                                                                                      Goal relates to agency’s key management
                                                                                                   If not, report adequately explains why and




                                                                                                                                                                                                                                                                                                                                                   Agency’s performance plan and\or report
                                                                 Fiscal Year 1999 goal achieved?




                                                                                                                                                                                                                                                                                                                                                                                                                                                    shortcomings in its data?
                                                                                                                                                                                                                                                                                                                                                   validation process?
GPRA PROGRAM ACTIVITY\M ISSION GOAL :




                                                                                                                                                                                                from report?
                                                                                                                                                      challenges?




                                                                                                                                                                                                                                                  in report?



                                                                                                                                                                                                                                                                                                   in report?
FISCAL YEAR 1999 PERFORMANCE GOAL \M EASURE
    (EXCLUDES THE 1 MISSION GOAL, CONSISTING OF 3                                                                                                                                                                                                                                                                                                                                                                                                                                                         SELECTED COMMENTS ON AGENCY GOALS\ MEASURES AND
    ANNUAL GOALS\MEASURES REVIEWED BY THE GAO)                                                                                                                                                                                                                                                                                                                                                                                                                                                            VALIDATION METHODS

IIIb1. Conservation Assistance. Add 920 miles of trails,                                                                                                                                                                                                                                                                                                                                                                                                                                                  Goal exceeded.
                                                                 Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                   N                                                              -
1,340 miles of river corridor, and 40,700 acres of space.
IIIb2. Community Satisfaction. 75% of partners are satisfied                                                                                                                                                                                                                                                                                                                                                                                                                                              See comments on IIIa3 concerning appropriateness of goal.
                                                                 Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                   N                                                              -
with NPS assistance.
IIIc1. Recreational Properties. No net loss in recreational                                                                                                                                                                                                                                                                                                                                                                                                                                               NPS said it is "unable to comprehensively inspect and
properties under LWCF, UPAR, and FLPP.                                                                                                                                                                                                                                                                                                                                                                                                                                                                    certify that funded areas continue to be open, accessible
                                                                 Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                   N                                                              -
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          and functional to the recreating public." The reliability of
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          NPS’s having accomplished this goal is questionable.
IV. ENSURE ORGANIZATIONAL EFFECTIVENESS: To improve organizational responsiveness, efficiency, and accountability.
IVa1. Data Systems. 5% of major data systems are                                                                                                                                                                                                                                                                                                                                                                                                                                                          The appropriateness of this goal, as well as the other items
integrated\interfaced.                                                                                                                                                                                                                                                                                                                                                                                                                                                                                    in Goal IV, is questioned because they do not relate to NPS
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          program objectives but rather to the manner in which the
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          objectives are accomplished or the resources used to
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          accomplish the goals. We suggest that these goals either
                                                                 Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                   N                                                              -
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          be incorporated in a DMO performance plan under
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          functional areas such as information resources, human
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          resources, or return on Government investments or that
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          they be incorporated in NPS’s performance plan as
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          strategies for accomplishing Goals I through III.
IVa2. Employee Competencies. 40% of employees have                                                                                                                                                                                                                                                                                                                                                                                                                                                        Goal replaced with IVa2, Workplace Stewardship.
essential competencies.                                          Y                                                 -                                             N                                            N                                              Y                                                     N                                              Y                                   N                                                              -                                    Employee job satisfaction. No baseline data. Competency
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          now incorporated in IVa3.
IVa3. Employee Performance. 100% of                                                                                                                                                                                                                                                                                                                                                                                                                                                                       IVa2 competency incorporated in revised goal, Workforce
managers\supervisors have standards linked to strategic          Y                                                 -                                             N                                            N                                              Y                                                     N                                              Y                                   N                                                              -                                    Development and Performance.
and annual goals.




         OIG Report No. 00-I-533                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               Page 56
National Park Service

                                    See notes at end of table:   A                                               B                                               C                                            D                                                E                                                   F                                              G                                   H                                                                 I




                                                                                                                                                                                                Fiscal Year 1999 performance plan goal excluded




                                                                                                                                                                                                                                                                                                                                                                                                                                                    Agency indicates what steps it will take to correct
                                                                                                                                                                                                                                                  Fiscal Year 1999 performance plan goal changed



                                                                                                                                                                                                                                                                                                   performance plan goal was excluded or changed




                                                                                                                                                                                                                                                                                                                                                                                                    Agency acknowledges shortcomings in its data?
                                                                                                   describes a strategy to meet goal in the future?




                                                                                                                                                                                                                                                                                                   Adequate explanation of why Fiscal Year 1999




                                                                                                                                                                                                                                                                                                                                                   adequately described the data verification and
                                                                                                                                                      Goal relates to agency’s key management
                                                                                                   If not, report adequately explains why and




                                                                                                                                                                                                                                                                                                                                                   Agency’s performance plan and\or report
                                                                 Fiscal Year 1999 goal achieved?




                                                                                                                                                                                                                                                                                                                                                                                                                                                    shortcomings in its data?
                                                                                                                                                                                                                                                                                                                                                   validation process?
GPRA PROGRAM ACTIVITY\M ISSION GOAL :




                                                                                                                                                                                                from report?
                                                                                                                                                      challenges?




                                                                                                                                                                                                                                                  in report?



                                                                                                                                                                                                                                                                                                   in report?
FISCAL YEAR 1999 PERFORMANCE GOAL \M EASURE
    (EXCLUDES THE 1 MISSION GOAL, CONSISTING OF 3                                                                                                                                                                                                                                                                                                                                                                                                                                                         SELECTED COMMENTS ON AGENCY GOALS\ MEASURES AND
    ANNUAL GOALS\MEASURES REVIEWED BY THE GAO)                                                                                                                                                                                                                                                                                                                                                                                                                                                            VALIDATION METHODS

IVa4. Workforce Diversity. Increase underrepresented                                                                                                                                                                                                                                                                                                                                                                                                                                                      NPS plans to revise its Diversity Action Plan to provide new
                                                                  N                                              N                                               N                                            N                                                N                                                     -                                            Y                                   N                                                              -
groups by 5%.                                                                                                                                                                                                                                                                                                                                                                                                                                                                                             strategies for achieving goal.
IVa5. Employee Housing. 15% of units in poor\fair condition                                                                                                                                                                                                                                                                                                                                                                                                                                               NPS said that Congress froze funding for housing
have been removed, replaced, or upgraded.                         N                                           Y                                                Y                                              N                                                N                                                     -                                            Y                                   N                                                              -                                    rehabilitation and that it was negotiating with Congress
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          "regarding NPS housing policy."
IVa6. Employee Safety. Reduce by 20% employee lost-time                                                                                                                                                                                                                                                                                                                                                                                                                                                   NPS met 2 of 3 1999 performance measures for this goal.
injury rate; reduce by 20% new workers’ compensation             Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                   N                                                              -
cases.
IVa7. Construction Projects. 90% of projects meet 90% of                                                                                                                                                                                                                                                                                                                                                                                                                                                  Goal replaced with line-item construction, which is
cost; schedule goals and 100% of project goals for each          Y                                                 -                                             N                                            N                                              Y                                                    Y                                               Y                                   N                                                              -                                    comparable to 1999 goal. NPS indicated that goal was
project agreement.                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        replaced to update baseline.
IVa8. Land Acquisition. Reduce by 2% time between                                                                                                                                                                                                                                                                                                                                                                                                                                                         NPS said that external factors impact timeliness of
appropriation and offer.                                                                                                                                                                                                                                                                                                                                                                                                                                                                                  purchasing land. This goal does not provide performance
                                                                  N                                           Y                                                  N                                            N                                                N                                                     -                                            Y                                   N                                                              -
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          data on whether NPS acquired appropriate and needed land
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          at reasonable costs.
IVa9. Construction and Maintenance Backlog. High priority                                                                                                                                                                                                                                                                                                                                                                                                                                                 Goal was deleted because priority ranking and funding
projects totaling $500 million listed, and funds allocated for                                                                                                                                                                                                                                                                                                                                                                                                                                            were accomplished. The goal does not measure
                                                                 Y                                                 -                                           Y                                              N                                              Y                                                    Y                                               Y                                   N                                                              -
20% of these projects.                                                                                                                                                                                                                                                                                                                                                                                                                                                                                    performance in accomplishing a reduction in high-priority
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          maintenance backlog projects.
IVb1. Volunteer Hours. Increase hours by 4% over 1997                                                                                                                                                                                                                                                                                                                                                                                                                                                     Actual accomplishment was marginally less than the goal.
                                                                 Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                   N                                                              -
levels.
IVb2. Donations and Grants. Increase donated dollars and                                                                                                                                                                                                                                                                                                                                                                                                                                                  NPS said that information on the measures "appear to be
in-kind services by 4% over 1997 levels.                          N                                              N                                               N                                            N                                                N                                                     -                                            Y                                 Y                                                           Y                                         inconsistent" and did not fully report on 1999
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          accomplishments.




         OIG Report No. 00-I-533                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                              Page 57
National Park Service

                                  See notes at end of table:    A                                               B                                               C                                            D                                                E                                                   F                                              G                                    H                                                                 I




                                                                                                                                                                                               Fiscal Year 1999 performance plan goal excluded




                                                                                                                                                                                                                                                                                                                                                                                                                                                    Agency indicates what steps it will take to correct
                                                                                                                                                                                                                                                 Fiscal Year 1999 performance plan goal changed



                                                                                                                                                                                                                                                                                                  performance plan goal was excluded or changed




                                                                                                                                                                                                                                                                                                                                                                                                    Agency acknowledges shortcomings in its data?
                                                                                                  describes a strategy to meet goal in the future?




                                                                                                                                                                                                                                                                                                  Adequate explanation of why Fiscal Year 1999




                                                                                                                                                                                                                                                                                                                                                  adequately described the data verification and
                                                                                                                                                     Goal relates to agency’s key management
                                                                                                  If not, report adequately explains why and




                                                                                                                                                                                                                                                                                                                                                  Agency’s performance plan and\or report
                                                                Fiscal Year 1999 goal achieved?




                                                                                                                                                                                                                                                                                                                                                                                                                                                    shortcomings in its data?
                                                                                                                                                                                                                                                                                                                                                  validation process?
GPRA PROGRAM ACTIVITY\M ISSION GOAL :




                                                                                                                                                                                               from report?
                                                                                                                                                     challenges?




                                                                                                                                                                                                                                                 in report?



                                                                                                                                                                                                                                                                                                  in report?
FISCAL YEAR 1999 PERFORMANCE GOAL \M EASURE
    (EXCLUDES THE 1 MISSION GOAL, CONSISTING OF 3                                                                                                                                                                                                                                                                                                                                                                                                                                                         SELECTED COMMENTS ON AGENCY GOALS\ MEASURES AND
    ANNUAL GOALS\MEASURES REVIEWED BY THE GAO)                                                                                                                                                                                                                                                                                                                                                                                                                                                            VALIDATION METHODS

IVb3. Concession Returns. Increase average return to at                                                                                                                                                                                                                                                                                                                                                                                                                                                   NPS attributed the .9% shortfall in return to new
least 8% of gross revenue.                                       N                                           Y                                                  N                                            N                                                N                                                     -                                            Y                                    N                                                              -                                    concessions legislation and the related moratorium on
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          concession contracting.
IVb4. Fee Receipts. Increase fees by 14% over 1997
                                                                Y                                                 -                                           Y                                              N                                                N                                                     -                                            Y                                    N                                                              -
levels.

                                                               19 Y                                8Y                                                6Y                                                                                           4Y                                                      2Y                                                                                       5Y
                                                                                                                                                                                               29 N                                                                                                                                                  29 Y                                                                                            5Y
Total Goals: 29
                                                               10 N                                2N                                                23 N                                                                                        25 N                                                     2N                                                                                       24 N




NOTES:

A.   The agencies generally reported whether or not the performance goal\measure was met for Fiscal Year 1999. However, in some instance the agency reported that for the performance
     goal\measure it did not have the data or was unable to collect the data met for the specific measure. In these instances, we recorded a No response for the performance goal\measure
     because it was not achieved. When necessary, a specific comment was included in the comment section.

B.   A response is only required for this question if the response in Column A was ‘N’. Responses to Column B should reconcile to the number of N responses in Column A.




         OIG Report No. 00-I-533                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                            Page 58
National Park Service

C.   On December 1, 1998, the Office of Inspector General provided the Congress a current assessment of the 10 key management challenges within the Department of the Interior. The table
     below shows each challenge and the Departmental agency it applies to.

                      10 Key Management Challenges                              DMO      BIA     BLM     BOR      MMS      NPS      OIA     OSM      FWS      USGS
                      1. Management of Indian Trust Funds *
                      2. Maintenance                                              x       x       x                          x                        x
                      3. National Park Service Housing                                                                       x
                      4. Financial Management                                     x       x                                          x
                      5. Waste Management                                         x       x       x        x                 x                        x
                      6. Revenue Collections                                      x       x       x        x        x        x               x        x         x
                      7. Inspection and Enforcement of Fluid Minerals                             x
                      8. Range Monitoring                                                         x
                      9. Land Exchanges                                                           x
                      10. Year 2000 Readiness                                     x


                      *The Office of the Special Trustee for American Indians is responsible for the "Management of Indian Trust Funds." OST did not prepare a
                      performance plan for Fiscal Year 1999 or produce a performance report. OST is in the process of implementing a Trust Management
                      Improvement Project and is under a Court Order to produce a quarterly report of its progress on the High Level Implementation Plan.

D.   We compared the agency’s Fiscal Year 1999 performance plan and Fiscal Year 1999 performance report to determine if any planned goals\measures were excluded from the report.

E.   We compared the agency’s Fiscal Year 1999 performance plan and Fiscal Year 1999 performance report to determine if any planned goals\measures were changed in the report.

F.   If the agency excluded or changed any of its Fiscal Year 1999 planned goals\measures, indicate whether the agency adequately explained why it excluded or changed the goal\measure.

G.   We were not able to provide assurance regarding the validity and reliability of data because we have not assessed the adequacy of data collection, verification, and validation processes
     for each of the agency’s Fiscal Year 1999 performance goals\measures. However, we attempted to determine whether the agency’s verification and validation process as described in
     its performance plan and\or report could produce reliable data, assuming that there were adequate controls to ensure the integrity of the data throughout the process.

H.   In some instances an agency may have identified shortcomings or limitations in its data collection processes. The Park Service’s Fiscal Year 1999 performance report does not discuss
     data shortcomings; however, the Fiscal Year 2001 performance plan does describe data limitations, particularly the need to develop baseline data.

I.   Having identified shortcomings or limitations in its data collection processes, did the agency indicate what steps it would take to correct\overcome the problems. A Y response indicates
     that the agency has identified such steps or discontinued the performance goal\measure in its Fiscal Year 2001 performance plan. Responses to Column I should reconcile to the number
     of Y responses in Column H.




          OIG Report No. 00-I-533                                                                                                                                                  Page 59
OFFICE OF INSULAR AFFAIRS

The Office of Insular Affairs (OIA) fiscal year 1999 performance plan included four goal
categories: improve infrastructure, improve governmental systems and services, improve
governmental relations, and manage special problems. There were 6 long-term and 13 annual
performance goals. The fiscal year 2001 performance plan included three goal categories: improve
infrastructure, improve governmental systems and services, and improve governmental relations.
For 2001, OIA had five long-term and five annual goals.

Fiscal Year 1999 Performance Plan and Report

Of the 13 annual performance goals in OIA’s 1999 performance plan, 9 related directly to the
management challenge "Financial Management" for the insular area governments. However, only
11 of the 13 annual performance goals were reported in OIA’s fiscal year 1999 performance
report. OIA did not report on the two performance goals associated with the goal category
"manage special problems." We believe that these two performance goals did not relate to OIA’s
overall mission to assist the islands in developing more efficient and effective government by
providing financial and technical assistance and to serve as a focal point for the management of
Federal-island relations by developing and promoting appropriate Federal policies. One goal
related to the implementation of the second year of the brown tree snake program and the other
related to the implementation of the fifth year of an interagency effort to address labor, immigration,
and law enforcement problems in the Commonwealth of the Northern Mariana Islands.

According to its fiscal year 1999 performance report, OIA did not achieve any of the reported 11
fiscal year 1999 performance goals and measures and OIA provided valid and reliable data to
judge performance for only two goals. These goals related to the establishment of multi-year
capital plans and to the completion of financial improvement plans for each of the insular area
governments. For the goal related to improving governmental relations, OIA discussed the method
for validation and verification and stated that the method required a quantifiable survey of the insular
area governments. OIA, however, conducted no survey to validate fiscal year 1999 data. OIA
also did not meet the goal that all insular area governments complete audited financial statements
and provided no discussion of its planned method of validating performance in this area. The
remaining seven performance goals and measures were discontinued and no information was
provided on the validity and reliability of the related data. OIA stated that it discontinued these
seven performance goals and measures largely because it had no control over the outcomes,
which were dependent on the insular area governments.

OIA discontinued the fiscal year 1999 goal that insular governments will achieve institutional
changes 10 percent above the 1998 baseline report cards, consistent with "operations and
maintenance improvement action plans" because of the high cost of data collection, which was done
by an independent contractor. OIA stated that some improvement in institutional changes in 1999
over 1998 were achieved, but not at the stated 10 percent level. While we agree with the rationale
for discontinuing this specific goal, we believe that some concrete method of measuring the


OIG Report No. 00-I-533                                                                       Page 60
"outcome" of achieving the overall program activity -- "Improving Infrastructure" -- should be
developed. Audit history has shown that the insular area governments have a relatively poor record
of improving infrastructure on a sustained and long-term basis, despite OIA grants for capital
infrastructure improvements. The existence of capital plans and the completion of grant projects
do not necessarily signify that infrastructure improvements have been achieved.

The discontinued fiscal year 1999 goal that OIA would work with each insular area government
to identify priorities and develop and implement long-term plans to improve expertise, operating
efficiency, and institutional capacity in health care, education, public safety, economic development
and statistical data was dropped because OIA had no control over the accomplishment of this goal.
OIA said that technical assistance efforts would be continued to assist the insular area governments
to make meaningful changes in these areas. While we agree with the rationale for discontinuing this
specific goal, we believe that some concrete method of measuring the "outcome" of achieving the
overall program activity -- "Improving Government Systems and Services" -- should be developed.
Audit history has shown that the insular area governments have a very poor record of improving
overall financial management systems and the delivery of basic government services on a sustained
and long-term basis, despite OIA grants for financial management improvements and other
technical assistance. The existence of financial management improvement plans and the completion
of technical assistance grant projects do not necessarily signify that government systems and
services have been improved.

Fiscal Year 2001 Annual Performance Plan

OIA decreased to five the number of performance goals and measures in its fiscal year
2001 performance plan because of the long-term perspective of OIA’s technical assistance
activities. OIA explained that it had decided "to focus on those goals and objectives that
are achievable by OIA in the short term, are less dependent on the insular governments,
and are less affected by external factors." OIA stated that this revision would result in a
more "output"-focused approach rather than "outcomes" approach.

OIA’s fiscal year 2001 performance plan includes two goals related to improving
infrastructure. The first relates to completion of multi-year capital plans for each insular
area government. While this is a valid goal and the performance measure would be simple
to validate, the performance measure should require that at least one additional capital plan is
"implemented" not "completed"because completion of a plan does not necessarily mean that it has
been or will be implemented. The second goal is to increase grant productivity by increasing
the ratio of projects completed to projects started and reducing the average completion time of
projects. While this is a valid goal and the performance measures would be simple to validate, a
better measure might be to determine and quantify the extent to which individual grant projects
achieved their original stated purposes\goals, rather than determining whether the grants were
completed in a timely manner.

OIA’s fiscal year 2001 performance plan includes two goals related to improving
government systems and services. The original fiscal year 1999 goal, which was to have


OIG Report No. 00-I-533                                                                    Page 61
financial management improvement plans completed for each of the seven insular area governments,
was not met because financial and time constraints prevented timely completion of the plans. OIA
revised this goal, stating that all financial improvement plans would be completed by fiscal year
2005. While this is a valid goal and the performance measure would be simple to validate, the
performance measure should require that at least one additional financial improvement plan is
"implemented" not "completed" because completion of a plan does not necessarily mean that it has
been or will be implemented. The second goal was to increase grant productivity by increasing
the ratio of projects completed to projects started and reducing the average completion time of
projects. While this is a valid goal and the performance measures would be simple to
validate, a better measure might be to determine and quantify the extent to which individual
grant projects achieved their original stated purposes\goals, rather than simply determining
whether grants were completed and the timeframes in which they were completed.




OIG Report No. 00-I-533                                                                 Page 62
Office of Insular Affairs

                                    See notes at end of table:   A                                               B                                               C                                            D                                                E                                                   F                                              G                                   H                                                                 I




                                                                                                                                                                                                Fiscal Year 1999 performance plan goal excluded




                                                                                                                                                                                                                                                                                                                                                                                                                                                    Agency indicates what steps it will take to correct
                                                                                                                                                                                                                                                  Fiscal Year 1999 performance plan goal changed



                                                                                                                                                                                                                                                                                                   performance plan goal was excluded or changed




                                                                                                                                                                                                                                                                                                                                                                                                    Agency acknowledges shortcomings in its data?
                                                                                                   describes a strategy to meet goal in the future?




                                                                                                                                                                                                                                                                                                   Adequate explanation of why Fiscal Year 1999




                                                                                                                                                                                                                                                                                                                                                   adequately described the data verification and
                                                                                                                                                      Goal relates to agency’s key management
                                                                                                   If not, report adequately explains why and




                                                                                                                                                                                                                                                                                                                                                   Agency’s performance plan and\or report
                                                                 Fiscal Year 1999 goal achieved?




                                                                                                                                                                                                                                                                                                                                                                                                                                                    shortcomings in its data?
GPRA M ISSION GOALS: (1) ASSIST THE ISLANDS IN
DEVELOPING MORE EFFICIENT AND EFFECTIVE GOVERNMENT




                                                                                                                                                                                                                                                                                                                                                   validation process?
BY PROVIDING FINANCIAL AND TECHNICAL ASSISTANCE, AND
(2) SERVE AS A FOCAL POINT FOR THE MANAGEMENT OF




                                                                                                                                                                                                from report?
                                                                                                                                                      challenges?
FEDERAL - ISLAND RELATIONS BY DEVELOPING AND




                                                                                                                                                                                                                                                  in report?



                                                                                                                                                                                                                                                                                                   in report?
PROMOTING APPROPRIATE FEDERAL POLICIES.
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          SELECTED COMMENTS ON AGENCY GOALS\M EASURES AND
FISCAL YEAR 1999 PERFORMANCE GOAL \M EASURE                                                                                                                                                                                                                                                                                                                                                                                                                                                               VALIDATION METHODS

Program Activity 1: Improve Infrastructure
1.1.1. Multi-year capital plans will be completed for four of                                                                                                  Y                                                                                                                                                                                                                                                                                                                                          Fiscal Year 2001 performance plan indicates goal has been
ten insular governments with funding identified for at least      N                                           Y                                                                                               N                                                N                                                     -                                            Y                                 Y                                                           Y                                         modified to assume more realistic goal of one plan per year,
75 percent of listed projects.                                                                                                                             #4                                                                                                                                                                                                                                                                                                                                             with all plans completed by 2005.
1.1.2. Insular governments will improve maintenance                                                                                                                                                                                                                                                                                                                                                                                                                                                       Goal was discontinued in Fiscal Year 2000.
practices above the 1998 baseline report cards, consistent
                                                                  N                                           Y                                                  N                                            N                                                N                                                     -                                             N                                Y                                                           Y
with “operations and maintenance improvement program”
action plans.
Program Activity 2: Improve Governmental Systems and Services
2.1.1. Financial improvement plans will be completed for                                                                                                                                                                                                                                                                                                                                                                                                                                                  Fiscal Year 2001 performance plan indicates goal has been
                                                                                                                                                               Y
each of seven insular governments.                                                                                                                                                                                                                                                                                                                                                                                                                                                                        modified to reflect a more realistic expectation of plan
                                                                  N                                           Y                                                                                               N                                                N                                                     -                                            Y                                 Y                                                           Y
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          development of one plan per year, with all plans completed
                                                                                                                                                           #4
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          by 2005.
2.1.2. Seventy percent of planned objectives will be on                                                                                                    Y                                                                                                                                                                                                                                                                                                                                              Goal was discontinued in Fiscal Year 2000.
                                                                  N                                           Y                                                                                               N                                                N                                                     -                                             N                                Y                                                           Y
schedule.                                                                                                                                                  #4
2.1.3. All seven insular governments will complete audited                                                                                                     Y                                                                                                                                                                                                                                                                                                                                          Goal was discontinued in Fiscal Year 2000.
financial statements within 12 months of the close of the         N                                           Y                                                                                               N                                                N                                                     -                                             N                                Y                                                           Y
year.                                                                                                                                                      #4
2.1.4. The total number of insular financial management                                                                                                                                                                                                                                                                                                                                                                                                                                                   Goal was discontinued in Fiscal Year 2000.
                                                                                                                                                               Y
employees trained and achieving certified status will be
                                                                  N                                           Y                                                                                               N                                                N                                                     -                                             N                                Y                                                           Y
increased by at least
                                                                                                                                                           #4
10 percent over the 1998 baseline.




   Legend of responses: Y = Yes;            N = No     A Dash ( - ) = Not applicable or no response required based on response to prior question.


         OIG Report No. 00-I-533                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                             Page 63
Office of Insular Affairs

                                   See notes at end of table:   A                                               B                                               C                                            D                                                E                                                   F                                              G                                   H                                                                 I




                                                                                                                                                                                               Fiscal Year 1999 performance plan goal excluded




                                                                                                                                                                                                                                                                                                                                                                                                                                                   Agency indicates what steps it will take to correct
                                                                                                                                                                                                                                                 Fiscal Year 1999 performance plan goal changed



                                                                                                                                                                                                                                                                                                  performance plan goal was excluded or changed




                                                                                                                                                                                                                                                                                                                                                                                                   Agency acknowledges shortcomings in its data?
                                                                                                  describes a strategy to meet goal in the future?




                                                                                                                                                                                                                                                                                                  Adequate explanation of why Fiscal Year 1999




                                                                                                                                                                                                                                                                                                                                                  adequately described the data verification and
                                                                                                                                                     Goal relates to agency’s key management
                                                                                                  If not, report adequately explains why and




                                                                                                                                                                                                                                                                                                                                                  Agency’s performance plan and\or report
                                                                Fiscal Year 1999 goal achieved?




                                                                                                                                                                                                                                                                                                                                                                                                                                                   shortcomings in its data?
GPRA M ISSION GOALS: (1) ASSIST THE ISLANDS IN
DEVELOPING MORE EFFICIENT AND EFFECTIVE GOVERNMENT




                                                                                                                                                                                                                                                                                                                                                  validation process?
BY PROVIDING FINANCIAL AND TECHNICAL ASSISTANCE, AND
(2) SERVE AS A FOCAL POINT FOR THE MANAGEMENT OF




                                                                                                                                                                                               from report?
                                                                                                                                                     challenges?
FEDERAL - ISLAND RELATIONS BY DEVELOPING AND




                                                                                                                                                                                                                                                 in report?



                                                                                                                                                                                                                                                                                                  in report?
PROMOTING APPROPRIATE FEDERAL POLICIES.
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         SELECTED COMMENTS ON AGENCY GOALS\M EASURES AND
FISCAL YEAR 1999 PERFORMANCE GOAL \M EASURE                                                                                                                                                                                                                                                                                                                                                                                                                                                              VALIDATION METHODS

2.2.1. At least 70 percent of planned objectives will be met                                                                                              Y                                                                                                                                                                                                                                                                                                                                              Goal was discontinued in Fiscal Year 2000.
                                                                 N                                           Y                                                                                               N                                                N                                                     -                                             N                                Y                                                           Y
on schedule.                                                                                                                                              #4
2.2.2. Performance will be improved over baseline data in all                                                                                             Y                                                                                                                                                                                                                                                                                                                                              Goal was discontinued in Fiscal Year 2000.
                                                                 N                                           Y                                                                                               N                                                N                                                     -                                             N                                Y                                                           Y
priority areas identified in 1998.                                                                                                                        #4
2.3.1. Assist in implementation of financial recovery plans                                                                                                   Y                                                                                                                                                                                                                                                                                                                                          Goal was discontinued in Fiscal Year 2000.
for the Virgin Islands and American Samoa, and achieve           N                                           Y                                                                                               N                                                N                                                     -                                             N                                Y                                                           Y
improved financial positions over baseline.                                                                                                               #4
2.3.2. Assist in implementation of financial recovery efforts                                                                                                                                                                                                                                                                                                                                                                                                                                            Goal was discontinued in Fiscal Year 2000.
for the Republic of the Marshall Islands and the Federated                                                                                                    Y
States of Micronesia that were developed in conjunction          N                                           Y                                                                                               N                                                N                                                     -                                             N                                Y                                                           Y
with the Asian Development Bank, and achieve improved                                                                                                     #4
financial positions over 1998 baseline.
Program Activity 3: Improve Governmental Relations
3.1.1. Increase insular governments’ satisfaction regarding
communications with the Federal Government over                  N                                           Y                                                  N                                            N                                                N                                                     -                                            Y                                 Y                                                           Y
customer survey baselines established in 1998.
Program Activity 4: Manage Special Problems
4.1.1. Implement second year of 5-year brown tree snake                                                                                                                                                                                                                                                                                                                                                                                                                                                  No discussion of goal in Fiscal Year 1999 performance
                                                                     -                                            -                                               -                                       Y                                                      -                                                N                                                 -                                     -                                                         -
control program.                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         report.
4.1.2. Implement fifth year of multi-year interagency and                                                                                                                                                                                                                                                                                                                                                                                                                                                No discussion of goal in Fiscal Year 1999 performance
intergovernmental effort to address labor, immigration and                                                                                                                                                                                                                                                                                                                                                                                                                                               report.
                                                                     -                                            -                                               -                                       Y                                                      -                                                N                                                 -                                     -                                                         -
law enforcement problems in the Commonwealth of the
Northern Mariana Islands.




         OIG Report No. 00-I-533                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          Page 64
Office of Insular Affairs

                                  See notes at end of table:   A                                                B                                               C                                            D                                                E                                                   F                                              G                                    H                                                                 I




                                                                                                                                                                                               Fiscal Year 1999 performance plan goal excluded




                                                                                                                                                                                                                                                                                                                                                                                                                                                    Agency indicates what steps it will take to correct
                                                                                                                                                                                                                                                 Fiscal Year 1999 performance plan goal changed



                                                                                                                                                                                                                                                                                                  performance plan goal was excluded or changed




                                                                                                                                                                                                                                                                                                                                                                                                    Agency acknowledges shortcomings in its data?
                                                                                                  describes a strategy to meet goal in the future?




                                                                                                                                                                                                                                                                                                  Adequate explanation of why Fiscal Year 1999




                                                                                                                                                                                                                                                                                                                                                  adequately described the data verification and
                                                                                                                                                     Goal relates to agency’s key management
                                                                                                  If not, report adequately explains why and




                                                                                                                                                                                                                                                                                                                                                  Agency’s performance plan and\or report
                                                                Fiscal Year 1999 goal achieved?




                                                                                                                                                                                                                                                                                                                                                                                                                                                    shortcomings in its data?
GPRA M ISSION GOALS: (1) ASSIST THE ISLANDS IN
DEVELOPING MORE EFFICIENT AND EFFECTIVE GOVERNMENT




                                                                                                                                                                                                                                                                                                                                                  validation process?
BY PROVIDING FINANCIAL AND TECHNICAL ASSISTANCE, AND
(2) SERVE AS A FOCAL POINT FOR THE MANAGEMENT OF




                                                                                                                                                                                               from report?
                                                                                                                                                     challenges?
FEDERAL - ISLAND RELATIONS BY DEVELOPING AND




                                                                                                                                                                                                                                                 in report?



                                                                                                                                                                                                                                                                                                  in report?
PROMOTING APPROPRIATE FEDERAL POLICIES.
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          SELECTED COMMENTS ON AGENCY GOALS\M EASURES AND
FISCAL YEAR 1999 PERFORMANCE GOAL \M EASURE                                                                                                                                                                                                                                                                                                                                                                                                                                                               VALIDATION METHODS


                                                                                                                                                     9Y                                           2Y                                                                                                                                                        3Y
Total Goals: 11                                                11N                                11Y                                                                                                                                            11N                                                           2N                                                                                  11Y                                              11Y
                                                                                                                                                          2N                                   11N                                                                                                                                                            8N




NOTES:

A.   The agencies generally reported whether or not the performance goal\measure was met for Fiscal Year 1999. However, in some instance the agency reported that for the performance
     goal\measure it did not have the data or was unable to collect the data met for the specific measure. In these instances, we recorded a No response for the performance goal\measure
     because it was not achieved. When necessary, a specific comment was included in the comment section.

B.   A response is only required for this question if the response in Column A was ‘N’. Responses to Column B should reconcile to the number of N responses in Column A.




         OIG Report No. 00-I-533                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   Page 65
Office of Insular Affairs

C.   On December 1, 1998, the Office of Inspector General provided the Congress a current assessment of the 10 key management challenges within the Department of the Interior. The table
     below shows each challenge and the Departmental agency it applies to.

                      10 Key Management Challenges                               DMO      BIA     BLM     BOR        MMS    NPS     OIA      OSM      FWS     USGS
                      1. Management of Indian Trust Funds *
                      2. Maintenance                                               x       x       x                          x                        x
                      3. National Park Service Housing                                                                        x
                      4. Financial Management                                      x       x                                          x
                      5. Waste Management                                          x       x       x        x                 x                        x
                      6. Revenue Collections                                       x       x       x        x         x       x               x        x         x
                      7. Inspection and Enforcement of Fluid Minerals                              x
                      8. Range Monitoring                                                          x
                      9. Land Exchanges                                                            x
                      10. Year 2000 Readiness                                      x


                      *The Office of the Special Trustee for American Indians is responsible for the "Management of Indian Trust Funds." OST did not prepare a
                      performance plan for Fiscal Year 1999 or produce a performance report. OST is in the process of implementing a Trust Management
                      Improvement Project and is under a Court Order to produce a quarterly report of its progress on the High Level Implementation Plan.

D.   We compared the agency’s Fiscal Year 1999 performance plan and Fiscal Year 1999 performance report to determine if any planned goals\measures were excluded from the report.

E.   We compared the agency’s Fiscal Year 1999 performance plan and Fiscal Year 1999 performance report to determine if any planned goals\measures were changed in the report.

F.   If the agency excluded or changed any of its Fiscal Year 1999 planned goals\measures, indicate whether the agency adequately explained why it excluded or changed the goal\measure.

G.   We were not able to provide assurance regarding the validity and reliability of data because we have not assessed the adequacy of data collection, verification, and validation processes
     for each of the agency’s Fiscal Year 1999 performance goals\measures. However, we attempted to determine whether the agency’s verification and validation process as described in
     its performance plan and\or report could produce reliable data, assuming that there were adequate controls to ensure the integrity of the data throughout the process.

H.   In some instances an agency may have identified shortcomings or limitations in its data collection processes.

I.   Having identified shortcomings or limitations in its data collection processes, did the agency indicate what steps it would take to correct\overcome the problems. A Y response indicates
     that the agency has identified such steps or discontinued the performance goal\measure in its Fiscal Year 2001 performance plan. Responses to Column I should reconcile to the number
     of Y responses in Column H.




          OIG Report No. 00-I-533                                                                                                                                                  Page 66
OFFICE OF SURFACE MINING RECLAMATION AND
ENFORCEMENT

OSM organized its fiscal year 1999 and fiscal year 2001 performance plans into four goal
categories, each of which had subsets of long-term goals. The long-term goals, in turn, had an
annual goal and a target (23 in fiscal year 1999). These targets typically consistent of percentages,
acres or projects. In its fiscal year 2001 performance plan, OSM has two goal categories, each
of which has two annual goals (also referred to as performance measures) and a target for each.

Fiscal Year 1999 Performance Plan and Report

OSM’s fiscal year 1999 performance plan generally provided an adequate basis for evaluating
OSM’s accomplishment of its two primary missions: regulating current coal mining operations and
reclaiming\restoring land previously degraded by past coal mining. For most goals, OSM
established a performance baseline that provided a reasonable approach to measuring the
accomplishment of mission objectives. However, we cannot comment on whether the baseline
data are valid or whether the annual goals (in terms of numerical amount) are appropriate because
the plan and report did not contain information on how the baselines were developed. Also, most
annual goals and related targets measured activities rather than program results.

OSM’s 1999 plan provided overall but not detailed information on the methods that OSM planned
to use to validate data. Although OSM did not discuss any data limitations, the data may not be
reliable in all cases. Specifically, OIG’s financial statements audit for fiscal year 1999 disclosed
errors in OSM’s reporting of performance data regarding the "percentage of sites that are free of
off-site impacts to 94%" goal. The audit report stated that OSM did not consistently gather data
for off-site impacts and did not include data on mine sites located on Federal lands.

In its fiscal year 1999 performance report, OSM met or exceeded 14 of 23 annual goals. OSM
adequately explained why eight goals were not met and provided a strategy to ensure that the goals
will be met in the future or stated that the goals were discontinued. For one goal that was not met,
OSM did not provide a strategy to achieve the goal. In addition, we found two unexplained
differences between the fiscal year 1999 plan and the report. In one instance, the report included
performance information on a goal that was not in the plan. In the other instance, the measurement
for the goal "number of acres released from Phase III Performance Bonds" was shown as 100,000
acres in the plan and 90,000 acres in the report.

Fiscal Year 2001 Performance Plan

In its 2001 plan, OSM said that it eliminated or revised 1999 goals primarily to convert the goals
to a "process efficiency index" (OSM’s term, which was not defined), a performance statistic, a
customer satisfaction index, or a workload statistic. For the 2001 Plan, OSM identified two
mission goals with four related annual goals. The two mission goals were the same as those in its
fiscal year 1999 plan and report. Also, four annual goals were the same as those in its fiscal year

OIG Report No. 00-I-533                                                                    Page 67
1999 plan, except that the measurement (e.g. number of acres) changed. The 2001 plan provided
detailed information on the data that would be used to measure performance and in most cases
described the data collection process and the methods that would be used to validate the data.
Overall, the mission and annual goals in the fiscal year 2001 plan are an improvement over the fiscal
year 1999 goals.

Based on our review of its plan, we believe that OSM could improve its report as follows:

    - Provide sufficient information to fully explain the goals and the significance of the goals.

    - Describe the total program areas for which measures have been established. For example,
one fiscal year 2001 annual goal, under the environmental restoration mission goal, is to reclaim
9,100 acres annually. The performance report and plan, however, do provide information on the
total number of acres that need to be restored. In addition, another annual goal for fiscal year
2001, under environmental restoration, is to provide funding for 46 new Cooperative Acid Mine
Drainage Projects under the Clean Streams Initiative. The Report and plans do not identify the
scope or priority of the projects and how many projects are needed.

    - Add annual goals\measures. For example, one annual goal for fiscal year 2001 under the
environmental restoration mission goal is to reclaim 9,100 acres annually. The enabling legislation
that created OSM established priorities for reclaiming abandoned coal mine lands and also
authorized use of funds to mitigate effects on noncoal mining activities after the priorities are
completed within a particular state. We believe that at a minimum there should be goals\measures
which address reclamation of the highest priority coal projects including those for protecting public
health, safety, general welfare, and property from extreme danger (priority 1); protecting public
health, safety, and general welfare from adverse effects (priority 2); and restoring land and water
resources and environment (priority 3).




OIG Report No. 00-I-533                                                                      Page 68
Office of Surface Mining Reclamation and Enforcement

                                   See notes at end of table:   A                                               B                                               C                                            D                                                E                                                   F                                              G                                   H                                                                 I




                                                                                                                                                                                               Fiscal Year 1999 performance plan goal excluded




                                                                                                                                                                                                                                                                                                                                                                                                                                                   Agency indicates what steps it will take to correct
                                                                                                                                                                                                                                                 Fiscal Year 1999 performance plan goal changed



                                                                                                                                                                                                                                                                                                  performance plan goal was excluded or changed




                                                                                                                                                                                                                                                                                                                                                                                                   Agency acknowledges shortcomings in its data?
                                                                                                  describes a strategy to meet goal in the future?




                                                                                                                                                                                                                                                                                                  Adequate explanation of why Fiscal Year 1999




                                                                                                                                                                                                                                                                                                                                                  adequately described the data verification and
                                                                                                                                                     Goal relates to agency’s key management
                                                                                                  If not, report adequately explains why and




                                                                                                                                                                                                                                                                                                                                                  Agency’s performance plan and\or report
                                                                Fiscal Year 1999 goal achieved?




                                                                                                                                                                                                                                                                                                                                                                                                                                                   shortcomings in its data?
                                                                                                                                                                                                                                                                                                                                                  validation process?
                                                                                                                                                                                               from report?
                                                                                                                                                     challenges?




                                                                                                                                                                                                                                                 in report?



                                                                                                                                                                                                                                                                                                  in report?
GPRA PROGRAM ACTIVITY\M ISSION GOAL :
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         SELECTED COMMENTS ON AGENCY GOALS\ MEASURES AND
FISCAL YEAR 1999 PERFORMANCE GOAL \M EASURE                                                                                                                                                                                                                                                                                                                                                                                                                                                              VALIDATION METHODS

Improved Environmental Restoration
Percentage of instances where OSM awards AML grants                                                                                                                                                                                                                                                                                                                                                                                                                                                      For Fiscal Year 2000, OSM will incorporate this goal into a
                                                                Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                   N                                                              -
within 60 days: 93%.                                                                                                                                                                                                                                                                                                                                                                                                                                                                                     process efficiency index.
Percentage of increase of reclaimed\funded pre-SMCRA                                                                                                                                                                                                                                                                                                                                                                                                                                                     For Fiscal Year 2000, OSM will show this goal as a
                                                                Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                   N                                                              -
coal high priority abandoned sites to total AML sites: 0.06%.                                                                                                                                                                                                                                                                                                                                                                                                                                            performance statistic.
Number of acres reclaimed annually by the Surface Mining                                                                                                                                                                                                                                                                                                                                                                                                                                                 For Fiscal Year 2001, goal increased to 9,100 acres.
                                                                Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                   N                                                              -
Program: 7,400.
Number of emergency hazards abated annually by the                                                                                                                                                                                                                                                                                                                                                                                                                                                       For Fiscal Year 2000, OSM will show this goal as a
                                                                 N                                           Y                                                  N                                            N                                                N                                                     -                                            Y                                   N                                                              -
Surface Mining Program: 390.                                                                                                                                                                                                                                                                                                                                                                                                                                                                             performance statistic.
Number of new cooperative Acid Mine Drainage projects                                                                                                                                                                                                                                                                                                                                                                                                                                                    OSM provided an adequate explanation why goal was not
under its Clean Streams initiative: 37.                          N                                              N                                               N                                            N                                                N                                                                                                  Y                                   N                                                              -                                    met but did not provide a strategy to achieve the goal. For
                                                                                                                                                                                                                                                                                                                    -
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         Fiscal Year 2001 Plan, goal was increased to 46 projects.
Percentage of non-Surface Mining Program funds for the                                                                                                                                                                                                                                                                                                                                                                                                                                                   For Fiscal Year 2000, OSM will show this goal as a
                                                                 N                                           Y                                                  N                                            N                                                N                                                     -                                            Y                                   N                                                              -
Clean Streams Initiative: 58%.                                                                                                                                                                                                                                                                                                                                                                                                                                                                           performance statistic.
Improved Environmental Protection
Percentage of instances were OSM awards regulatory                                                                                                                                                                                                                                                                                                                                                                                                                                                       For Fiscal Year 2000, OSM will incorporate this goal into a
                                                                 N                                           Y                                                  N                                            N                                                N                                                     -                                            Y                                   N                                                              -
grants within 60 days: 93%.                                                                                                                                                                                                                                                                                                                                                                                                                                                                              process efficiency index.
Customer service rate for accuracy, timeliness, and overall                                                                                                                                                                                                                                                                                                                                                                                                                                              Goal was not included in 1999 plan but was included in
satisfaction of grants financial management: 94%.               Y                                                 -                                             N                                            N                                              Y                                                     N                                              Y                                   N                                                              -                                    1999 report. For Fiscal Year 2000, OSM will incorporate
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         this goal into a customer satisfaction index.




  Legend of responses: Y = Yes;           N = No      A Dash ( - ) = Not applicable or no response required based on response to prior question.


         OIG Report No. 00-I-533                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                             Page 69
Office of Surface Mining Reclamation and Enforcement

                                    See notes at end of table:   A                                               B                                               C                                            D                                                E                                                   F                                              G                                   H                                                                 I




                                                                                                                                                                                                Fiscal Year 1999 performance plan goal excluded




                                                                                                                                                                                                                                                                                                                                                                                                                                                    Agency indicates what steps it will take to correct
                                                                                                                                                                                                                                                  Fiscal Year 1999 performance plan goal changed



                                                                                                                                                                                                                                                                                                   performance plan goal was excluded or changed




                                                                                                                                                                                                                                                                                                                                                                                                    Agency acknowledges shortcomings in its data?
                                                                                                   describes a strategy to meet goal in the future?




                                                                                                                                                                                                                                                                                                   Adequate explanation of why Fiscal Year 1999




                                                                                                                                                                                                                                                                                                                                                   adequately described the data verification and
                                                                                                                                                      Goal relates to agency’s key management
                                                                                                   If not, report adequately explains why and




                                                                                                                                                                                                                                                                                                                                                   Agency’s performance plan and\or report
                                                                 Fiscal Year 1999 goal achieved?




                                                                                                                                                                                                                                                                                                                                                                                                                                                    shortcomings in its data?
                                                                                                                                                                                                                                                                                                                                                   validation process?
                                                                                                                                                                                                from report?
                                                                                                                                                      challenges?




                                                                                                                                                                                                                                                  in report?



                                                                                                                                                                                                                                                                                                   in report?
GPRA PROGRAM ACTIVITY\M ISSION GOAL :
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          SELECTED COMMENTS ON AGENCY GOALS\ MEASURES AND
FISCAL YEAR 1999 PERFORMANCE GOAL \M EASURE                                                                                                                                                                                                                                                                                                                                                                                                                                                               VALIDATION METHODS

The Surface Mining Program will increase the percentage                                                                                                                                                                                                                                                                                                                                                                                                                                                   This goal was reviewed as part of OIG audit of OSM Fiscal
of sites that are free of off-site impacts to 94%.                                                                                                                                                                                                                                                                                                                                                                                                                                                        Year 1999 financial statements. OIG review disclosed that
                                                                 Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                   N                                                              -                                    OSM did not consistently gather data or include data on
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          mine sites located on Federal lands. For Fiscal Year 2001
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          plan, goal increased to 95%.
The number of acres released from Phase I & II                                                                                                                                                                                                                                                                                                                                                                                                                                                            For Fiscal Year 2000, OSM will show this goal as a
Performance Bonds as reported through the Surface Mining          N                                           Y                                                  N                                            N                                                N                                                     -                                            Y                                   N                                                                                                   performance statistic.
Program: 50,000.
The number of acres released from Phase III Performance                                                                                                                                                                                                                                                                                                                                                                                                                                                   Goal shown as 100,000 acres in 1999 plan and 90,000
Bonds as reported through the Surface Mining Program:             N                                           Y                                                  N                                            N                                              Y                                                     N                                              Y                                   N                                                                                                   acres in 1999 report. For Fiscal Year 2001, goal increased
90,000.                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   to 110,000 acres.
Improved Service and Assistance
Customer satisfaction rate in the quality of OSM's technical                                                                                                                                                                                                                                                                                                                                                                                                                                              For Fiscal Year 2000, OSM will incorporate this goal into a
                                                                 Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                   N                                                              -
training: 89%.                                                                                                                                                                                                                                                                                                                                                                                                                                                                                            customer satisfaction index.
Customer satisfaction rate in the quality of OSM's technical                                                                                                                                                                                                                                                                                                                                                                                                                                              For Fiscal Year 2000, OSM will incorporate this goal into a
                                                                 Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                   N                                                              -
assistance activities: 86%.                                                                                                                                                                                                                                                                                                                                                                                                                                                                               customer satisfaction index.
Customer satisfaction rate in the use of TIPS: 86%.                                                                                                                                                                                                                                                                                                                                                                                                                                                       For Fiscal Year 2000, OSM will incorporate this goal into a
                                                                 Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                   N                                                                                                   customer satisfaction index.

Customer satisfaction rate in the quality of OSM's                                                                                                                                                                                                                                                                                                                                                                                                                                                        For Fiscal Year 2000, OSM will show this goal as a
                                                                 Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                   N                                                              -
technology transfer: 86%.                                                                                                                                                                                                                                                                                                                                                                                                                                                                                 performance statistic.
Number of students trained annually by OSM: 900.                                                                                                                                                                                                                                                                                                                                                                                                                                                          For Fiscal Year 2000, OSM will show this goal as a work
                                                                 Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                   N                                                              -
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          load statistic.
Customer satisfaction rate in the quality and timeliness of                                                                                                                                                                                                                                                                                                                                                                                                                                               For Fiscal Year 2000, OSM will incorporate this goal into a
                                                                 Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                   N                                                              -
Applicant Violator System (AVS) services: 86%.                                                                                                                                                                                                                                                                                                                                                                                                                                                            customer satisfaction index.




         OIG Report No. 00-I-533                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                              Page 70
Office of Surface Mining Reclamation and Enforcement

                                  See notes at end of table:   A                                                B                                               C                                            D                                                E                                                   F                                              G                                   H                                                                 I




                                                                                                                                                                                               Fiscal Year 1999 performance plan goal excluded




                                                                                                                                                                                                                                                                                                                                                                                                                                                   Agency indicates what steps it will take to correct
                                                                                                                                                                                                                                                 Fiscal Year 1999 performance plan goal changed



                                                                                                                                                                                                                                                                                                  performance plan goal was excluded or changed




                                                                                                                                                                                                                                                                                                                                                                                                   Agency acknowledges shortcomings in its data?
                                                                                                  describes a strategy to meet goal in the future?




                                                                                                                                                                                                                                                                                                  Adequate explanation of why Fiscal Year 1999




                                                                                                                                                                                                                                                                                                                                                  adequately described the data verification and
                                                                                                                                                     Goal relates to agency’s key management
                                                                                                  If not, report adequately explains why and




                                                                                                                                                                                                                                                                                                                                                  Agency’s performance plan and\or report
                                                                Fiscal Year 1999 goal achieved?




                                                                                                                                                                                                                                                                                                                                                                                                                                                   shortcomings in its data?
                                                                                                                                                                                                                                                                                                                                                  validation process?
                                                                                                                                                                                               from report?
                                                                                                                                                     challenges?




                                                                                                                                                                                                                                                 in report?



                                                                                                                                                                                                                                                                                                  in report?
GPRA PROGRAM ACTIVITY\M ISSION GOAL :
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         SELECTED COMMENTS ON AGENCY GOALS\ MEASURES AND
FISCAL YEAR 1999 PERFORMANCE GOAL \M EASURE                                                                                                                                                                                                                                                                                                                                                                                                                                                              VALIDATION METHODS

Improved Operations
Number of material weaknesses (0) regarding fee                                                                                                               Y                                                                                                                                                                                                                                                                                                                                          OSM did not provide an actual result in the 1999 report.
compliance, revenue, and grants financial services in            N                                           Y                                                                                               N                                                N                                                     -                                            Y                                   N                                                              -                                    OSM showed a result of N\A in the report. For Fiscal Year
OSM’s annual financial statements as determined by OIG.                                                                                                   #6                                                                                                                                                                                                                                                                                                                                             2000, OSM will not show this goal.
OSM will maintain a 90% AML reclamation fee compliance                                                                                                                                                                                                                                                                                                                                                                                                                                                   For Fiscal Year 2000, OSM will incorporate this goal into a
                                                                                                                                                              Y
rate as measured by percentage of permits reporting                                                                                                                                                                                                                                                                                                                                                                                                                                                      process efficiency index.
                                                               Y                                                  -                                                                                          N                                                N                                                     -                                            Y                                   N                                                              -
compared to the number of permits (99%) and percentage
                                                                                                                                                          #6
of audited tons (99%) divided by total tons audited.
Percentage of instances where OSM processes requests                                                                                                                                                                                                                                                                                                                                                                                                                                                     For Fiscal Year 2000, OSM will incorporate this goal into a
                                                               Y                                                  -                                             N                                            N                                                N                                                     -                                            Y                                   N                                                              -
for grant payments within one day: 99%.                                                                                                                                                                                                                                                                                                                                                                                                                                                                  process efficiency index.
Customer service rate for accuracy, timeliness, and overall                                                                                                                                                                                                                                                                                                                                                                                                                                              For Fiscal Year 2000, OSM will incorporate this goal into a
                                                               Y                                                  -                                             N                                            N                                                N                                                     -                                            Y                                   N                                                              -
satisfaction of grants financial management: 90%.                                                                                                                                                                                                                                                                                                                                                                                                                                                        process efficiency index.
Percentage of reduction of old "debt delinquent over 180                                                                                                  Y                                                                                                                                                                                                                                                                                                                                              For Fiscal Year 2000, OSM will incorporate this goal into a
                                                                 N                                           Y                                                                                               N                                                N                                                     -                                            Y                                   N                                                              -
days": 65%.                                                                                                                                               #6                                                                                                                                                                                                                                                                                                                                             process efficiency index.
Debt processing rate within the first 180 days: 98%.                                                                                                      Y                                                                                                                                                                                                                                                                                                                                              For Fiscal Year 2000, OSM will incorporate this goal into a
                                                                 N                                           Y                                                                                               N                                                N                                                     -                                            Y                                   N                                                              -
                                                                                                                                                          #6                                                                                                                                                                                                                                                                                                                                             process efficiency index.

                                                               14Y                                   8Y                                                 4Y                                                                                          2Y
                                                                                                                                                                                               23N                                                                                                           2N                                        23Y                                         23N                                                            -
Total Goals: 23
                                                               9N                                       1N                                           19N                                                                                         21N



NOTES:




         OIG Report No. 00-I-533                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                             Page 71
Office of Surface Mining Reclamation and Enforcement

A.   The agencies generally reported whether or not the performance goal\measure was met for Fiscal Year 1999. However, in some instance the agency reported that for the performance
     goal\measure it did not have the data or was unable to collect the data met for the specific measure. In these instances, we recorded a No response for the performance goal\measure
     because it was not achieved. When necessary, a specific comment was included in the comment section.

B.   A response is only required for this question if the response in Column A was ‘N’. Responses to Column B should reconcile to the number of N responses in Column A.

C.   On December 1, 1998, the Office of Inspector General provided the Congress a current assessment of the 10 key management challenges within the Department of the Interior. The table
     below shows each challenge and the Departmental agency it applies to.

                      10 Key Management Challenges                               DMO      BIA     BLM     BOR      MMS      NPS     OIA      OSM      FWS     USGS
                      1. Management of Indian Trust Funds *
                      2. Maintenance                                               x       x       x                          x                        x
                      3. National Park Service Housing                                                                        x
                      4. Financial Management                                      x       x                                          x
                      5. Waste Management                                          x       x       x        x                 x                        x
                      6. Revenue Collections                                       x       x       x        x        x        x               x        x         x
                      7. Inspection and Enforcement of Fluid Minerals                              x
                      8. Range Monitoring                                                          x
                      9. Land Exchanges                                                            x
                      10. Year 2000 Readiness                                      x


                      *The Office of the Special Trustee for American Indians is responsible for the "Management of Indian Trust Funds." OST did not prepare a
                      performance plan for Fiscal Year 1999 or produce a performance report. OST is in the process of implementing a Trust Management
                      Improvement Project and is under a Court Order to produce a quarterly report of its progress on the High Level Implementation Plan.

D.   We compared the agency’s Fiscal Year 1999 performance plan and Fiscal Year 1999 performance report to determine if any planned goals\measures were excluded from the report.

E.   We compared the agency’s Fiscal Year 1999 performance plan and Fiscal Year 1999 performance report to determine if any planned goals\measures were changed in the report.

F.   If the agency excluded or changed any of its Fiscal Year 1999 planned goals\measures, indicate whether the agency adequately explained why it excluded or changed the goal\measure.

G.   We were not able to provide assurance regarding the validity and reliability of data because we have not assessed the adequacy of data collection, verification, and validation processes
     for each of the agency’s Fiscal Year 1999 performance goals\measures. However, we attempted to determine whether the agency’s verification and validation process as described in
     its performance plan and\or report could produce reliable data, assuming that there were adequate controls to ensure the integrity of the data throughout the process.

H.   In some instances an agency may have identified shortcomings or limitations in its data collection processes. We determined that OSM had not addressed shortcomings in its data.

I.   Having identified shortcomings or limitations in its data collection processes, did the agency indicate what steps it would take to correct\overcome the problems. A Y response indicates
     that the agency has identified such steps or discontinued the performance goal\measure in its Fiscal Year 2001 performance plan. Responses to Column I should reconcile to the number
     of Y responses in Column H.




          OIG Report No. 00-I-533                                                                                                                                                  Page 72
U.S. FISH AND WILDLIFE SERVICE

FWS organized its fiscal year 1999 and fiscal year 2001 performance plans into four goal
categories, each of which had subsets of annual goals (15 in 1999 and 17 in 2001). The annual
goals, in turn, had one or more performance targets to measure accomplishments. These targets
typically consisted of units, such as the number of acres or sites, or percentages.

Fiscal Year 1999 Performance Plan and Report

FWS’s fiscal year 1999 performance plan provided an adequate basis for evaluating FWS’s
accomplishment of its essential mission goals: sustainability of Fish and Wildlife Populations; habitat
conservation; and public use and enjoyment. FWS identified 15 goals and 35 measurements
withing these mission areas. For most goals, FWS established a performance baseline that
provided a reasonable approach to measuring the accomplishment of mission objectives.
However, we cannot comment on whether the baseline data are valid or whether the numerical
goals for measuring accomplishment are appropriate. Also, data may not be complete or reliable
because data collection methods may not have been developed. For example, FWS established
a performance measure for interpretive, educational, and recreational visits to national wildlife
refuges and national fish hatcheries based on the number of visits. However, FWS currently does
not compile visitation data at fish hatcheries and the plan did not describe the method used to
capture visitation statistics on wildlife refuges.

FWS’s 1999 plan provided overall but not detailed information on the methods FWS planned to
use to validate data. FWS acknowledged that there were data limitations for some of the measures
including factors such as weather, the use of volunteers to capture data, subjective assessments,
and the cost of attaining accurate information to measure performance.

In its fiscal year 1999 performance report, FWS said that it either met or exceeded the measures
for 12 of the 15 goals. FWS adequately explained why the measures for the three goals were not
met and provided a strategy to achieve the performance goals in the future.

Fiscal Year 2001 Performance Plan

In its 2001 plan, FWS explained why it eliminated or revised 1999 goals. The 2001 plan added
one mission goal and four performance goals, revised four existing goals, and eliminated three
goals. These changes were made to more fully reflect FWS’s commitment to its partners’ efforts
to conserve fish and wildlife and their habitats (new mission goal), to provide a different measure
or baseline (revised goals), or to delete objectives that were achieved or that had been merged into
other goals (eliminated goals).




OIG Report No. 00-I-533                                                                      Page 73
The 2001 plan generally provided detailed information on the data that would be used to measure
performance and in most cases described the data collection process and the methods used to
validate the data. However, FWS did not describe the controls in place or that will be
implemented to ensure that the data are complete, representative, and accurate. For example, the
2001 plan does not provide a discussion of the controls that are or will be in place to ensure that
the reported acres under the Habitat Conservation mission goal have been restored or enhanced.




OIG Report No. 00-I-533                                                                   Page 74
U.S. Fish and Wildlife Service

                                   See notes at end of table:    A                                               B                                               C                                            D                                                E                                                   F                                              G                                   H                                                                 I




                                                                                                                                                                                                Fiscal Year 1999 performance plan goal excluded




                                                                                                                                                                                                                                                                                                                                                                                                                                                    Agency indicates what steps it will take to correct
                                                                                                                                                                                                                                                  Fiscal Year 1999 performance plan goal changed



                                                                                                                                                                                                                                                                                                   performance plan goal was excluded or changed




                                                                                                                                                                                                                                                                                                                                                                                                    Agency acknowledges shortcomings in its data?
                                                                                                   describes a strategy to meet goal in the future?




                                                                                                                                                                                                                                                                                                   Adequate explanation of why Fiscal Year 1999




                                                                                                                                                                                                                                                                                                                                                   adequately described the data verification and
                                                                                                                                                      Goal relates to agency’s key management
                                                                                                   If not, report adequately explains why and




                                                                                                                                                                                                                                                                                                                                                   Agency’s performance plan and\or report
                                                                 Fiscal Year 1999 goal achieved?




                                                                                                                                                                                                                                                                                                                                                                                                                                                    shortcomings in its data?
                                                                                                                                                                                                                                                                                                                                                   validation process?
                                                                                                                                                                                                from report?
                                                                                                                                                      challenges?




                                                                                                                                                                                                                                                  in report?



                                                                                                                                                                                                                                                                                                   in report?
GPRA PROGRAM ACTIVITY\M ISSION GOAL :
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          SELECTED COMMENTS ON AGENCY GOALS\ MEASURES AND
FISCAL YEAR 1999 PERFORMANCE GOAL \M EASURE                                                                                                                                                                                                                                                                                                                                                                                                                                                               VALIDATION METHODS

Sustainability of Fish and Wildlife Populations:
1.1.1 An increase of 2% [5 populations] of regional
migratory bird populations of management concern (for
which adequate population information is available)
demonstrates improvements in their population’s status           Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                 Y                                                           Y
because of management actions that have either increased
their numbers or, in some cases, reduced the number of
conflicts due to overabundance (1 measure).
1.1.2 An increase of 2% of regional migratory bird
populations of management concern will have baseline
information available for establishing reliable population
levels, and monitoring programs will be initiated or continued   Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                 Y                                                           Y
for those species. Also, the number of migratory bird
populations of management concern will be included
(3 measures).
1.2.1 - 13% of endangered and threatened species                                                                                                                                                                                                                                                                                                                                                                                                                                                          FWS excluded two of the seven measures from its report
populations listed a decade or more are stabilized or                                                                                                                                                                                                                                                                                                                                                                                                                                                     and did not meet the remaining five measures for this goal.
improved;10 species in decline are precluded from the need
for listing under the Endangered Species Act; and 8 species       N                                           Y                                                  N                                            N                                                N                                                     -                                            Y                                 Y                                                              N
approved for removal from candidacy as a result of
conservation agreements precluding the need to list
(7 measures).




   Legend of responses: Y = Yes;           N = No     A Dash ( - ) = Not applicable or no response required based on response to prior question.


         OIG Report No. 00-I-533                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                             Page 75
U.S. Fish and Wildlife Service

                                     See notes at end of table:   A                                               B                                               C                                            D                                                E                                                   F                                              G                                   H                                                                 I




                                                                                                                                                                                                 Fiscal Year 1999 performance plan goal excluded




                                                                                                                                                                                                                                                                                                                                                                                                                                                     Agency indicates what steps it will take to correct
                                                                                                                                                                                                                                                   Fiscal Year 1999 performance plan goal changed



                                                                                                                                                                                                                                                                                                    performance plan goal was excluded or changed




                                                                                                                                                                                                                                                                                                                                                                                                     Agency acknowledges shortcomings in its data?
                                                                                                    describes a strategy to meet goal in the future?




                                                                                                                                                                                                                                                                                                    Adequate explanation of why Fiscal Year 1999




                                                                                                                                                                                                                                                                                                                                                    adequately described the data verification and
                                                                                                                                                       Goal relates to agency’s key management
                                                                                                    If not, report adequately explains why and




                                                                                                                                                                                                                                                                                                                                                    Agency’s performance plan and\or report
                                                                  Fiscal Year 1999 goal achieved?




                                                                                                                                                                                                                                                                                                                                                                                                                                                     shortcomings in its data?
                                                                                                                                                                                                                                                                                                                                                    validation process?
                                                                                                                                                                                                 from report?
                                                                                                                                                       challenges?




                                                                                                                                                                                                                                                   in report?



                                                                                                                                                                                                                                                                                                    in report?
GPRA PROGRAM ACTIVITY\M ISSION GOAL :
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           SELECTED COMMENTS ON AGENCY GOALS\ MEASURES AND
FISCAL YEAR 1999 PERFORMANCE GOAL \M EASURE                                                                                                                                                                                                                                                                                                                                                                                                                                                                VALIDATION METHODS

1.3.1 - Baselines for interjurisdictional fish populations are                                                                                                                                                                                                                                                                                                                                                                                                                                             FWS stated that it had re-evaluated the goal and found that
established (1 measure).                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   the goal was too broad in scope. The target was revised
                                                                   N                                           Y                                                  N                                            N                                                N                                                     -                                            Y                                 Y                                                           Y
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           for the 2001 plan to focus FWS efforts over the 5-year
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           period on restoration of depressed native fish populations.
1.4.1 - 100% of marine mammal populations over which the
Service has jurisdiction will be at sustainable population
                                                                  Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                 Y                                                           Y
levels or protected under conservation agreements
(1 measure).
1.5.1 19% [22] of transborder species over which the                                                                                                                                                                                                                                                                                                                                                                                                                                                       This goal does not continue into Fiscal Year 2001.
Service has jurisdiction will benefit from improved               Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                 Y                                                           Y
conservation efforts (1 measure).
1.5.2 22 Priority species of international concern will benefit
                                                                  Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                 Y                                                           Y
from improved conservation efforts.
Habitat Conservation: A network of lands and waters.
2.1.1 Meet the identified habitat needs of Service lands by                                                                                                                                                                                                                                                                                                                                                                                                                                                The second measure called for restoration of 3,303,341
ensuring that 93,567,296 acres are protected, of which                                                                                                                                                                                                                                                                                                                                                                                                                                                     acres. Actual performance was at 98% (3,230,886), which
                                                                  Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                 Y                                                              N
3,303,341 acres will be enhanced or restored (2                                                                                                                                                                                                                                                                                                                                                                                                                                                            included the control and prevention of invasive species on
measures).                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                 Service lands.
2.1.2 Complete 80% of scheduled contaminated cleanup                                                                                                            Y                                                                                                                                                                                                                                                                                                                                          The Management Challenge is Waste Management.
projects on Service lands (2 measures).                           Y                                                 -                                                                                          N                                                N                                                     -                                            Y                                 Y                                                              N
                                                                                                                                                            #5




         OIG Report No. 00-I-533                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                Page 76
U.S. Fish and Wildlife Service

                                     See notes at end of table:   A                                               B                                               C                                            D                                                E                                                   F                                              G                                   H                                                                 I




                                                                                                                                                                                                 Fiscal Year 1999 performance plan goal excluded




                                                                                                                                                                                                                                                                                                                                                                                                                                                     Agency indicates what steps it will take to correct
                                                                                                                                                                                                                                                   Fiscal Year 1999 performance plan goal changed



                                                                                                                                                                                                                                                                                                    performance plan goal was excluded or changed




                                                                                                                                                                                                                                                                                                                                                                                                     Agency acknowledges shortcomings in its data?
                                                                                                    describes a strategy to meet goal in the future?




                                                                                                                                                                                                                                                                                                    Adequate explanation of why Fiscal Year 1999




                                                                                                                                                                                                                                                                                                                                                    adequately described the data verification and
                                                                                                                                                       Goal relates to agency’s key management
                                                                                                    If not, report adequately explains why and




                                                                                                                                                                                                                                                                                                                                                    Agency’s performance plan and\or report
                                                                  Fiscal Year 1999 goal achieved?




                                                                                                                                                                                                                                                                                                                                                                                                                                                     shortcomings in its data?
                                                                                                                                                                                                                                                                                                                                                    validation process?
                                                                                                                                                                                                 from report?
                                                                                                                                                       challenges?




                                                                                                                                                                                                                                                   in report?



                                                                                                                                                                                                                                                                                                    in report?
GPRA PROGRAM ACTIVITY\M ISSION GOAL :
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           SELECTED COMMENTS ON AGENCY GOALS\ MEASURES AND
FISCAL YEAR 1999 PERFORMANCE GOAL \M EASURE                                                                                                                                                                                                                                                                                                                                                                                                                                                                VALIDATION METHODS

2.2.1.Collect field data on the initial real property baseline                                                                                                                                                                                                                                                                                                                                                                                                                                             This goal changed for 2001 to reflect the need to bring
data set and complete maintenance management update                                                                                                                                                                                                                                                                                                                                                                                                                                                        FWS's facilities up to good condition. The data
(4 measures).                                                                                                                                                   Y                                                                                                                                                                                                                                                                                                                                          shortcomings center around cost estimating for replacement
                                                                  Y                                                 -                                                                                          N                                                N                                                     -                                            Y                                 Y                                                           Y                                         values, and the plan addresses the steps, such as more
                                                                                                                                                            #2                                                                                                                                                                                                                                                                                                                                             rigorous condition assessments, to document accuracy of
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           repair and replacement costs. The Management Challenge
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           is Maintenance
2.3.1 Improve the fish and wildlife populations focusing on
trust resources, threatened and endangered species, and
species of special concern by enhancing and\or restoring
or creating 47,400 acres of wetlands habitats, enhancing
                                                                  Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                 Y                                                           Y
and\or restoring 78,140 acres of upland habitat, and
enhancing and\or restoring 676 riparian or stream miles of
habitat off-Service lands through partnerships and other
identified conservation strategies (6 measures).
Public Use and Enjoyment.
3.1.1 Interpretive, educational and recreational visits to                                                                                                                                                                                                                                                                                                                                                                                                                                                 FWS acknowledges on page 58 of the report\plan that
National Wildlife Refuges and National Fish Hatcheries                                                                                                                                                                                                                                                                                                                                                                                                                                                     "National Fish Hatcheries do not currently compile visitation
increased by 2% over the previous year (1 measure).               Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                 Y                                                              N                                      data, therefore, visitation data is subject to estimation error."
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           In addition, the Plan does not address the method used to
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           capture visitation statistics on refuges.
3.2.1 Volunteer participation hours in Service programs                                                                                                                                                                                                                                                                                                                                                                                                                                                    While the Service stated that it met the second measure (66
increased by 26% and refuges and hatcheries have 66                N                                           Y                                                  N                                            N                                                N                                                     -                                            Y                                 Y                                                           Y                                         new friends groups), it reported 57, which was 86% of its
new friends groups from 1997 levels (2 measures).                                                                                                                                                                                                                                                                                                                                                                                                                                                          goal.
3.3.1 86% of states receiving Federal Aid state grant                                                                                                                                                                                                                                                                                                                                                                                                                                                      Goal does not continue into Fiscal Year 2001 Plan.
monies are used consistent with the enabling legislation (2       Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                 Y                                                           Y
measures).



         OIG Report No. 00-I-533                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                  Page 77
U.S. Fish and Wildlife Service

                                    See notes at end of table:   A                                                B                                               C                                            D                                                E                                                   F                                              G                                    H                                                                 I




                                                                                                                                                                                                 Fiscal Year 1999 performance plan goal excluded




                                                                                                                                                                                                                                                                                                                                                                                                                                                      Agency indicates what steps it will take to correct
                                                                                                                                                                                                                                                   Fiscal Year 1999 performance plan goal changed



                                                                                                                                                                                                                                                                                                    performance plan goal was excluded or changed




                                                                                                                                                                                                                                                                                                                                                                                                      Agency acknowledges shortcomings in its data?
                                                                                                    describes a strategy to meet goal in the future?




                                                                                                                                                                                                                                                                                                    Adequate explanation of why Fiscal Year 1999




                                                                                                                                                                                                                                                                                                                                                    adequately described the data verification and
                                                                                                                                                       Goal relates to agency’s key management
                                                                                                    If not, report adequately explains why and




                                                                                                                                                                                                                                                                                                                                                    Agency’s performance plan and\or report
                                                                  Fiscal Year 1999 goal achieved?




                                                                                                                                                                                                                                                                                                                                                                                                                                                      shortcomings in its data?
                                                                                                                                                                                                                                                                                                                                                    validation process?
                                                                                                                                                                                                 from report?
                                                                                                                                                       challenges?




                                                                                                                                                                                                                                                   in report?



                                                                                                                                                                                                                                                                                                    in report?
 GPRA PROGRAM ACTIVITY\M ISSION GOAL :
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                            SELECTED COMMENTS ON AGENCY GOALS\ MEASURES AND
 FISCAL YEAR 1999 PERFORMANCE GOAL \M EASURE                                                                                                                                                                                                                                                                                                                                                                                                                                                                VALIDATION METHODS

 3.4.1 95% of mitigation hatchery production requirements                                                                                                                                                                                                                                                                                                                                                                                                                                                   Goal does not continue into Fiscal Year 2001 Plan.
 are satisfied relating to federal water development projects    Y                                                  -                                             N                                            N                                                N                                                     -                                            Y                                 Y                                                            Y
 (1 measure).

                                                                 12Y                                                                                      2Y                                                                                                                                                                                                                                                                                          11Y
                                                                                                       3Y                                                                                        15N                                               15N                                                              -l                                   15Y                                         15Y
 Total Goals: 15
                                                                 3N                                                                                    13N                                                                                                                                                                                                                                                                                                  4N



NOTES:

A. The agencies generally reported whether or not the performance goal\measure was met for Fiscal Year 1999. However, in some instance the agency reported that for the performance
   goal\measure it did not have the data or was unable to collect the data met for the specific measure. In these instances, we recorded a No response for the performance goal\measure
   because it was not achieved. When necessary, a specific comment was included in the comment section.

B.   A response is only required for this question if the response in Column A was ‘N’. Responses to Column B should reconcile to the number of N responses in Column A.




          OIG Report No. 00-I-533                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                Page 78
U.S. Fish and Wildlife Service

C.   On December 1, 1998, the Office of Inspector General provided the Congress a current assessment of the 10 key management challenges within the Department of the Interior. The table
     below shows each challenge and the Departmental agency it applies to.

                       10 Key Management Challenges                              DMO      BIA     BLM     BOR      MMS      NPS      OIA     OSM      FWS      USGS
                       1. Management of Indian Trust Funds *
                       2. Maintenance                                              x       x       x                          x                        x
                       3. National Park Service Housing                                                                       x
                       4. Financial Management                                     x       x                                          x
                       5. Waste Management                                         x       x       x        x                 x                        x
                       6. Revenue Collections                                      x       x       x        x        x        x               x        x          x
                       7. Inspection and Enforcement of Fluid Minerals                             x
                       8. Range Monitoring                                                         x
                       9. Land Exchanges                                                           x
                       10. Year 2000 Readiness                                     x


                       *The Office of the Special Trustee for American Indians is responsible for the "Management of Indian Trust Funds." OST did not prepare a
                       performance plan for Fiscal Year 1999 or produce a performance report. OST is in the process of implementing a Trust Management
                       Improvement Project and is under a Court Order to produce a quarterly report of its progress on the High Level Implementation Plan.

D.   We compared the agency’s Fiscal Year 1999 performance plan and Fiscal Year 1999 performance report to determine if any planned goals\measures were excluded from the report.

E.   We compared the agency’s Fiscal Year 1999 performance plan and Fiscal Year 1999 performance report to determine if any planned goals\measures were changed in the report.

F.   If the agency excluded or changed any of its Fiscal Year 1999 planned goals\measures, indicate whether the agency adequately explained why it excluded or changed the goal\measure.

G. We were not able to provide assurance regarding the validity and reliability of data because we have not assessed the adequacy of data collection, verification, and validation processes
   for each of the agency’s Fiscal Year 1999 performance goals\measures. However, we attempted to determine whether the agency’s verification and validation process as described in
   its performance plan and\or report could produce reliable data, assuming that there were adequate controls to ensure the integrity of the data throughout the process.

H.   In some instances an agency may have identified shortcomings or limitations in its data collection processes. The Fiscal Year 1999 performance report does not discuss data shortcomings;
     however, the Fiscal Year 2001 performance plan does describe data limitations, particularly the need to develop baseline data.

I.   Having identified shortcomings or limitations in its data collection processes, did the agency indicate what steps it would take to correct\overcome the problems. A Y response indicates
     that the agency has identified such steps or discontinued the performance goal\measure in its Fiscal Year 2001 performance plan. Responses to Column I should reconcile to the number
     of Y responses in Column H.




          OIG Report No. 00-I-533                                                                                                                                                  Page 79
U.S. GEOLOGICAL SURVEY

USGS’s fiscal year 1999 performance plan and report had two mission goals, two long term
goals, and ten annual performance goals\measures. The fiscal year 2001 performance plan had
two mission goals, two long term goals, and twelve annual performance goals\measures. The
measures typically consisted of units of activity, such as number of meetings held or hazardous
monitoring networks maintained.

Fiscal Year 1999 Performance Plan and Report.

The two mission and long-term goals in the fiscal year 1999 performance plan appropriately
address USGS’s major programs. The specific annual performance goals\measures are adequate
indicators of certain program activities. However, the report does not communicate what was
actually accomplished by performing those activities. For example, six hazards monitoring
networks were maintained. We consider the term "maintained" to be vague as to what was
achieved. For instance the networks could have been maintained to be operational 99 percent of
the time or the equipment could be maintained but not operational. Although the plan describes
the networks as consisting of flood, earthquake, volcano, landslide, geomagnetic, and an integrated
monitoring network, the report does not address what benefits were achieved by the operation of
the networks, whether lives were saved by early warning or response, whether property damage
was minimized by early warning, or describe how network operations achieved the overall
performance objective.

USGS’s fiscal year 1999 report did not specifically identified fiscal year the sources of data or the
data verification and validation methodology for its 10 performance goals\measures. However, in
the USGS fiscal year 2001 performance plan, Section III "Additional GPRA Information," the
reader finds Subsection 3.4, "Data Verification and Validation" where there is a general discussion
of USGS’s performance reporting system for all fiscal year 1999 performance data.

We are not able to provide assurance regarding the validity and reliability of data because we have
not assessed the adequacy of the USGS’s data collection, verification, and validation processes
for each of the USGS’s ten performance goals\measures. However, the fiscal year 2001 plan does
describe the validation and verification processes for each performance goal\measure. In our
opinion, these processes would produce reliable data if adequate controls are implemented to
ensure the integrity of the data.

Fiscal Year 2001 Performance Plan.

USGS’s fiscal year 2001 performance plan continued the 10 performance measures from fiscal
year 1999 with only minor change in the basis for measuring a specific data element, which we
considered to be a minor adjustment to the performance reporting. For fiscal year 2001 USGS
did include a customer satisfaction measure for each of the two long-term goals. However, it did
not provide a definition of the new measure; specifics concerning the data collection methodology,

OIG Report No. 00-I-533                                                                    Page 80
sources and limitations; or the validation process as it did for each of its ten other performance
measures.




OIG Report No. 00-I-533                                                                  Page 81
U.S. Geological Survey

                                  See notes at end of table:   A                                               B                                               C                                            D                                                E                                                   F                                              G                                   H                                                                 I




                                                                                                                                                                                              Fiscal Year 1999 performance plan goal excluded




                                                                                                                                                                                                                                                                                                                                                                                                                                                  Agency indicates what steps it will take to correct
                                                                                                                                                                                                                                                Fiscal Year 1999 performance plan goal changed



                                                                                                                                                                                                                                                                                                 performance plan goal was excluded or changed




                                                                                                                                                                                                                                                                                                                                                                                                  Agency acknowledges shortcomings in its data?
                                                                                                 describes a strategy to meet goal in the future?




                                                                                                                                                                                                                                                                                                 Adequate explanation of why Fiscal Year 1999




                                                                                                                                                                                                                                                                                                                                                 adequately described the data verification and
                                                                                                                                                    Goal relates to agency’s key management
                                                                                                 If not, report adequately explains why and




                                                                                                                                                                                                                                                                                                                                                 Agency’s performance plan and\or report
                                                               Fiscal Year 1999 goal achieved?




                                                                                                                                                                                                                                                                                                                                                                                                                                                  shortcomings in its data?
                                                                                                                                                                                                                                                                                                                                                 validation process?
                                                                                                                                                                                              from report?
                                                                                                                                                    challenges?




                                                                                                                                                                                                                                                in report?



                                                                                                                                                                                                                                                                                                 in report?
GPRA PROGRAM ACTIVITY\M ISSION GOAL :
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        SELECTED COMMENTS ON AGENCY GOALS\ MEASURES AND
FISCAL YEAR 1999 PERFORMANCE GOAL \M EASURE                                                                                                                                                                                                                                                                                                                                                                                                                                                             VALIDATION METHODS

Hazards: Provide science for a changing world focusing efforts in response to present and anticipated needs to predict and monitor hazardous events in near-real and real-time and to
conduct risk assessments to mitigate loss.
01.01.01.01.99: Hazards monitoring networks maintained -
                                                               Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                   N                                                              -
six (6).
01.01.01.02.99: Risk assessments delivered - ten (10)          Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                   N                                                              -
01.01.01.03.99: Real-time stream-gages - cumulative .                                                                                                                                                                                                                                                                                                                                                                                                                                                   Measure changed for Fiscal Year 2000. Real-time stream-
                                                               Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                 Y                                                           Y
Size of the network 4,671 streamgauges                                                                                                                                                                                                                                                                                                                                                                                                                                                                  gages on the internet [quarterly average] .
01.01.01.04.99: Real-time earthquake sensors - cumulative
                                                               Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                   N                                                              -
number os sensors 120.
01.01.01.05.99: Stakeholder meetings conducted 16.             Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                   N                                                              -
Environment and Natural Resources: Provide science for a changing world in response to present and anticipated needs to expand our understanding of environment and natural
resource issues on regional, National, and global scales and enhance predictive\forecast modeling capabilities.
02.01.01.01.99: Long-term data collection and data
management efforts maintained and improved, and large          Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                   N                                                              -
data structures supported - 40.
02.01.01.02.99: New products from systematic analyses
                                                               Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                   N                                                              -
and investigations delivered to customers - 843 products.
02.01.01.03.99: Decision support systems or predictive
models developed or improved and delivered to customers -      Y                                                 -                                             N                                            N                                                N                                                     -                                            Y                                   N                                                              -
six (6) completions.




  Legend of responses: Y = Yes;          N = No      A Dash ( - ) = Not applicable or no response required based on response to prior question.


        OIG Report No. 00-I-533                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         Page 82
U.S. Geological Survey

                                  See notes at end of table:   A                                                B                                               C                                            D                                                E                                                   F                                              G                                   H                                                                 I




                                                                                                                                                                                               Fiscal Year 1999 performance plan goal excluded




                                                                                                                                                                                                                                                                                                                                                                                                                                                   Agency indicates what steps it will take to correct
                                                                                                                                                                                                                                                 Fiscal Year 1999 performance plan goal changed



                                                                                                                                                                                                                                                                                                  performance plan goal was excluded or changed




                                                                                                                                                                                                                                                                                                                                                                                                   Agency acknowledges shortcomings in its data?
                                                                                                  describes a strategy to meet goal in the future?




                                                                                                                                                                                                                                                                                                  Adequate explanation of why Fiscal Year 1999




                                                                                                                                                                                                                                                                                                                                                  adequately described the data verification and
                                                                                                                                                     Goal relates to agency’s key management
                                                                                                  If not, report adequately explains why and




                                                                                                                                                                                                                                                                                                                                                  Agency’s performance plan and\or report
                                                                Fiscal Year 1999 goal achieved?




                                                                                                                                                                                                                                                                                                                                                                                                                                                   shortcomings in its data?
                                                                                                                                                                                                                                                                                                                                                  validation process?
                                                                                                                                                                                               from report?
                                                                                                                                                     challenges?




                                                                                                                                                                                                                                                 in report?



                                                                                                                                                                                                                                                                                                  in report?
GPRA PROGRAM ACTIVITY\M ISSION GOAL :
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         SELECTED COMMENTS ON AGENCY GOALS\ MEASURES AND
FISCAL YEAR 1999 PERFORMANCE GOAL \M EASURE                                                                                                                                                                                                                                                                                                                                                                                                                                                              VALIDATION METHODS

02.01.01.04.99: University-based partnerships for natural                                                                                                                                                                                                                                                                                                                                                                                                                                                An explanation of why the goal was not achieved is found
                                                                 N                                           Y                                                  N                                            N                                                N                                                     -                                            Y                                   N                                                              -
systems analysis - 272 partnerships                                                                                                                                                                                                                                                                                                                                                                                                                                                                      on page 22 of the Report.
02.01.01.05.99: Stakeholder meetings conducted - 228.          Y                                                  -                                             N                                            N                                                N                                                     -                                            Y                                   N                                                              -

                                                               9Y                                                                                                                                                                                                                                                                                                                                  1Y
                                                                                                     1Y                                              10N                                       10N                                               10N                                                                -                                  10Y                                                                                             1Y
Total Goals: 10
                                                               1N                                                                                                                                                                                                                                                                                                                                  9N



NOTES:

A.   The agencies generally reported whether or not the performance goal\measure was met for Fiscal Year 1999. However, in some instance the agency reported that for the performance
     goal\measure it did not have the data or was unable to collect the data met for the specific measure. In these instances, we recorded a No response for the performance goal\measure
     because it was not achieved. When necessary, a specific comment was included in the comment section.

B.   A response is only required for this question if the response in Column A was ‘N’. Responses to Column B should reconcile to the number of N responses in Column A.




         OIG Report No. 00-I-533                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         Page 83
U.S. Geological Survey

C.   On December 1, 1998, the Office of Inspector General provided the Congress a current assessment of the 10 key management challenges within the Department of the Interior. The table
     below shows each challenge and the Departmental agency it applies to.

                        10 Key Management Challenges                             DMO      BIA     BLM     BOR        MMS    NPS     OIA      OSM      FWS     USGS
                        1. Management of Indian Trust Funds *
                        2. Maintenance                                             x       x       x                          x                        x
                        3. National Park Service Housing                                                                      x
                        4. Financial Management                                    x       x                                          x
                        5. Waste Management                                        x       x       x        x                 x                        x
                        6. Revenue Collections                                     x       x       x        x         x       x               x        x         x
                        7. Inspection and Enforcement of Fluid Minerals                            x
                        8. Range Monitoring                                                        x
                        9. Land Exchanges                                                          x
                        10. Year 2000 Readiness                                    x


                        *The Office of the Special Trustee for American Indians is responsible for the "Management of Indian Trust Funds." OST did not prepare a
                        performance plan for Fiscal Year 1999 or produce a performance report. OST is in the process of implementing a Trust Management
                        Improvement Project and is under a Court Order to produce a quarterly report of its progress on the High Level Implementation Plan.

D.   We compared the agency’s Fiscal Year 1999 performance plan and Fiscal Year 1999 performance report to determine if any planned goals\measures were excluded from the report.

E.   We compared the agency’s Fiscal Year 1999 performance plan and Fiscal Year 1999 performance report to determine if any planned goals\measures were changed in the report.

F.   If the agency excluded or changed any of its Fiscal Year 1999 planned goals\measures, indicate whether the agency adequately explained why it excluded or changed the goal\measure.

G.   We were not able to provide assurance regarding the validity and reliability of data because we have not assessed the adequacy of data collection, verification, and validation processes
     for each of the agency’s Fiscal Year 1999 performance goals\measures. However, we attempted to determine whether the agency’s verification and validation process as described in
     its performance plan and\or report could produce reliable data, assuming that there were adequate controls to ensure the integrity of the data throughout the process.

H.   In some instances an agency may have identified shortcomings or limitations in its data collection processes.

I.   Having identified shortcomings or limitations in its data collection processes, did the agency indicate what steps it would take to correct\overcome the problems. A Y response indicates
     that the agency has identified such steps or discontinued the performance goal\measure in its Fiscal Year 2001 performance plan. Responses to Column I should reconcile to the number
     of Y responses in Column H.




          OIG Report No. 00-I-533                                                                                                                                                  Page 84
